<html>
<title> - ADDRESSING THE NEW REALITY OF CURRENT VISA POLICY ON INTERNATIONAL STUDENTS AND RESEARCHERS</title>
<body><pre>[Senate Hearing 108-809]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-809

   ADDRESSING THE NEW REALITY OF CURRENT VISA POLICY ON INTERNATIONAL 
                        STUDENTS AND RESEARCHERS

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                      ONE HUNDRED EIGHTH CONGRESS



                             SECOND SESSION



                               __________

                            OCTOBER 6, 2004

                               __________



       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                    U.S. GOVERNMENT PRINTING OFFICE
20-635                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN D. CHAFEE, Rhode Island      PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Alexander, Hon. Lamar, U.S. Senator from Tennessee...............    12
Coleman, Hon. Norm, U.S. Senator from Minnesota..................    37
    Prepared statement...........................................    41
Cotten, Catheryn, Director, International Office, Duke University    43
    Prepared statement...........................................    45
Goodman, Allan E., Ph.D., President and Chief Executive Officer, 
  Institute of International Education...........................    52
    Prepared statement...........................................    54
Herbert, Adam W., Ph.D., President, Indiana University...........    12
    Prepared statement...........................................    15
Jischke, Martin C., Ph.D., President, Purdue University..........     3
    Prepared statement...........................................     8
Johnson, Marlene M., Executive Director and Chief Executive 
  Officer, NAFSA: Association of International Education.........    62
    Prepared statement...........................................    64
Kattouf, Hon. Theodore H., President and Chief Executive Officer, 
  AMIDEAST.......................................................    84
    Prepared statement...........................................    86
Lugar, Hon. Richard G., U.S. Senator from Indiana................     1
Mote, D.C. (Dan), Jr., Ph.D., President, University of Maryland, 
  College Park, MD...............................................    21
    Prepared statement...........................................    24
Sarbanes, Hon. Paul S., U.S. Senator from Maryland...............    30
    Prepared statement...........................................    33
                                 ------                                

   Additional Statements and Questions and Answers Submitted for the 
                                 Record

Feingold, Russ D., U.S. Senator from Wisconsin, prepared 
  statement......................................................    94
Honey, Tim, Executive Director, Sister Cities International, 
  prepared statement.............................................    96
Johnson, Marlene, response to question from Senator Feingold.....    95
Kattouf, Ted, responses to questions from Senator Feingold.......    95
Vande Berg, Dr. Michael, Director of International Programs, 
  Georgetown University, prepared statement......................    98

 
  ADDRESSING THE NEW REALITY OF CURRENT VISA POLICY ON INTERNATIONAL 
                        STUDENTS AND RESEARCHERS

                              ----------                              


                       WEDNESDAY, OCTOBER 6, 2004

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Richard G. 
Lugar (chairman), presiding.
    Present: Senators Lugar, Alexander, Coleman, and Sarbanes.

 OPENING STATEMENT OF HON. RICHARD G. LUGAR, U.S. SENATOR FROM 
                            INDIANA

    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order. Today the committee meets to 
examine the impact of new visa policies on foreign students and 
researchers seeking to study in the United States. These 
temporary visitors provide enormous economic and cultural 
benefits to our country. Hosting foreign students also is one 
of the most successful elements of our public diplomacy. We 
have critiqued and even lamented some aspects of our public 
diplomacy since the end of the cold war, but the work of our 
universities in establishing ties with millions of foreign 
students stands as an important public diplomacy achievement.
    In numerous hearings and discussions on public diplomacy, 
this committee has consistently heard reports of the value of 
foreign exchanges, particularly multi-year student exchanges. 
Fostering such exposure for overseas visitors is vital if we 
hope to counter the distorted image of the United States that 
so many foreign citizens receive through censored or biased 
media outlets in their home countries.
    Recently I was reminded of the foreign policy impact of 
hosting foreign students when I traveled to Georgia and met 
with its new President, Michael Saakashvili. President 
Saakashvili received his law degree from Columbia University, 
where he studied under the Muskie fellowship program. In fact, 
almost every member of his cabinet had attended an American 
college or university during their academic careers. Some had 
come to the United States as part of the State Department's 
international visitors program or on a Fulbright or Muskie 
fellowship.
    The result was that the leadership of an important country 
had a personal understanding of the core elements of American 
society and governance. Perhaps more importantly, they had an 
understanding and appreciation of Americans themselves.
    Of the 12.8 million students enrolled in higher education 
in the United States during the last academic year, almost 
600,000, some 4.6 percent, were foreign undergraduate and 
graduate students who were attending school on F-1 visas. These 
students contribute almost $12.9 billion annually to the United 
States economy. This is roughly equivalent to the amount of 
medical equipment and supplies exported annually by the United 
States. Thus, higher education functions as a major export 
commodity that improves our trade balance.
    My home State of Indiana currently is the temporary home of 
almost 13,500 students. This population pumps more than $330 
million annually into our State's economy.
    We also should recognize the important role played in the 
United States by talented foreign scientists who work at some 
of our most renowned research facilities. For example, about 
1,900 foreign scientists who have come to this country on J-1 
visas perform groundbreaking research in conjunction with our 
own scientists at the National Institutes of Health. They are 
contributing not only to the United States economy, but also 
the health of Americans.
    After the September 11, 2001 attacks, Congress reexamined 
visa policy in light of heightened security concerns. We 
adopted new visa requirements in the interest of national 
security. Today we intend to carefully examine how the security 
purposes of those changes are being balanced with our goals 
pertaining to foreign students. In particular we want to 
determine whether the change in visa procedures are 
unnecessarily limiting or deterring students, researchers, and 
official visitors from coming to our universities.
    One new mechanism is the Student and Exchange Visitor 
Information System, known as ``SEVIS.'' This system is used to 
verify the location and academic status of international 
students. To fund the system, student visa applicants are 
charged a $100 fee. In some cases, this fee has been a 
financial disincentive for foreign students to apply to 
American institutions of higher learning, in part because the 
fee is not refunded if the student visa is turned down.
    Another recurring concern is the difficulty many students 
have in complying with the so-called 214(b) statute, whereby 
visa applicants must demonstrate that they are not intending to 
emigrate. Few would argue with the intent of the statute, but 
prospective students, because of their age and educational 
focus, often lack employment and property in their home 
countries. Since employment and property are primary indicators 
that a visa applicant will return home, student visas sometimes 
are delayed or denied even when applications otherwise are in 
order.
    In spite of the problems associated with visa restrictions, 
I understand that the Consular Affairs Bureau at the State 
Department is adjudicating student applications more 
efficiently than when the new security procedures first took 
effect. This progress is due, in part, to greater information-
sharing between the Department of State, the Department of 
Homeland Security, and other governmental agencies.
    Thanks to Secretary Powell's Diplomatic Readiness 
Initiative, we also have been able to fund 350 new consular 
positions. In addition, the State Department has instructed 
embassies to give students priority when scheduling visa 
interviews.
    The United States must achieve an effective balance on 
student visas. We know that Canada, the United Kingdom, and 
Australia are aggressively recruiting many of the same students 
who might otherwise come to the United States. Security must 
not be compromised, but our government should help our 
universities to remain competitive by doing everything it can 
to reduce unnecessary delays in evaluating and processing 
student visas.
    I am pleased to welcome two expert panels to our hearing 
today. On the first panel we will hear from: Dr. Martin 
Jischke, President of Purdue University; Dr. Adam Herbert, 
President of Indiana University; and Dr. Dan Mote, President of 
the University of Maryland. The three universities represented 
here today are among the leaders in hosting foreign students. 
Purdue has the fourth largest number of foreign students among 
United States universities, while the University of Maryland 
ranks fourteenth and Indiana University ranks twentieth. These 
witnesses have thought a great deal about the role of foreign 
students at United States universities and how the student visa 
process can be improved.
    On the second panel we have: Dr. Allan Goodman from the 
Institute of International Education, which produces ``Open 
Doors,'' an annual study on foreign students coming to the 
United States and U.S. students studying abroad; Ms. Catheryn 
Cotten, the Director of the International Office at Duke 
University, where she has been studying the history and impact 
of SEVIS and its predecessor; and Ambassador Ted Kattouf, 
President and CEO of AMIDEAST, which specializes in student 
exchanges from the Middle East; and Ms. Marlene Johnson, CEO of 
Association of International Educators.
    We look forward to hearing the insights and recommendations 
of our distinguished witnesses. It is a privilege now to greet 
the first panel and to ask that you testify in the order that I 
introduced you, which would be first of all Dr. Jischke, then 
Dr. Herbert, and then Dr. Mote. All of your statements will be 
made a part of the record in full and you may proceed as you 
wish, either with some of the statement, a summary of it, or 
your own recitation. We are delighted to greet you this 
morning.
    Let me just mention that the hearing started promptly at 
9:30, maybe even a tad before the buzzer, because this is a 
busy day in the life of the Senate. At 11:30 we are told we 
will have the beginning of 16 roll call votes. That will 
effectively end the hearing. Senators who are not present now 
will be present on the floor voting 16 times to complete the 
intelligence bill.
    I hope other Senators will join us. I appreciate that you 
have come, because this is an important hearing before the 
Senate recesses and we wanted to make this contribution to the 
committee record.
    Dr. Jischke, would you please proceed with your testimony.

   STATEMENT OF MARTIN C. JISCHKE, PH.D., PRESIDENT, PURDUE 
                           UNIVERSITY

    Dr. Jischke. Thank you, sir. Mr. Chairman, staff of the 
Foreign Relations Committee: Thank you for this opportunity. 
May I say, sir, that I find your opening statement very 
encouraging and I want to thank you for the observations you 
have made already this morning.
    Today nearly 600,000 international students are attending 
universities in the United States. Purdue enrolls nearly 5,000 
of these students from 130 different nations of the world. 
Purdue has the largest international student population among 
U.S. public universities. We have a history of international 
enrollment that dates back nearly 100 years.
    I believe international education holds enormous promise in 
fulfilling our greatest hopes for the 21st century. 
International education exchange promotes understanding and 
friendships. When we provide an opportunity for the world's 
best and brightest to study in America, we give them a chance 
to understand our values and our way of life. Students come 
from other parts of the world, they come to our campuses and 
are exposed to our Nation and our people. They come to 
understand our culture and society better.
    Our international students are exceptional people who will 
grow to become leaders in their home nations. U.S. relations 
around the world in the next 50 years are being nurtured at 
college campuses such as Purdue all across our Nation today.
    American students, faculty, and staff also benefit 
tremendously through interaction with people from a variety of 
backgrounds and cultures. International educational exchange 
programs open a door to the world for our own students. It is a 
door of understanding. In the years ahead, American young 
people will live and work in an increasingly globalized world 
where they will need to interact with a wide variety of people, 
cultures, and customs. International enrollment at our campuses 
prepares our American students for their future. It also helps 
to break down stereotypes and misinformation that are the 
breeding grounds of intolerance.
    Among many prominent Purdue graduates who were 
international students is Dr. Marwan Jamil Muasher. Dr. Muasher 
is the Jordanian Minister of Foreign Affairs. During a recent 
talk at Purdue, he mentioned that 50 percent of the Jordanian 
cabinet are U.S.-educated. This has promoted understanding and 
better relations between our two countries.
    Since September 11, 2001, the growth of international 
students coming to the United States has slowed considerably. 
We believe that this year international enrollment at U.S. 
universities will actually drop below the fall 2003 level. This 
will be the first decline in about 30 years. In the data 
collected earlier this year for all of 2004, the 25 research 
universities that enrolled the most international students 
reported significant declines in international graduate 
applications. Nine of these universities indicated a decrease 
of 30 percent or more. The number of international students 
enrolled at Purdue this fall is 4,921. That is down from 5,094 
the year before. This is, in fact, the first drop in 
international enrollment we have seen at Purdue in more than 
three decades.
    We believe there are several reasons for this decline. 
First, the entire student visa process is causing students to 
look elsewhere for international education. In some cases the 
problems are quite real, in some cases they are only perceived. 
But the impact can be seen on our campuses today. In a fall 
2003 survey, institutions responding indicated a 49-percent 
increase in the number of visa delays for new and continuing 
international undergraduate students. These delays caused 
students to miss the start of classes and become hopelessly 
behind. In some cases, continuing students fall so far behind 
that they had to drop their courses.
    At Purdue we have lost more than 100 prospective students 
due to visa delays since 2002. When one of our continuing 
students returned home to China, it was more than 5 months 
before his application to return was approved. By the time he 
was able to get back to West Lafayette, his wife in West 
Lafayette had already delivered their first child.
    Visa delays, though, are not the only reason for declining 
international enrollment in the United States. It is a 
combination of factors and visa delays that deliver the final 
blow that persuades students to study elsewhere. First, 
international enrollment in the United States is in decline 
today because there are more options available to these top 
students at home. Asian countries are investing more than ever 
before in higher education.
    Second, as you have noted, sir, American universities are 
facing significant increased competition for the top 
international students from institutions in countries such as 
Great Britain, Australia, New Zealand, and Canada. The number 
of Chinese and Indian students going to universities in 
Australia last fall was up 25 percent. The number of students 
from India was up 31 percent. Great Britain saw a rise in 
Chinese and Indian students of 36 and 16 percent respectively.
    When I received the invitation to speak at this hearing 
this morning, I met with a group of international student 
leaders from the Purdue campus. This is what they told me. The 
new U.S. visa application process is long and complicated and 
often unpredictable. It can cause delays and in some cases 
significant problems.
    However, our students also tell me the U.S. visa 
application process is not the only factor that is causing 
large numbers of students to reconsider study in the United 
States. Most frequently mentioned was slow growth in the U.S. 
economy.
    On May 12, 2004, 24 representatives of American 
organizations of higher education, science, and engineering 
drafted a series of problems and recommendations concerning the 
international student visa process. Senator Lugar, I would like 
to ask that this document, ``Statement and Recommendations on 
Visa Problems Harming America's Science, Economic and Security 
Interests,'' be entered into the committee official record.
    The Chairman. It will be placed in the record.
    [The information referred to follows:]

   Statement and Recommendations on Visa Problems Harming America's 
              Scientific, Economic, and Security Interests

    We, the undersigned American organizations of higher education, 
science, and engineering are strongly committed to dedicating our 
combined energies and expertise to enhancing homeland and national 
security. Our nation's colleges and universities and scientific and 
technical organizations are the engines of new knowledge, discoveries, 
technologies, and training that power the country's research enterprise 
and contribute greatly to economic and national security. Moreover, 
they are important hubs of international scientific and technical 
exchanges, and they play a vital role in facilitating educational and 
cultural exchanges that help to spread our nation's democratic values.
    We strongly support the federal government's efforts to establish 
new visa policies and procedures to bolster security; however, we 
believe that some of the new procedures and policies, along with a lack 
of sufficient resources, have made the visa issuance process 
inefficient, lengthy, and opaque. We are deeply concerned that this has 
led to a number of unintended consequences detrimental to science, 
higher education, and the nation.
    In particular, there is increasing evidence that visa-related 
problems are discouraging and preventing the best and brightest 
international students, scholars, and scientists from studying and 
working in the United States, as well as attending academic and 
scientific conferences here and abroad. If action is not taken soon to 
improve the visa system, the misperception that the United States does 
not welcome international students, scholars, and scientists will grow, 
and they may not make our nation their destination of choice now and in 
the future. The damage to our nation's higher education and scientific 
enterprises, economy, and national security would be irreparable. The 
United States cannot hope to maintain its present scientific and 
economic leadership position if it becomes isolated from the rest of 
the world.
    We are resolute in our support of a secure visa system and believe 
that a more efficient system is a more secure one. We also are 
confident that it is possible to have a visa system that is timely and 
transparent, that provides for thorough reviews of visa applicants, and 
that still welcomes the brightest minds in the world. It is not a 
question of balancing science and security, as some have suggested. 
These priorities are not mutually exclusive; to the contrary, they 
complement each other, and each is vital to the other. Indeed, in the 
near term, some international scientists and engineers are directly 
contributing towards helping to win the war on terrorism. In the long 
run, a robust network of global interactions is essential to winning 
this war. Our nation needs a visa system that does not hinder such 
international exchange and cooperation.
    The Departments of State and Homeland Security have responded to 
some of our concerns by taking steps to make the visa process less 
cumbersome and more transparent. However, serious problems remain, and 
it is in the hope of resolving these issues collaboratively that we 
offer the following recommendations:

    Problem: Repetitive security checks that cause lengthy visa 
issuance delays.
    Recommendation: Extend the validity of Visas Mantis security 
clearances for international students, scholars, and scientists from 
the current one-year time period to the duration of their course of 
study or academic appointment. When those who have received a favorable 
Security Advisory Opinion from Visas Mantis apply to renew their visas, 
consular officers could confirm that the applicants have not changed 
their program of study or research since issuance of their original 
clearances. This would eliminate a redundant procedure that sometimes 
causes unnecessary delays and hardships.
    Problem: Inefficient visa renewal process that causes lengthy 
delays.
    Recommendation: Establish a timely process by which exchange 
visitors holding F and J visas can revalidate their visas, or at least 
begin the visa renewal process, before they leave the United States to 
attend academic and scientific conferences, visit family, or attend to 
personal business. A visa renewal process that allows individuals to at 
least initiate the process before leaving the country would greatly 
diminish, and in many cases eliminate, lengthy visa delays, and it 
would allow them to continue their studies and work uninterrupted.
    Problem: Lack of transparency and priority processing in the visa 
system.
    Recommendation: Create a mechanism by which visa applicants and 
their sponsors may inquire about the status of pending visa 
applications, and establish a process by which applications pending for 
more than 30 days are given priority processing. Implementing these 
measures would greatly add to the transparency of the visa process and 
would help to ensure that applications do not get buried at the bottom 
of the pile or lost.
    Problem: Inconsistent treatment of visa applications.
    Recommendation: Provide updated training of consular staff, 
establish clear protocols for initiating a Visas Mantis review, and 
ensure that screening tools are being used in the most appropriate 
manner. We recognize that the government is pursuing efforts to enhance 
training, and we encourage this. Consular staff need the best available 
tools and training to perform their vital responsibilities. Additional 
training and guidance for consular staff could greatly enhance security 
while simultaneously reducing the number of applications submitted for 
Visas Mantis reviews, thereby alleviating potential delays.
    Problem: Repetitive processing of visa applications for those with 
a proven track record.
    Recommendation: Revise visa reciprocity agreements between the 
United States and key sending countries, such as China and Russia, to 
extend the duration of visas each country grants citizens of the other, 
thereby reducing the number of times that visiting international 
students, scholars, and scientists must renew their visas. We recognize 
that renegotiating bilateral agreements is a time-consuming process, 
and we believe it should be pursued as a long-term measure that allows 
the government to focus its visa screening resources by reducing the 
number of visa renewals that must be processed.
    Problem: Potential new impediment to international students, 
scholars, and scientists entering the U.S. created by proposed SEVIS 
fee collection mechanism.
    Recommendation: Implement a fee collection system for the Student 
and Exchange Visitor Information System (SEVIS) that allows for a 
variety of simple fee payment methods that are quick, safe, and secure, 
including payment after the individual arrives in the United States.

    Additional funding and staffing resources across the agencies 
involved in visa adjudications are essential to the above 
recommendations and to an effective visa system. Congress and the 
Administration should ensure that adequate resources are provided.
    We are committed to working with the federal government to 
construct a visa system that protects the nation from terrorists while 
enhancing our nation's security not only by barring inappropriate 
visitors but also by enabling the brightest and most qualified 
international students, scholars, and scientists to participate fully 
in the U.S. higher education and research enterprises. We believe that 
implementing the recommendations above will help to make this goal a 
reality.

Nils Hasselmo, President, Association of American Universities
Bruce Alberts, President, National Academy of Sciences
C. Peter Magrath, President, National Association of State Universities 
        and Land-Grant Colleges
Harvey V. Fineberg, M.D., Ph.D., President, Institute of Medicine
Alan I. Leshner, Chief Executive Officer, American Association for the 
        Advancement of Science
David Ward, President, American Council on Education
Wm. A. Wulf, President, National Academy of Engineering
Marlene M. Johnson, Executive Director and CEO, NAFSA: Association of 
        International Educators
Charles P. Casey, President, American Chemical Society
Helen R. Quinn, President, American Physical Society
George R. Boggs, President and CEO, American Association of Community 
        Colleges
Felice Levine, Executive Director, American Educational Research 
        Association
Debra W. Stewart, President, Council of Graduate Schools
David A. Eastmond, Ph.D., President, Environmental Mutagen Society
John W. Steadman, Ph.D., P.E., President, IEEE-USA
Joan L. Bybee, President, Linguistic Society of America
James H. Nelson, President, American Association of Physics Teachers
Thomas E. Shenk, President, American Society for Microbiology
Katharina Phillips, President, Council on Governmental Relations
Robert D. Wells, Ph.D., President, The Federation of American Societies 
        for Experimental Biology (FASEB)
Eugene G. Arthurs, Executive Director, SPIE--The International Society 
        for Optical Engineering
David L. Warren, President, The National Association of Independent 
        Colleges and Universities
Alyson Reed, Executive Director, National Postdoctoral Association
Lynne Sebastian, Ph.D., RPA, President, Society for American 
        Archaeology
Bettie Sue Masters, President, American Society for Biochemistry and 
        Molecular Biology
Additional Endorsing Organizations
American Academy of Arts and Sciences
American Association of State Colleges and Universities
American Philosophical Society
Association of International Education Administrators
Institute of International Education
National Academic Consortium for Homeland Security
American Astronomical Society
American Psychological Association
Infectious Diseases Society of America
Optical Society of America

    Dr. Jischke. Thank you. I encourage the committee to 
seriously consider these recommendations concerning visa policy 
reform.
    The decline in international students will first be felt 
most severely at American universities that do not have the 
same recognition abroad as institutions such as Purdue. But if 
the trend is not reversed it will eventually grow to weaken all 
our institutions, including Purdue. The loss of these 
outstanding international scholars will not only be a major 
economic blow to our country, I believe it also will work 
against our long-term interest to promote national security and 
improve international relations, friendships, and 
understanding. It will result in a loss of academic quality.
    Universities and our government must cooperate to meet the 
challenge of maintaining strong international programs for a 
better tomorrow while at the same time ensuring our national 
security today. This is a challenging task, but this country 
never balked at important issues because they were just 
challenging.
    Thank you for this opportunity to visit with you today 
about this very important issue. Thank you, sir.
    [The prepared statement of Dr. Jischke follows:]

    Prepared Statement of Dr. Martin C. Jischke, President, Purdue 
                               University

    Mr. Chairman, Ranking Member Biden, members of the Senate Foreign 
Relations Committee, thank you for the opportunity to talk with you 
today about an issue that I believe is vitally important, not only to 
students and higher education but to our international relations, our 
nation and our national security.
    Today nearly 600,000 international students are attending 
universities in the United States.
    Purdue University enrolls nearly 5,000 of these students from 130 
different nations. Purdue has the largest international student 
population among U.S. public universities. We have a history of 
international enrollment that dates back nearly 100 years and Purdue 
enjoys a particularly long and strong relationship with China, Taiwan, 
Korea, Hong Kong and India.
    As we meet this morning, there are more than 2,000 students from 
China, India and South Korea alone studying on our West Lafayette 
campus.
    International students are good for our economy. In 2002/2003, 
international students contributed almost $12.9 billion to the U.S. 
economy. In the state of Indiana alone, the amount is $332,576,169.
    But in a larger sense, I believe international education holds 
enormous promise in fulfilling our greatest hopes for the 21st century.
    International educational exchange promotes understanding and 
friendships. When we provide an opportunity for the world's best and 
brightest to study in America, we give them a chance to understand our 
values and way of life. Students from other parts of the world who come 
to our campuses are exposed to our nation and people. They come to 
understand our culture and society better.
    Our international students are exceptional people, who will grow to 
become leaders in their home nations. U.S. relations around the world 
in the next 50 years are being nurtured at college campuses such as 
Purdue across our nation today.
    American students, faculty and staff also benefit tremendously 
through interaction with people from a variety of backgrounds and 
cultures. International educational exchange programs open a door to 
the world for our students. It is a door of understanding.
    In the years ahead, American young people will live and work in an 
increasingly globalized world where they will need to interact with a 
wide variety of people, cultures and customs.
    International enrollment on our campuses prepares our students for 
their future. It also helps to break down stereotypes and 
misinformation that are the breeding grounds of intolerance.
    Among many prominent Purdue graduates who were international 
students is Dr. Marwan Jamil Muasher. Dr. Muasher is the Jordanian 
Minister of Foreign Affairs.
    During a recent talk at Purdue, he mentioned that 50 percent of the 
Jordanian cabinet is U.S.-educated. This has promoted understanding and 
better relations between our two countries.
    He has also expressed concern that the delays in the U.S. student 
visa application process are discouraging Jordanians from studying 
here. In fact, we have experienced a decline in students coming to 
Purdue from Jordan.
    Another Purdue international graduate is Patrick Wang, of Hong 
Kong, CEO and chairman of Johnson Electric, a world leader in the 
manufacture of micro motors. Mr. Wang is among a group of international 
graduates who are helping us educate students today.
    Yet another is Allen Chao, Chairman and CEO, Watson Pharmaceuticals 
Inc. in Corona, California.
    Purdue graduate Anna Pao Sohmen is a business, political, education 
and cultural leader in Hong Kong.
    Leaders from throughout the world have studied at U.S. 
universities.
    A few who have been influenced by their international experiences 
are:
  <bullet> United Nations Secretary General Kofi Annan, who studied at 
        Macalester College in Minnesota and Massachusetts Institute of 
        Technology in Boston;
  <bullet> King Abdullah II of Jordan and President Gloria Macapagal-
        Arroyo of the Philippines, who studied at Georgetown 
        University.
    Since September 11, 2001, the growth of international students 
coming to the United Sates has slowed considerably.
    Official national enrollment data for this fall is not yet 
available. But we believe that this year, international enrollment at 
U.S. universities will actually drop below the 2003 level.
    This will be the first decline in about 30 years.
    In data collected earlier this year for fall 2004, the 25 research 
universities that enroll the most international students reported 
significant declines in international graduate applications.
    Nine indicated a decrease of 30 percent or more. Six reported a 
decrease of between 11 percent and 30 percent.
    In September the Council of Graduate Schools reported a decline of 
18 percent in offers of admissions for international graduate students 
from 2003 to 2004. The largest declines in admissions were from China, 
down 34 percent, India, down 19 percent, and Korea, down 12 percent.
    The number of international students enrolled at Purdue this fall 
is 4,921. That is down from 5,094 one year earlier.
    Although a drop of 173 students might not seem great, we are very 
concerned. This is, in fact, the first drop in international enrollment 
we have seen at Purdue in three decades.
    We are concerned about what this means on our campus and what it 
means for our students. We are concerned about the national trend in 
declining enrollment. We are concerned about the impact this will have 
on education and our nation.
    We believe there are several reasons for this decline.
    First, the entire student visa process is causing students to look 
elsewhere for international education. In some cases the problems are 
real. In some cases they are only perceived. But the impact can be seen 
on our campuses today.
    In a fall of 2003 survey, institutions responding indicated a 49 
percent increase in the number of visa delays for new and continuing 
international undergraduate students.
    These delays cause students to miss the start of classes and become 
hopelessly behind. In some cases continuing students fall so far behind 
that they have to drop their courses.
    At Purdue, we have lost more than 100 prospective students since 
2002 due to visa delays. On average, we are losing 20 students per 
spring and fall semester. The largest loss was in the fall of 2002.
    We had one student from China who went home for a visit in the 
middle of his studies. It was more than a year before his application 
to return here was approved.
    When another continuing student returned home to China, it was more 
than five months before his application to return was approved. By the 
time he was able to get back to West Lafayette, his wife had already 
delivered their child.
    The picture is not entirely negative. Overall, the SEVIS system is 
technically functional and is improving. It is demonstrating how 
universities are doing their part to help with homeland security.
    But issues with visa delays and security clearances remain the 
weakest link in our work.
    Visa delays are not the only reason for declining international 
enrollment in the United States. It is a combination of factors, and 
visa delays deliver the final blow that persuades students to study 
elsewhere.
    First--international enrollment in the United States is in decline 
today because there are more options available to these top students.
    Asian countries are investing more than ever before in higher 
education, especially in graduate programs in science and technology.
    The quality of those programs is rapidly improving, and experience 
tells us these nations' economies should improve in the years ahead as 
a result.
    One of the top priorities for Taiwan is to allocate the equivalent 
of roughly $1.6 billion U.S. dollars over five years to a selected 
group of universities.
    This is being done as an incentive for them to reach--or draw 
closer to--the caliber of major American research institutions.
    China, Hong Kong, and South Korea are developing similar strategies 
to keep their talent at home or attract it back from abroad.
    Second, American universities are facing enormous competition for 
international students from institutions in Great Britain, Australia, 
New Zealand and Canada.
    The number of Chinese and Indian students going to universities in 
Australia last fall was up by 25 percent. The number of students from 
India was up 31 percent. Great Britain saw a rise in Chinese and Indian 
students of 36 percent and 16 percent, respectively.
    The European Union is creating a European Area of Higher Education 
featuring U.S.-style degrees offered in English. One of the express 
aims of this project is to compete with the U.S. for the world's best 
and brightest students.
    When I received an invitation to speak at this hearing today, I met 
with a group of international student leaders from the Purdue campus. I 
asked them about the decline in international enrollment and what they 
and their friends and associates believe are the reasons.
    This is what they told me:
  <bullet> The new U.S. visa application process is long and 
        complicated.
  <bullet> It can cause delays and in some instances significant 
        problems.
    Before September 11, 2001, the visa was usually issued ``on the 
spot'' or in a matter of days. Now it is a matter of weeks, sometimes 
months, due to security and background checks.
    We all know that security and background checks are needed. But 
some checks take an inordinate amount of time.
    However, our students tell us the U.S. visa application process is 
not the only factor that is causing large numbers of students to 
reconsider study in the United States. Our students listed other core 
reasons for the decline in international enrollment.
    Most frequently mentioned was the U.S. economy. The U.S. economy 
has struggled the past four years and many international students have 
trouble finding even internships during their studies.
    Many American companies in the high-tech sector will not consider 
hiring international students as interns.
    Other statements we heard included:
  <bullet> Governments that support the education of their students are 
        concerned about visa problems interrupting studies and wasting 
        their investment;
  <bullet> The cost of living and studying in the United States is 
        higher than in other nations; and
  <bullet> A general decline in the U.S. image and prestige, especially 
        among European and Middle East students.
    Similar statements came from Purdue recruiters who have just 
returned from interviews with prospective undergraduate students and 
their high school counselors in Asia, South and Central America.
    At Purdue we are responding to all of this.
    We have worked to combat the visa delays by encouraging prospective 
students to apply for admission earlier--
  <bullet> By encouraging our departments to make admission decisions 
        earlier;
  <bullet> By encouraging prospective students to confirm attendance 
        earlier.
    If prospective students and departments act earlier, Purdue's 
Office of International Students and Scholars is able to issue the 
immigration document earlier.
    We have also encouraged foreign governments and various agencies 
that financially sponsor students to make their student selections 
earlier so that there will be enough time for securing the visa.
    For the long term, we are devising new recruitment strategies at 
both the undergraduate and graduate levels to attract international 
students to Purdue.
    We are working on the perceptions held by many overseas families 
and prospective students, as well as many foreign government officials, 
that their students will not receive student visas in a timely fashion 
to commence studies.
    On May 12, 2004, 24 representatives of American organizations of 
higher education, science and engineering drafted a series of problems 
and recommendations concerning the international student visa process.
    Senator Lugar, I would like to ask that this document, ``Statement 
and Recommendation on Visa Problems Harming America's Science, Economic 
and Security Interests,'' be entered into the committee official 
record.
    I encourage this committee to consider seriously these 
recommendations concerning visa policy reform.
    In closing, let me offer you some specific recommendations that 
have emerged from our experiences at Purdue:
    1. Focus efforts on those who require special screening.
  <bullet> Give consulates discretion to grant waivers of personal 
        appearance based on risk analysis, subject to State Department 
        policy guidance and approval, as recommended by the State 
        Department Inspector General in December 2002.
  <bullet> Refine controls on advanced science and technology.
  <bullet> In consultation with the scientific community, define the 
        advanced science and technology to which access must be 
        controlled, and empower consular officers to exercise 
        discretion on non-sensitive applications where neither the 
        applicant nor the applicant's country present concerns.
  <bullet> Avoid repetitive processing of those who temporarily leave 
        the United States.
  <bullet> Institute a presumption that a security clearance is valid 
        for the duration of status or program, assuming no status 
        violations. Any necessary reviews within this period should be 
        fast-tracked.
  <bullet> Avoid repetitive processing of frequent visitors.
  <bullet> Establish a presumption of approval for those who have 
        previously been granted U.S. visas and who have no status 
        violations.
  <bullet> Expedite processing and save consular resources by 
        incorporating pre-screening or pre-certification of students 
        and scholars. This could be accomplished in many ways. Options 
        include: (a) The sending countries could agree to pre-screen 
        applicants in order to facilitate their citizens' entry into 
        the U.S.; (b) the sending universities could provide identity 
        verification under agreements executed with consulates; and (c) 
        the State Department could use its own overseas advising 
        centers to ensure that all necessary documents are in order 
        before applications are sent on to the consulates.
    2. Create a timely, transparent and predictable visa process.
    The White House should institute standard guidelines for inter-
agency reviews of visa applications:
  <bullet> Establish a 15-day standard for responses to the State 
        Department from other agencies in the inter-agency clearance 
        process.
  <bullet> Implement a 30-day standard for the completion of the entire 
        inter-agency review process, including the response to the 
        consulate's security clearance request.
  <bullet> Flag for expedited processing any application not completed 
        within 30 days, and advise the consulate of the delay and the 
        estimated processing time remaining.
  <bullet> In the case of applications not completed within 30 days, 
        the applicant, or the program to which the applicant seeks 
        access, should be able to inquire about the application's 
        status, and the estimated processing time remaining, via a 
        call-in number or e-mail in box.
  <bullet> Establish a special review process to resolve any cases not 
        decided within 60 days.
  <bullet> Make ground rules predictable by imposing them 
        prospectively, not on those already in the application 
        pipeline.
    3. The validity of Visas Mantis security clearances should be 
extended for international students, scholars, and scientists from the 
current one-year time period to the duration of their course of study 
or academic appointment. This would prevent the need for repetitive 
security checks that cause visa issuance delays.
    4. A timely process should be established by which exchange 
visitors holding F (student) and J (scholars/scientists) visas can 
revalidate their visas, or at least begin the visa renewal process, 
before they leave the United States to attend academic and scientific 
conferences, visit family, or attend to personal business.
    5. Visa reciprocity agreements should be revised between the United 
States and key sending countries, such as China and Russia, to extend 
the duration of visas each country grants citizens of the other, 
thereby reducing the number of times that visiting international 
students, scholars, and scientists must renew their visas.
    In this, we obviously need to work with the countries involved; it 
is not an issue that can be resolved entirely by the United States 
alone.
    6. The Department of Homeland Security and the State Department 
should continue to move forward on a proposed pilot study in China and 
India in which the State Department would collect the SEVIS fee 
directly from international students and scholars in those countries. 
This is a method of payment strongly supported by the academic 
community.
    7. Provide the necessary human and financial resources for security 
and background checks, and manage within them.
    The decline in international students is first being felt most 
severely at American universities that do not have the same name 
recognition abroad as institutions such as Purdue.
    But if the trend is not reversed, it will eventually grow to weaken 
all of our institutions, including Purdue.
    While we appreciate and support the need for security in this 
process, the loss of outstanding international scholars not only will 
be a major economic blow to our country. I believe it also will work 
against our long-term efforts to promote national security and to 
improve international relations, friendships and understanding.
    Furthermore, it will have a negative impact on the quality of 
education at U.S. universities. International enrollment not only 
improves our learning environment, these top students challenge our 
American students to stretch their own abilities. They contribute 
significantly to research.
    Universities and our government must cooperate to meet the 
challenge of maintaining strong international exchanges for a better 
tomorrow while at the same time ensuring our national security today.
    This is a challenging task.
    But this country has never balked at important issues just because 
they were challenging.
    Thank you for this opportunity to talk with you today about this 
most important issue.

    The Chairman. Well, thank you very much, President Jischke.
    We have been joined by Senator Lamar Alexander, who in 
addition to being a great Senator was a great university 
president. I wonder if, Lamar, you have any opening comment 
that you would like to make at this stage.

 STATEMENT OF HON. LAMAR ALEXANDER, U.S. SENATOR FROM TENNESSEE

    Senator Alexander. Thank you. Thanks, Mr. Chairman. I am 
grateful to you for the hearing. It is a tremendously important 
topic. I think I will reserve my comments until we have 
question time, but thank you for the opportunity.
    The Chairman. Thank you very much, sir.
    President Herbert, would you please proceed with your 
testimony.

    STATEMENT OF ADAM W. HERBERT, PH.D., PRESIDENT, INDIANA 
                           UNIVERSITY

    Dr. Herbert. Thank you very much, Mr. Chairman. I am 
honored to take part in this hearing that is focused on a 
matter of vital significance for U.S. higher education and also 
for the strategic interests of our country.
    Mr. Chairman, I would just like to begin by saying that the 
higher education leaders in Indiana particularly appreciate the 
contributions that you have made, obviously to U.S. foreign 
policy, but also to advancing knowledge through the exchange of 
international students and also scholars.
    Indiana University has a long history of rising to the 
challenges that have resulted from a wide array of world 
upheavals. One of my predecessors, Herman B. Wells, who was 
President of Indiana University from 1938 to 1962, foresaw the 
post-World War II leadership role that our country would assume 
and understood its very important implications for higher 
education. He created the infrastructure that has enabled 
Indiana University to respond to changing world conditions over 
the past 50 years.
    In 1958, for example, President Wells saw the need for 
greater knowledge about and engagement in the politics, 
economics, and languages of the Soviet Union. The university 
took the courageous step to establish the Russian and East 
European Institute, despite the fear of communism among many in 
the State of Indiana. This institute has produced outstanding 
academic specialists and civil servants for almost 50 years, 
including U.S. ambassadors and other foreign service personnel.
    IU has developed many other academic programs and research 
institutes devoted to the study of major regions of the world 
over the past 50 years. Today our university has 14 major 
international area centers that specialize in such regions as 
Africa, East Asia, Central Asia, Eastern Europe, Latin America, 
Russia, and Western Europe. We have a potential course 
inventory of some 80 foreign languages for which we can provide 
instruction. Included among these languages are ones that are 
least commonly taught, but are spoken in regions vital to U.S. 
interests. Just 1 year after 9-11, IU's intellectual depth, 
resources, and human capacity in Central Asia enabled it to 
respond to a changed world by establishing a center to teach 
languages spoken in Afghanistan, Tajikistan, and Uzbekistan. 
This center is supported by Title 6 funds of the Higher 
Education Act.
    International students and faculty are significant 
contributors to our university's global prominence. They 
enhance the diversity of the student population and add vibrant 
intellectual and cultural dimensions to the life of the campus 
and community. Every day person to person interactions have 
taken place between American and international students and 
faculty.
    There are more than 4,400 international students on our 
campuses. They come from 130 countries. Some 12,500 visiting 
scholars are at the university each year. They bring 
substantial knowledge and skills to our classrooms, 
laboratories, and research programs. They also help us to 
collaborate with scholars, universities, and institutions 
throughout the world.
    In the aftermath of 9-11, universities and colleges have 
had to make major changes in their reporting and documentation 
of international students and scholars, as you indicated, Mr. 
Chairman. IU has addressed the requirements of the Student and 
Exchange Visitor Information System. We have invested 
significant human and fiscal resources to meet them in a timely 
fashion. We are developing a technical infrastructure and also 
innovative interface between SEVIS and the University Student 
Information System that may serve as a national model.
    SEVIS has become a part of the university's day to day 
operations. Our university is concerned, however, that other 
efforts to strengthen homeland security may have had unintended 
negative consequences on the visa process. Despite recent State 
Department efforts to lessen delays in this process, Indiana 
University's international students and scholars continue to 
experience difficulties. These processing delays continue to 
discourage international students and visiting scholars coming 
to our country.
    At IU we have witnessed an unprecedented decline in 
applications from international students. This year on the 
Bloomington campus, graduate applications fell by 21 percent 
and undergraduate applications by 14 percent. Total 
international student enrollment has declined for the first 
time on record.
    With regard to countries of origin, during the past 5 years 
IU's enrollments from Muslim and Middle Eastern countries have 
declined 22 percent. For fall 2004, these enrollments declined 
by 13.2 percent over the previous year. Enrollments from the 
five leading countries of origin at the university--South 
Korea, China, India, Taiwan, and Japan--have declined by 11.6 
percent for fall of this year over last year. The numbers of 
students from China fell from 4,405 in fall 2003 to 357 in fall 
2004.
    These trends will have growing negative consequences for 
the university as a whole. A number of our international area 
centers, departments, research programs, and professional 
schools depend on the continued presence of international 
students and scholars. For example, over 30 percent of 
instructors, research specialists, and technical staff in our 
school of medicine, which is the second largest in the country, 
are from abroad. The school's research programs will be 
seriously impacted if they are no longer able to attract 
international scientists.
    These are serious problems confronting not only Indiana 
University, but other higher education institutions throughout 
the State. IU is responding to our decline in the number of 
international students by enhancing the information and 
resources that are available to students via the World Wide 
Web. We are engaging alumni and friends overseas to assist us 
more directly with recruitment. We are providing more extensive 
guidance to prospects and also scholars in the visa process. We 
are allocating significant resources to help them navigate that 
process and also offering financial incentives to attract 
outstanding students by maximizing the use of our scholarship 
funds.
    While these campus efforts may have some impact, they will 
not be sufficient to address the growing problems that I have 
described. We believe that there is a critical need to 
reexamine current visa policies. At IU we are especially 
concerned that our students continue to face bottlenecks at 
consular offices around the world. It is also evident that the 
90-second visa interview contributes to these delays. The 
critical question is whether these interviews are really 
necessary for the vast majority of legitimate applicants.
    We also believe that students and scholars who have 
successfully received entry visas should not be required to go 
through the same degree of scrutiny when they need to leave and 
reenter the country.
    Finally, we believe that providing resources for additional 
consular officials would certainly help in reducing the backlog 
in processing these applications.
    Mr. Chairman, several of the outstanding academic programs 
that we have worked to build at IU are at risk of experiencing 
major problems because of the visa issues I have outlined. Many 
of these programs further national strategic interests and I 
would just emphasize that what is happening at IU is occurring 
at colleges and universities throughout the country. Too many 
intellectual ties that cut across borders and unite peoples are 
being severed. This is a moment for decisive action. We must 
return our country to its preeminence in international 
education.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Herbert follows:]

     Prepared Statement of Dr. Adam W. Herbert, President, Indiana 
                               University

    Mr. Chairman, Members of the Committee: I am honored to participate 
in this important hearing that is focused on a matter of vital 
significance for U.S. higher education and for the strategic interests 
of our country.
    Mr. Chairman, our higher education leaders throughout Indiana 
particularly appreciate the contributions you have made to U.S. foreign 
policy and to advancing knowledge through the exchange of international 
students and scholars. Your insights and sensitivity to international 
issues have brought great distinction to the state and nation.
    My testimony this morning will address current visa policies 
affecting international students and researchers. I will do so through 
the lens of Indiana University and our experiences on eight campuses in 
coping with and responding to the challenges of the post-9/11 world. 
Our experiences mirror those of most large research institutions that 
share our national responsibility for international education.
Indiana University: Responding to a Changing World
    Indiana University has a long history of responding to fundamental 
challenges caused by major world changes. One of my predecessors, 
Herman B Wells, IU president from 1938 to 1962 and university 
chancellor until 2000, foresaw the post-World War II leadership role 
that the United States had to assume. He also anticipated its 
implications for U.S. higher education and laid the foundations for 
what Indiana University is today. The essence of so much of his 
thinking still resonates with us. In 1958, he wrote: ``We must maintain 
a concern for the development and needs of the world beyond our borders 
. . . great universities such as Indiana University offer the most 
promising possibility for putting this concern into action.''
    His abiding commitment to the free flow and exchange of ideas and 
people of all nations, his realization that international students and 
scholars were essential to a vibrant diversity on campus, his 
insistence on nurturing lively debate on controversial issues of the 
day--all are as relevant today as they were almost fifty years ago. Our 
university remains a place where students from even the smallest towns 
of Indiana can discover the wider world, meet people of different 
histories, ethnic backgrounds, religious beliefs, and cultural norms, 
and learn about the responsibilities of global engagement.
Indiana University: An institution with Unique International Strengths
    As early as the 1940s, Indiana University began building an 
infrastructure capable of addressing the nation's needs in 
international expertise and foreign languages. At the start of the Cold 
War, IU established a special training program to teach the U.S. Army 
such languages as Russian and Finnish. At the end of World War II, we 
recruited promising European scholars to come to IU. In 1958, we took 
the courageous step to establish the Russian and East European 
Institute amidst widespread fears of communism.
    The vision of IU being a global institution continued to be 
realized throughout subsequent decades of expansion. It has been 
reflected in the number of international research centers and language 
departments established, the range of overseas study opportunities 
provided and the abundance of international majors, minors, 
certificates, and concentrations made available throughout the IU 
curriculum.
    IU currently has 14 international and area studies centers, some of 
which have received continuous funding from Title VI of the Higher 
Education Act since its inception. Collectively, they offer hundreds of 
international studies courses in nearly every humanities and social 
science discipline and in the professional schools.
    Out of a potential inventory of some 80 foreign languages, IU 
offers almost 50 each year on a regular basis, many at advanced levels. 
Included are less commonly taught languages spoken in regions of 
strategic importance to the United States. Among these languages are 
Azeri, Haitian Creole, Hindi, Georgian, Hausa, Mongolian, Persian, 
Romanian, Tibetan and Uzbek.
    IU has long been a national leader in providing quality study 
abroad opportunities for its students in almost every discipline and 
school (tropical biology in Costa Rica, art and archaeology in Greece, 
business and economics in the Netherlands, language and culture in 
Germany).
    IU's Department of Central Eurasian Studies, established more than 
40 years ago, is unique in the nation in having a doctoral degree 
program. Just one year after 9/11, IU's reputation in Central Asian 
expertise enabled it to respond to a changed world by establishing a 
center to teach languages spoken in countries such as Afghanistan and 
Kazakhstan. This center also is supported by Title VI funds.
    IU has amassed international holdings in libraries, archives and 
museums that are among the strongest collections nationally. These 
collections have been enhanced by numerous Indiana University Press 
publications--700 titles currently in print. These publications attest 
to IU's contributions to world knowledge in such areas as Africa, 
Russia and Eastern Europe, Asia and Latin America. They focus on such 
disciplines as history, economics, politics, folklore and art history.
    Further reflective of our global reach, we are particularly proud 
that IU has negotiated almost 400 formal affiliations and exchanges 
with universities, research institutes and organizations from around 
the world.
    Finally, recent institution-building grants won through IU's Center 
for International Education and Development Assistance have established 
IU as a key presence in a number of countries, including Azerbaijan, 
Kyrgyzstan, Macedonia and Namibia, among others.
    All of these opportunities encourage IU students to participate in 
some form of international experience or activity while at the 
university.
The Contribution of International Students
    Indiana University could not have attained its position as a 
leading institution in international education without the presence and 
continual influx of students from around the world. Their presence 
enhances the diversity of the student population. They add vibrant 
intellectual and cultural dimensions to the life of the campus and 
community. Every day, interactions take place between American students 
and international students from some 130 countries. These students find 
themselves working together on classroom projects, living together in 
our residence halls, studying together in our libraries, enjoying 
campus life in student gatherings, or attending the numerous 
intercultural and social events on campus. They form friendships that 
are natural bridges for crossing the cultural divides that too often 
separate people and nations. These formative friendships often last far 
beyond the university setting and may lead to relationships that will 
be of long-term benefit to the United States.
    International students at IU bring hard-earned knowledge and skills 
to our classrooms, laboratories and research programs by assisting in 
the instruction of many basic courses. Our science departments would be 
seriously understaffed without them. Where so much of scientific 
research is accomplished through teamwork and worldwide collaboration, 
these students have proven to be valuable assets. In language and 
culture classes, they provide an authenticity and first-hand 
credibility that cannot be replicated.
    It has been frequently noted that international students who obtain 
their education in the United States or Europe return home to become 
leaders in government, business, the media and academia, where they may 
have opportunities to influence national policies. Among IU 
international alumni who have achieved national stature at home are 
Flerida Romero, former supreme court justice of the Philippines; Amara 
Raksasataya, dean and rector of the National Institute of 
Administration in Thailand; and Tamara Beruchashvili, former minister 
for trade and economic development of Georgia and current liaison to 
the European Union.
The Contribution of International Faculty and Visiting Scholars
    IU's international faculty and visiting scholars make valuable 
contributions to the excellence and scope of the university's research 
mission. The synergy of shared intellectual activity forms the basis 
for many scientific, business and cultural collaborations and 
partnerships. These interactions also may lead to the development of 
new study abroad programs or other types of exchanges between IU and 
foreign institutions.
    At IU, several projects owe their success to collaborations 
fostered by affiliations, exchanges and external development grants and 
contracts. With federal funding, the School of Public and Environmental 
Affairs brought the first-ever delegation of parliamentarians from 
Ukraine to the U.S. on a study visit. That visit became the basis of a 
multi-year exchange project to help the Ukraine write its constitution 
and build a more democratic and representative legislature. The 
Parliamentary Development Project, now in its twelfth year, has 
produced a steady flow of exchanges between professors and 
parliamentarians. It also has enabled Ukrainian students obtain four 
masters and three doctoral degrees from IU.
    For the past decade, IU's School of Medicine has provided training 
and staffing for primary health care in Kenya through rotations of IU 
and Kenyan doctors from Moi University Training and Referral Hospital. 
The program recently received a multi-million dollar federal grant to 
develop HIV/AIDS treatment and prevention programs in Western Kenya.
    IU's Center for the Study of Languages from the Central Asian 
Region was able to attract qualified language developers from four 
Central Asian nations because of the extensive network of contacts that 
had been developed by faculty who are experts in that region. These 
networks also enabled junior faculty and researchers from the region to 
apply for U.S. faculty development fellowships to study at IU 
Bloomington for short periods.
    In other areas within the university, countless international 
visitors are invited each year to present papers at international 
conferences held at IU. They participate in lecture series or perform 
at cultural events. The long list of such visitors has included former 
heads of states, ambassadors and Nobel laureates.
    Universities thrive on the presence of international students and 
scholars who embody their diverse cultures and are their countries' 
unsung cultural ambassadors. When they leave the United States, that 
role is often reversed. They take back a piece of the ``American way of 
life,'' and many become strong supporters of U.S. policy who are able 
to explain American positions and opinions. These individuals are a 
significant foreign policy asset for our nation. They represent 
valuable human capital to draw on in pursuit of the larger goal of 
promoting international understanding and world peace.
New Challenges for International Students and Scholars
    In the aftermath of 9/11, U.S. colleges and universities have been 
called upon to make major changes in the reporting and documentation of 
international students and scholars. IU has responded to this 
challenge. We have worked cooperatively with the federal government in 
implementing the Student and Exchange Visitor Information System 
(SEVIS). To do so, we have allocated new resources, shifted existing 
resources and reorganized the duties and responsibilities of staff.
    SEVIS represents a major shift from a paper-based system of 
tracking international students and visiting scholars to automated 
computer tracking. We recognize and appreciate the need for an 
electronic solution. While improvements and enhancements are still 
needed, we believe that SEVIS supports the flow of legitimate students 
and scholars by helping to identify those seeking to enter the U.S. 
under false pretenses.
    We are concerned, however, that the federal government's 
understandable efforts to strengthen security initiatives through new 
visa policies and procedures have had unintended consequences. Most 
significantly, obtaining a visa has become a roadblock to U.S. higher 
education. Despite recent U.S. State Department efforts to alleviate 
this problem, we continue to hear from students and scholars that the 
process is bottlenecked and difficult to navigate. As a result, these 
problems are discouraging, and they are preventing significant numbers 
of international students and scholars from studying and working in the 
United States.
The Effect on International Student Enrollments
    It might be useful at this point to provide the committee a general 
overview of the current situation on a national level. A total of 
586,323 international students were studying in the U.S. in 2002-03, 
representing 4.6% of the total U.S. college and university student 
population. This total represented an increase of just 0.6% over 2001-
02 numbers, the smallest annual increase since the mid-l990s.
    Unfortunately, 2002-03 brought to an end a previous two-year trend 
of strong growth (6.4% in 2000-01 and 6.4% again in 2001-02). While 
national figures for 2003-04 and 2004-05 are not yet available, 
indications are that we will see even more dramatic declines. According 
to a recent survey conducted by the Council of Graduate Schools, there 
was a 28% decline in international graduate applications and an 18% 
decline in international graduate admits nationwide for fall 2004.
    By comparison, other countries have recognized the value of these 
students and have begun to recruit them aggressively. In many cases, 
U.S. restrictive visa policies are used as a marketing tool to promote 
study in destinations other than the U.S. The number of foreign 
students studying in Australia has risen twelve-fold in two decades; 
Canada has more than tripled the number of foreign students that it had 
20 years ago. For Australia, those increases now mean that 14% of its 
college student population is foreign. For the United Kingdom, about 
12% is foreign. For the U.S., it is closer to 4%. The U.S. may have the 
largest number of students, but compared to other English-speaking 
countries, we have the smallest percentage of international students.
    At Indiana University Bloomington, our experiences are similar to 
these national trends. We have seen a significant decline in the number 
of applications from international students at both the undergraduate 
and graduate levels for our fall 2004 semester. International 
applications for admission dropped by 14% at the undergraduate level 
and by 21% at the graduate level.
    The diversity of our entering international freshman class also 
declined this year. In 2003, we enrolled new undergraduate students 
from 40 different countries; this fall, that number was reduced to 33. 
During the past five years, enrollment from Muslim and Middle Eastern 
countries has declined 22%. For fall 2004 those enrollments declined by 
13.2% over the previous year.

                          TABLE 1.--ENROLLMENT FROM MUSLIM AND MIDDLE EASTERN COUNTRIES
----------------------------------------------------------------------------------------------------------------
                      IU Bloomington                        1990-00  2000-01  2001-02  2002-03  2003-04  2004-05
----------------------------------------------------------------------------------------------------------------
Indonesia.................................................      178      187      192      195      191      126
Kuwait....................................................        3        5        5        9        9       15
Pakistan..................................................       42       47       48       40       43       31
Saudi Arabia..............................................       27       28       26       21       17       11
United Arab Emirates......................................       65       59       17       20       14       17
----------------------------------------------------------------------------------------------------------------

    Enrollments from the five leading countries of origin at the 
university--South Korea, China, India, Taiwan, and Japan--have declined 
by 11.6% for fall 2004 over the previous year. The numbers of students 
from China fell from 405 in fall 2003 to 357 in fall 2004. Student 
enrollments from India dropped from 459 to 353 in that same period. The 
overall picture indicates that the diversity of the student body has 
changed, and we are no longer hearing all of the relevant voices from 
outside the United States.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Chairman, the numbers are clear. It is now apparent that 
thousands of students who would have otherwise come to the U.S. are no 
longer doing so. The potential future impact on Indiana University is 
significant, affecting intellectual strengths, the university's 
research capacity and the size and quality of our student body. The 
economic prosperity of the state of Indiana is also affected. 
International students contribute $326 million to our state economy 
each year.
The Potential Harm to Research and Teaching
    These trends will have negative consequences for the university as 
a whole. A number of our international area centers, departments, 
research programs and professional schools depend on the continued 
presence of international students and scholars. For example, on the 
Indianapolis campus, over 30% of instructors, research specialists and 
technical staff in IU's School of Medicine, the second largest in the 
U.S., are from abroad. The school's research programs will be seriously 
curtailed if they are unable to continue attracting international 
scientists. These are serious problems facing not only Indiana 
University but U.S. higher education as a whole.
    This is exemplified by a statement from the vice chairman for 
research in the Department of Radiology, who says that, ``The 
availability of foreign visitors is absolutely critical to our 
programs. [They] not only benefit the department but also provide 
benefit to groups throughout the state of Indiana that utilize the 
Indiana Center of Excellence in Biomedical Imaging.'' The current 
bottleneck in visa processing will have adverse effects on the school's 
ability to deliver critically needed medical expertise.
    On the Indianapolis campus, a critically important research project 
within the Department of Pharmacology was delayed for eight months and 
its funding put in jeopardy because a research assistant from China was 
stranded there awaiting visa renewal after a brief trip home.
    On the Bloomington campus, the case of a visiting Iranian professor 
of mathematics is also instructive. In May of 2004, the professor left 
Indiana University to give a series of lectures in London. He has been 
stranded there without support while his application for a visa to 
return to the U.S. has been under review since then. His courses have 
had to be covered by other faculty, putting unforeseen burdens on his 
department.
The Need for Sensible Visa Policies
    We believe a critical need exists to re-examine current visa 
policies. A number of higher education organizations have made 
constructive recommendations for improving the visa process. We concur 
with these recommendations.
  <bullet> At Indiana University, we are especially concerned that our 
        students still face bottlenecks at consular offices around the 
        world.
  <bullet> It is also evident that the 90-second visa interview 
        contributes to these delays. We wonder whether these are really 
        necessary for the vast majority of legitimate applicants.
  <bullet> Students who have successfully received entry visas should 
        not require the same degree of scrutiny whenever they need to 
        leave and re-enter the country.
  <bullet> Providing additional resources for consular officials would 
        certainly help and we would support such a move.
    These suggestions are further described in statements and 
recommendations offered by NAFSA: Association of International 
Educators in, ``Promoting Secure Borders and Open Doors: A National 
Interest-Based Visa Policy for Students and Scholars,'' and a similar 
document offered by the Association of American Universities, the 
American Association for the Advancement of Science and others, 
entitled, ``Statement and Recommendations on Visa Problems Harming 
America's Scientific, Economic, and Security Interests.''* Each of 
these documents has been included for the record to accompany my 
written testimony.
---------------------------------------------------------------------------
    * The document ``Statement and Recommendations on Visa Problems 
Harming America's Scientific, Economic, and Security Interests,'' also 
presented during testimony given earlier, can be found on page 5.
---------------------------------------------------------------------------
Indiana University's Efforts to Attract and Retain International 
        Students and Scholars
    Indiana University is responding to the decline in the number of 
international students and scholars by:
  <bullet> Enhancing the information and resources available to 
        students via the worldwide Web;
  <bullet> Engaging our alumni and friends overseas to assist us more 
        directly with recruitment;
  <bullet> Giving more extensive guidance to prospective students and 
        scholars on the visa process;
  <bullet> Allocating significant resources to help them navigate that 
        process; and
  <bullet> Providing financial incentives to attract students by 
        maximizing the use of limited scholarship funds.
Conclusion
    Mr. Chairman, the outstanding programs we have worked to build at 
Indiana University--many of which further national strategic 
interests--are at risk. What is happening at Indiana University is 
happening at colleges and universities throughout the United States. 
Too many intellectual ties that cross borders and unite peoples are 
being severed. Stemming the flow of international students and scholars 
who want to participate in our academic life also stems the free flow 
of knowledge and ideas. This is a moment for decisive action. We must 
return the United States to its pre-eminence in international 
education.
                                 ______
                                 

Promoting Secure Borders and Open Doors--A National Interest-Based Visa 
                    Policy for Students and Scholars

             nafsa: association of international educators
    It is now recognized at the highest levels of government that 
America's strong interest in robust educational and scientific exchange 
is ill served by the visa system that is currently in place. This 
situation is not the result of ill will; no one is to blame. Every 
control instituted since 9/11 has seemed, in itself, to add a 
reasonable--even necessary--measure of protection. But in their 
totality, these controls are hindering international student and 
scholar access to the United States to an extent that itself threatens 
national security. Our current visa system maximizes neither our safety 
nor our long-term national interests in scientific exchange and in 
educating successive generations of world leaders--interests that the 
United States has recognized for more than half a century.
    There are four problems: the absence of policy, of focus, of time 
guidelines, and of balance between resources and responsibilities.
    In a policy vacuum, every control is a good one, and delay or 
denial is the safest course. The State Department's visa adjudicators 
require an operational policy that articulates not only our interest in 
control, but also our interest in openness, and that guides them in how 
to find this crucial balance. Responsibility for articulating such a 
policy lies with the Department of Homeland Security.
    Far too many adjudicatory and investigative resources are wasted on 
routine reviews of low-risk applications. This not only frustrates and 
delays visa applicants unnecessarily; it also precludes the allocation 
of resources pursuant to risk analysis. The practice of across-the-
board visa interviews has led to millions of 90-second interviews of 
dubious security value, which clog the system while precluding serious 
scrutiny where it is needed. The practice of sending virtually all visa 
applications in the sciences to Washington for security clearances 
(``Mantis'' reviews) reverses the time-tested policy of requiring such 
clearances only when indicated by the identity of the applicant, the 
applicant's nationality, and the specific field of advanced science or 
technology in question; the number of clearances requested has 
increased from about 1,000 in 2000 to more than 20,000 in 2003. The 
requirement that every Arab and Muslim adult male undergo a Washington 
security check (``Condor'' review) has created an additional flood of 
clearance requests. Low-risk frequent visitors, and those seeking re-
entry after temporary travel abroad, are often required to run the same 
gauntlet every time they seek re-entry.
    The ``Mantis'' and ``Condor'' clearance processes lack time 
guidelines and transparency. Bureaucrats are like the rest of us. They 
make decisions when forced to by a deadline. Absent a ``clock,'' cases 
can languish without resolution, and the applicant has no recourse for 
determining the application's status.
    Furthermore, these systems have been put in place without reference 
to whether or not resources exist to implement them. In no foreseeable 
circumstance will enough resources be available to effectively support 
visa processing as it is currently being done. Balancing resources and 
responsibilities is the essence of policy. Without this balance, our 
visa-processing system will be unable to serve the national interest in 
providing timely access for legitimate visitors.
    We believe that our nation's leaders share our interest in fixing 
these problems. Following are our recommendations for doing so.
1. Provide effective policy guidance
<bullet> Congress and the Department of Homeland Security must act to 
    make ``Secure Borders--Open Doors'' the effective policy guidance 
    for the Department of State.
2. Focus efforts on those who require special screening
<bullet> Give consulates discretion to grant waivers of personal 
    appearance based on risk analysis, subject to State Department 
    policy guidance and approval, as recommended by the State 
    Department Inspector General in December 2002.
<bullet> Refine controls on advanced science and technology. In 
    consultation with the scientific community, define the advanced 
    science and technology to which access must be controlled, and 
    empower consular officers to exercise discretion on non-sensitive 
    applications where neither the applicant nor the applicant's 
    country present concerns.
<bullet> Avoid repetitive processing of those who temporarily leave the 
    United States. Institute a presumption that a security clearance is 
    valid for duration of status or program, assuming no status 
    violations. Any necessary reviews within this period should be 
    fast-tracked.
<bullet> Avoid repetitive processing of frequent visitors. Establish a 
    presumption of approval for those who have previously been granted 
    U.S. visas and who have no status violations.
<bullet> Expedite processing and save consular resources by 
    incorporating pre-screening or precertification of students and 
    scholars. This could be accomplished in many ways. Options include: 
    (1) sending countries agreeing to pre-screen applicants in order to 
    facilitate their citizens' entry into the U.S.; (2) sending 
    universities providing identity verification under agreements 
    executed with consulates; and (3) the State Department utilizing 
    its own overseas advising centers to ensure that all necessary 
    documents are in order prior to applications being sent on to the 
    consulates.
3. Create a timely, transparent and predictable visa process
<bullet> The White House should institute standard guidelines for 
    inter-agency reviews of visa applications:
  --Establish a 15-day standard for responses to the State Department 
        from other agencies in the inter-agency clearance process.
  --Implement a 30-day standard for the completion of the entire inter-
        agency review process, including the response to the 
        consulate's security clearance request.
  --Flag for expedited processing any application not completed within 
        30 days, and advise the consulate of the delay and the 
        estimated processing time remaining.
  --In the case of applications not completed within 30 days, the 
        applicant, or the program to which the applicant seeks access, 
        should be able to inquire about the application's status, and 
        the estimated processing time remaining, via a call-in number 
        or email inbox.
  --Establish a special review process to resolve any cases not decided 
        within 60 days.
<bullet> Make ground rules predictable by imposing them prospectively, 
    not on those already in the application pipeline.
4. Provide the necessary resources, and manage within them
<bullet> Congress must act to bring the resources appropriated for the 
    consular affairs function into line with the increased scrutiny of 
    visa applications that Congress demands, and the State Department 
    must manage within the available resources.
<bullet> Adequate resources must be provided to ensure the 
    interoperability of data systems necessary for the efficient 
    functioning of the inter-agency review process.

    The Chairman. Thank you very much, President Herbert.
    We would like for you to proceed now, President Mote.

STATEMENT OF D.C. (DAN) MOTE, JR., PH.D. PRESIDENT, UNIVERSITY 
                 OF MARYLAND, COLLEGE PARK, MD

    Dr. Mote. Thank you very much, Mr. Chairman. I will try not 
to repeat the comments, very distinguished comments by my 
colleagues, who essentially presented materials very similar to 
ours and experience similar to ours.
    I would just like to comment on a couple of consequences of 
this overzealous application of visa restrictions through the 
Visa Mantis system and in fact a little bit on its long-term 
negative impacts. For half a century, as we all know, the 
United States has benefited tremendously by attracting the 
world's brightest minds to our science and technology programs. 
If we look at our college of engineering, which is a top 20 
college of engineering in the United States, we have 193 
faculty members in this college and 101 of them were foreign-
born, and most of them, of course, were educated in the United 
States in graduate programs. I think that is fairly typical of 
engineering programs around the United States. Ph.D. students 
in sciences and engineering across the country are more than 50 
percent, in engineering at least, 50 percent foreign-born.
    The dean of the college of engineering at Maryland, in 
fact, is foreign-born and U.S.-educated. The dean of the life 
sciences college at Maryland is foreign-born and U.S.-educated. 
The dean of the computer and mathematical and physical sciences 
college at Maryland is foreign-born and U.S.-educated. In fact, 
the world leadership of the United States in science and 
technology is directly related to our ability to recruit 
scientists and engineers of distinguished caliber from around 
the world, I think there is no doubt about that, and we should 
not overpump up ourselves in terms of our capacity without 
them.
    Now, a few negative impacts in the short term. In the last 
2 years we have had a 36-percent drop in international student 
applications at the University of Maryland and a 21-percent 
drop in enrollments of international students. There are three 
competing factors which are causing this. The first one is the 
competition from abroad for recruiting students. Students, we 
never recruited them before. We always got them for nothing 
and, even with a little abuse, they came anyway, because we 
were the only game in town, as a matter of fact. They really 
had nowhere else to go.
    We have not figured out yet that there are a lot of other 
people in the world now. They have distinguished programs and 
they are recruiting them very aggressively and successfully. So 
the competition is a factor.
    Secondly, efforts of home countries to keep their students 
at home are very significant--at home in their graduate schools 
and also at home in their developing technology companies, 
where they need smart people to work there. They are making 
incentives to keep them at home. Take Taiwan for example. 
Taiwan requires a student who is going abroad for higher 
education or graduate education to complete military service 
before they go. If they stay at home for graduate education 
they do not have to do so. One example.
    Thirdly, of course, is the greatly increased problem with 
obtaining visas. The first two problems--that is, the 
competition and efforts-at-home problems--are things we all 
have to tackle and those problems are going to get worse. They 
are not going to get better, no matter what we do, because the 
countries around the world are not going to wait for us to 
figure it out.
    But the visa problem we can handle and we need to handle. 
There is a kind of perfect storm which bring these problems 
together at the same time and is causing this problem we have. 
We do not think it is going to get any better by itself. The 
analysts of the educational--ETS, Educational Testing Services, 
data for 2004 predict a reduction in the number of students who 
are going to take the GRE, the international students. Fifty 
percent reduction in Chinese students, they predict; 43 percent 
reduction in Taiwanese students who are going to take the GRE; 
37 percent reduction in Indian students that are going to take 
the GRE.
    Senator Sarbanes, thank you very much for coming.
    So therefore the pool of people who are even expressing 
interest in coming to the United States is also decreasing 
around the world.
    Now, let me switch very briefly in the short time to the 
projected difficulties we have with the Visa Mantis system. In 
the winter of 2002 we had five potential graduate students from 
Tsinghua University in Beijing. This is China's strongest and 
best science and technology university and these are obviously 
very distinguished people, who wanted to come into Ph.D. 
programs in computer science and engineering. In mid-April of 
2003 they went to the consulate and went through the beginning 
of the visa process and were told that it would take 90 days 
because of the fact they are in technically sensitive areas and 
they should expect--but they should expect the possibility of 
completing their visa process by the fall of 2003.
    Well, by August of 2004 our applicants had not yet heard of 
their status in visas and they essentially have made other 
plans and they have gone elsewhere. They were not denied visas, 
they were not issued visas. They just disappeared.
    The pipeline from those students has closed and the 
pipeline will reopen for those students someplace else, in 
Australia or Europe or somewhere else. This is just one 
example. Every university in the United States has examples of 
pipelines closing from universities abroad to universities at 
home, and once those pipelines close they reform someplace 
else. This is a major crisis for our country that we cannot 
just think will take care of itself.
    There is also an impact on training programs, another kind 
of educational program. We have very extensive programs with 
training bureaucrats in government and people in corporations 
on capitalism, on business, on commerce, on democracy and 
policies. We have an extensive program with China. We have 
educated over 900 Chinese, people who have gone on to be mayors 
in cities, in positions of responsibility. In fact, that is the 
best way to get distinguished alumni, by the way, a 6-month 
training program with these people, and they pay for it 
besides.
    The director of Jiangsu Provincial Senior Management 
Training Center sent me a letter last week and desperately 
pleaded with me to intercede so that they can get visas for 
their group to come to study at Maryland on government. This 
would be the seventh group from Jiangsu Province we have had, 
in a relationship that has gone back to 1995. They have sent 
over 200 people here in this program and, for some reason or 
other, this particular group cannot get visas.
    A university example. We had an Iranian electrical 
engineering student who came in the fall of 2000, starting a 
Ph.D. program. In 2002 he was married to an Iranian woman by 
proxy in Iran. Of course, she could not get a visa because 
proxy marriages are not recognized as legitimate for visa 
purposes.
    He returned then in August of 2003 to help get his wife a 
visa. After some back and forth, as you might expect, she 
ultimately did get a visa. But of course, by that time his visa 
had expired, so he could not come back into the country even 
though she could come into the country. After over a year of 
work between our university and the Office of Public and 
Diplomatic Liaison in the State Department, he did get a visa 
in Dubai. So he went to Dubai. By that time her visa had 
expired. So then he returned. She is still there, trying to get 
a visa.
    I do not know if there is any merit in this story. I cannot 
figure out what it might be if there is any. But I certainly do 
not feel safer and I do not feel our Nation is being better 
protected in the future by this kind of treatment.
    I have three recommendations that I would like to throw out 
on the table. First, I think we have to change the Visa Mantis 
policy where the categories requiring visa clearance are much 
more sharply defined so we do not get into these indecisive 
circumstances.
    Secondly, the time required for visa clearance just must be 
reasonable and predictable. A claim that 95 percent, or I have 
seen even 98 percent, of Visa Mantis clearances are completed 
within 1 month runs substantially counter to our experience. 
That is all I can say on that.
    Thirdly, the term of visa approval for 1 year or even 
shorter is much too short. Students who are submitted to this 
Visa Mantis clearance process have to repeat this visitation, 
if they leave the country, and it is a bureaucratic delay which 
seems to be of no great value and it certainly discourages 
building our relationships as we have talked about earlier for 
recruiting students here that we desperately need.
    The long-term consequences. Basically, we are already 
witnessing a fraying of our technical system that has led the 
United States to be the undisputed leader in science and 
technology in the world. This fraying is coming about because 
we are not investing in long-term research in this country, we 
are not providing incentives for Americans to go into science 
and technology, and now we are not encouraging foreign 
scientists to come here.
    We need to remind ourselves that three billion people have 
joined the market economy in the last 15 years. More than half 
the population of the world has joined this market economy 
since the Berlin Wall came down--Russia, Central Asia, India, 
and China. To remain competitive with this market population, 
we must be able to recruit the most capable students and 
scholars from other countries as well as our own. This will be 
our competitive advantage. Our security depends on it, as a 
matter of fact, as well as our wellbeing, our standard of 
living, and our way of life.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Mote follows:]

    Prepared Statement of C.D. Mote, Jr., President, University of 
                       Maryland, College Park, MD

    Chairman Lugar and Members of the Committee: My name is Dan Mote, 
and I am president of the University of Maryland, College Park. I 
appreciate very much the opportunity to address the Senate Foreign 
Relations Committee today on a matter of grave concern, the impact of 
visa regulations on the educational and research enterprise of the 
nation. I am speaking to you today as president of a preeminent 
research university in the shadow of the nation's capital that has for 
years attracted a flow of outstanding students, researchers, and 
faculty from other nations who have made enormous contributions to the 
prosperity and technological leadership of the United States.
    We all agree that protecting our citizens is a priority second to 
none. Universities have a clear investment in the security of our 
nation and are committed without reservation to serving this interest. 
The University of Maryland is eager to assist in any way possible in 
promoting the security of our region and our country. To that end, we 
fully support recommendations that require careful scrutiny of those 
entering the United States for whatever purpose. We also have a clear 
and historical responsibility to deliver the highest quality education 
and research programs to keep the nation strong and competitive. We do 
not believe these are mutually exclusive mandates.
    The United States prides itself on attracting to our research 
universities the world's brightest students. Their presence in programs 
in engineering, biosciences, and computer and natural sciences, among 
other fields, has resulted in the United States achieving its current 
status as world leader in these areas. The consequences of undue 
restrictions that hinder our ability to recruit outstanding talent from 
other nations will degrade the technical strength of the U.S. 
substantially. America stands to lose the edge in brain power we have 
attained since World War II.
    Immediate negative impact. At the University of Maryland, over the 
last two years, we have experienced a 36% drop in applications and a 
21% drop in enrollment of new international graduate students in our 
programs. The decrease in applications is due to three converging 
factors: greatly increased problems with getting visa approval from the 
United States; competition from countries all over the world who have 
jumped in to try to attract the most talented students to their 
universities; and efforts of home countries to step into this breach 
and keep graduates at home with better opportunities and policies 
intended to stop the brain drain (military service is required in 
Taiwan before Taiwanese get permission to study abroad). The $100 
Student and Exchange Visitor Information System (SEVIS) fee we now must 
charge has doubled the cost for international students applying to 
Maryland. This additional financial burden likely prevents some of the 
brightest students in poorer countries from applying.
    The decrease in international applications is being experienced at 
all major universities. It is likely to continue. Analysts of the 
Educational Testing Service (ETS) data declare the ``bubble has burst 
on foreign student enrollments.'' The number of international students 
registering in 2004 for the Graduate Record Exam GRE (required for 
admittance to most graduate programs in the United States) is predicted 
to drop by 50% for Chinese students, 43% for Taiwanese, and 37% for 
Indians. Reforms in the administration of the test in China and 
elsewhere accounts perhaps for some of that decrease, but the drop in 
registration occurs in all countries, a clear indication that students 
are turning away from American schools.

     PROTRACTED PROCESSING DIFFICULTIES AND THE VISAS MANTIS SYSTEM

    An example: In the late winter of 2002, five very bright 
undergraduates from Tsinghua University, generally considered to be the 
best science and technology university in China, applied to Ph.D. 
programs in Computer Science and Engineering at Maryland. Based upon 
their excellent academic credentials, the University admitted the five 
to graduate programs commencing in August 2003. They went to the 
American consulate in Beijing in mid-April, 2003 for a visa and were 
told that they would have to undergo a security check, which would take 
90 days to complete. Our potential students still had not heard the 
results of their request by the time classes began in August 2004, and 
they have made other plans and are lost to the United States.
    Once the pipeline closes, it dries up completely. Those five 
students from China will tell others coming along not to bother 
applying here, the United States does not want foreign students. The 
students we intentionally keep out or scare away today could well be 
the world's leading scientists, engineers, and doctors of tomorrow who 
might have chosen in past years to make the United States their home, 
to our lasting benefit. Finally, we would lose an entire cohort of 
students whose education in America could produce future friends and 
allies in the spread of democracy.
    Impact on Training Programs that Promote American know-how and 
values. The University of Maryland, like many others, has a series of 
technical training programs on topics designed to provide information 
to a rising managerial cadre in countries like China on how capitalism, 
business, commerce, democracies, political justice systems, and other 
infrastructure systems work in free countries. Our Institute for Global 
Chinese Affairs has held numerous training sessions for hundreds of 
rising managers across China. This week, I received a memo from the 
Director of the Jiangsu Provincial Senior Management Training Centre 
concerning the latest group (six have come since 1995) scheduled to 
come for the senior management economic training course. He pleaded 
with me to intercede to hasten unexpected and delaying visa processing 
suddenly requested by the consulate general in Shanghai. What is the 
cost to the United States to put barriers up on programs that give us 
the opportunity to win friends and export democratic values?

                RECOMMENDATION FOR RATING OF CONSULATES

    In the face of difficulties such as those described above, I became 
so concerned about this problem that last summer I recommended that AAU 
universities develop a system rating the quality of service by 
consulates throughout the world that handle visa applications. This 
system would identify consulates that consistently use unreasonable 
delaying tactics and arbitrary determinations in their processing of 
visa applications by students and scholars and separate them from 
others. The system would bring to attention to consulates not willing 
or able to do the work in timely fashion required in response to those 
wishing to enter the country for education or research. We would 
distribute this annual ranking widely. The United States can not afford 
to project an image that alienates international students who will be 
leaders in fields we need.
    Problems with the Visas Mantis system. A particularly troublesome 
part of the current visa restrictions is the Visas Mantis system, a 
special security clearance that must be issued when there is some 
concern about the sensitivity of the field the student wishes to enter 
or the technology to which the student or researcher would have access. 
These security checks are intended to prevent ``prohibited export from 
the U.S. of goods, technology, or sensitive information.'' The consular 
post that requests a Mantis name check, or Security Advisor Opinion, 
must wait until Washington responds before granting a visa. In some 
cases this has taken months. A Visas Mantis check may also be required 
of students who have been admitted to the United States but return home 
even for a brief vacation. This system now appears to some to be used 
arbitrarily to draw out the process that has resulted in its current 
reputation as a bureaucratic tool for harassing international students 
and scholars instead of a useful security measure.
University cases
    Student: Iranian Electrical Engineering doctoral student began 
program in fall, 2000 on own funding. A good student, he was offered an 
assistantship a year later. In fall 2002, married by proxy an Iranian. 
She could not get a visa because U.S. Consul does not consider marriage 
by proxy valid. In August 2003 he returned to Iran to get wife. After 
numerous visits by him and his wife to the consulate, her visa was 
approved, but his own visa expired and he was held under a Security 
Advisory Opinion. Our Office of International Education Services 
intervened with the Office of Public and Diplomat Liaison in the State 
Department, and he received the visa one year later in Dubai. It took 
so long to issue it that his wife's visa was no longer valid. He has 
returned to his academic program. Now his wife is trying to get a visa 
again. Is there any merit seen in this costly story?
Scholars
    Russian scholar invited to University to collaborate on research in 
reactions of membranes in the presence of metal ions. Applied for 
Exchange Visitor visa 2/10/2003. Finally received visa 8/23/2004, 18 
months later.
    Chinese scholar invited to University to collaborate on the theory 
of phase transitions in complex fluids at the University's Institute 
for Physical Science and Technology. Applied for an Exchange Visitor 
visa 1/12/2004. Finally received visa 9/14/2004, 7 months later.
    Russian scholar invited to come to University as a short-term 
scholar to do cooperative research in plasma physics for 1 month. 
Applied for Exchange Visitor Visa 12/08/2003 and is still pending. 
Still attempting to get him here.

                            RECOMMENDATIONS

Changes in Visas Mantis policy
    What are the current problems with Visas Mantis that could be 
changed? First, the category of visas requiring visas mantis clearance 
must be better defined. Currently too many visa applications are 
subject to Visas Mantis while the need is to focus on those who require 
special screening. Overuse is due to the large and unfocused number of 
academic areas listed on the technical alert list. The technical alert 
list needs to contain only clearly defined academic areas of real 
concern. Many administrators and bureaucrats no longer know what 
subjects should be deemed off-limits. Consular officers are 
intersecting the technical alert list with ``Sensitive Areas'' 
(academic subject matter areas referred to in the U.S. Patriot Act in 
which students and scholars could learn how to make something harmful 
to us), an oversimplification causing many more people to be subject to 
Visa Mantis.
    A second concern is the timeline for visa clearance, which should 
be timely and. predictable. Though a recent report claims that 95% of 
the Visa Mantis clearances are completed within a month, we find from 
our experience at Maryland that the clearances are often taking much 
longer.
    A third problem is that the validity of a clearance when made is 
only for one year. Why not make it for the duration of the program? Now 
students and scholars are submitted to a Visa Mantis clearance more 
than once if they go out of the country. This repetitive processing 
seems excessive and unnecessary and very costly.

                         LONG TERM CONSEQUENCES

    As the examples illustrate, we are already witnessing the fraying 
of the system that has led the United States to its place as undisputed 
leader in world science, technology, and medicine. We are not investing 
in long-term basic research sufficiently to retain preeminence in the 
future. Apart from biosciences our effort has been declining across the 
board. As a nation, we are not providing incentives for Americans to 
pursue careers in basic science, and foreign scientists are discouraged 
from coming here. This trend must be reversed.
    We need to remind ourselves that 3 billion people have joined the 
free market worldwide knowledge based economy in the past 15 years. The 
competition for human capital is absolutely fierce and we cannot afford 
to shoot ourselves not in the foot but in the head with restrictions 
that kill our economic future.
    If the trend in applications is not reversed, the implication for 
the future of our universities is dire. Consider the extent to which 
our research universities depend on the result of our past open-armed 
welcome of the best talent from other countries. In our A. J. Clark 
School of Engineering, which is ranked in the top twenty engineering 
schools nationally, we have l93 tenured tenure/track faculty; 101 of 
them are foreign born. The vast majority did their graduate work in the 
United States. The deans of the Colleges of Life Sciences, Computer, 
Mathematical, & Physical Sciences and the Clark School of Engineering 
are all foreign born and U.S. educated.
    These data are not an aberration. One only needs to extrapolate to 
the engineering schools throughout the country to get some sense of the 
enormous negative impact unreasonable visa restrictions can have on the 
nation's entire research and technology enterprise.
    Some have cast this problem as a cyclical job market issue and 
claim there will be no shortage of scientists or engineers even if we 
keep out large numbers of international students. Though I personally 
doubt that there will be enough United States graduates to fill the 
vacancies, the main point here is the opportunity we lose to attract 
the right people, the most talented people to work in our industrial, 
commercial, educational, and research enterprises. As we have witnessed 
beginning in WWII some of the greatest thinkers who have contributed 
the most to our dominance in science and hence to our security, quality 
of life, and prosperity, have come to us from other countries. If we 
appear to be uninterested, many other countries including Canada, 
Australia, New Zealand, European countries, and Asian countries are 
putting out the welcome mat. These and other nations are competing 
effectively for those scientists and will gain technological 
advantages, weakening our economic and technological supremacy and our 
security.
    Finally, we need to understand that globalization is the driving 
force in the world today. We live in a tightly connected world where 
every major issue is a global one. Whether it is the economy, the 
environment, security, pollution, energy, health, food safety, nuclear 
issues, or education, all are global issues. And like businesses, top 
universities are global in scope, responsibility and competitiveness 
too. As an example of changing global competitiveness consider the 
emergence of top-class universities around the world. China has set a 
goal to build a number of world-class universities over the next 
decade. And so has Taiwan and so has Japan and so have a lot of 
countries. Though most of the World's top universities are currently in 
the U.S., many are determined to change this balance, and they probably 
will. We cannot play into our decline by turning away the best and the 
brightest from our schools.
    To remain competitive in the coming decades, we must continue to 
embrace the most capable students and scholars of other countries. Our 
security and quality of life depend on it.

    The Chairman. Well, thank you very much, Mr. President. Let 
me say that, fortuitously, Senator Sarbanes has joined us and 
coincidentally with this hearing Senator Sarbanes and I 
celebrated over last weekend the fiftieth anniversary reunion 
of our class going to Oxford on Rhodes scholarships. We went on 
the boat together and we did not have visa problems nearly as 
extensive as----
    Senator Sarbanes. We have been on the boat together. 
[Laughter.]
    The Chairman. Ever since, sort of inseparable. I am 
grateful for that, Paul. I am delighted that you are here.
    We will try to limit our first round of questions to 8 
minutes each for the three of us so that we will have ample 
time to ask questions and to let the panel respond to them. We 
will then have an hour for the second panel to repeat that 
process. Then 11:30 will come and we will need to depart.
    Let me just begin the questioning. President Mote, in terms 
of amendment of statute or procedures, you have suggested first 
of all changes in the Visa Mantis program, which affects 
principally Russian and Chinese applicants because of security 
considerations of technology transfer. That at least was the 
intent of those who have testified about that.
    Essentially, the problem seems to be that the intelligence 
agencies who must verify that there are not going to be 
problems take a long time to come forward with that--so long, 
as a matter of fact, that this is a discouraging factor. The 
number of applicants from China and Russia has been declining, 
apparently. This was perhaps not a large percentage to begin 
with, but still very important in terms of our public diplomacy 
and the sharing of values with these students.
    A second thought you had is that the visas are too short, 
and that if we are going to go through this process for each of 
the students, why, it would be very helpful to extend them.
    Maybe one of you can explain whether your educational 
associations or colleges or presidents have made some formal 
representations to the State Department or to Immigration or to 
anyone? In other words, without reinventing the wheel, are 
there some traces that this committee can follow as we try 
either legislation or pursuit with the regulators on follow-up 
recommendations that you are making?
    President Jischke.
    Dr. Jischke. Mr. Chairman, the recommendations I asked to 
have read into the record would include recommendations of the 
sort that President Mote has suggested. I, too, would endorse 
making the visas that students and scholars receive of program-
length duration rather than, say a year, I think would be a 
very sensible thing to do. Particularly with countries like 
China and Russia, where there is a particular concern 
developing reciprocal understandings with those countries that 
would facilitate coming to a decision about a visa, I think, 
would be a very wise thing to do as well.
    Dr. Mote. The American Association of Universities, which 
is the organization with 60 United States universities, the 
large research universities, and two Canadian universities, has 
made recommendations on this, as have other professional 
organizations.
    Dr. Herbert. Mr. Chairman, I also did include in my 
statement a set of recommendations that have come from a number 
of the major associations, and that is dated May 12, 2004. I 
think that that should be very helpful to you.
    The Chairman. Well, that will be great. This is why your 
full statements are a part of the record, so that a transcript 
can be circulated with our colleagues and their staffs, and 
also with the regulatory agencies that are involved.
    Have any of the groups with which you are associated gone 
so far as to suggest draft language, or does this still lie in 
the lists of recommendations?
    Dr. Mote. My agent behind me says yes, the AAU, at least, 
has suggested draft language.
    The Chairman. Very well. That probably is not a part of 
your statement, but I would ask that you submit that for the 
record.
    Dr. Mote. We will.
    The Chairman. It will be included, so that we have the 
benefit of that research and effort that has been made.
    [The information referred to has been made a permanent part 
of the record.]
    Dr. Mote. Can I comment, Mr. Chairman? On the initial 
statement on the Visa Mantis policy, I think the whole process 
is so complex because the number of categories are too many and 
too vague, and between going to the security people and the 
consular people it is very difficult to get from the 
intersection of these two sets of data a very accurate outcome. 
So I think this really has to be thought through very carefully 
and allow us to shrink this down to people who are real threats 
and be more responsive in our follow-up on requests for visas.
    The Chairman. Let me just ask, what sort of reaction to all 
of this have you experienced on your campuses? Obviously, 
students are stressed by the process to begin with, and by 
trying to return to their homelands, as you mentioned. Has 
there been any other student reaction about which you can 
testify?
    Yes, Dr. Jischke.
    Dr. Jischke. I have actually been amazed at the level of 
understanding that the international students exhibit about the 
legitimate security concerns the country has. They fully 
appreciate, at least the ones I have visited with, that the 
country does have a legitimate concern, given particularly what 
happened on September 11, 2001.
    The depth of concern is particularly within the faculty. 
They are deeply concerned both by the restrictions on the 
availability of talented students and, second, I think they 
believe this ultimately is very destructive to the quality of 
our academic programs, not only in terms of the contributions 
these very talented students make, but the long-term 
consequences of these kinds of policies are going to limit the 
opportunities our own students have to travel abroad. 
Eventually these things generate reactions.
    I think there is within the faculty at Purdue and I suspect 
at all of our universities a deep commitment to an 
international education, to international opportunities, as 
part of a rich education. I think they are very concerned about 
this trend. It is deeply rooted in the scholars of the world 
that they work together, they visit together, they exchange. It 
is in the nature of scholarship, in the nature of research. I 
think they are deeply worried about the implications of all of 
this.
    The Chairman. President Mote, you mentioned specifically 
that over half of your engineering faculty are citizens who 
began their lives abroad. This is a fact that, as you pointed 
out, is fairly common in engineering schools throughout our 
country, but it's probably not a point well recognized by 
Americans. A very high percentage of the engineering students 
who populate these departments come from other countries. The 
enrichment of that entire technical base, whether teachers or 
students or combinations thereof, really depends upon this 
international flow.
    Would you want to amplify on that?
    Dr. Mote. Absolutely true, that is absolutely true. It is a 
very good point. I thank you for this opportunity. Early on, 
that is over the last 50 years, we were able, because of our 
position in the world circumstance, to gather these best minds 
to come to our country. They studied here and they stayed here 
and they have contributed tremendously to our quality of life 
going forward. No doubt about that. And the strength of our 
technological enterprise outside of universities as well.
    But another aspect that is very important and we need to 
understand is since the year 1990 or so, when we have now 
become the world of globalization, we have a much greater reach 
in the world and the university has a different role. That is, 
all of our students need international experience. We need to 
draw the best minds from around the world. We are now competing 
with essentially three billion more people, as it were, that 
have joined this knowledge economy, this market economy, in the 
last 15 years.
    We need to be able to recruit people from these countries 
to help our enterprise, to give us that advantage of talent 
that we got before for nothing. Now we have to get it by active 
recruitment, planning, and strategy. That is, the universities 
have to do it. Help from the government would certainly be 
nice, and our corporations have to do it. Everybody is in this 
game.
    It is a different, entirely different world we live in in 
the last 15 years than it was for the 35 years before that. 
Then we got them for nothing. Actually, we were not very nice 
to them when they came here, but they had no other choice. Now 
there are a lot of choices and for us to continue we have to 
change our viewpoint and our receptiveness to gather them here.
    The Chairman. That is a very important theme. We really 
have to be competitive at this point. We are not doing the 
world a favor. We are in fact competing for these talents and 
for our ability to progress as a society.
    Dr. Mote. Absolutely true, and to put up roadblocks and to 
make life unpleasant, unnecessarily so, is just not only 
shooting ourselves in the foot, it is shooting ourselves in the 
head.
    The Chairman. My time has expired. I am now going to 
recognize Senator Sarbanes.

 STATEMENT OF HON. PAUL S. SARBANES, U.S. SENATOR FROM MARYLAND

    Senator Sarbanes. Thank you very much, Mr. Chairman.
    I have a statement I would like to include in the record.
    The Chairman. It will be included in full.
    Senator Sarbanes. I would like to make just a few comments 
at the outset. First of all, I want to commend you, Senator 
Lugar, for holding this hearing. We are near the end of the 
session. There are many others issues on our agenda. But I 
think this is a very important matter. The U.S. projects its 
strength around the world in many dimensions--obviously the 
military, but also the economic, the diplomatic, the political. 
Our extraordinary system of higher education, which I think is 
unparalleled in the world, is an integral part of that 
strength. It offers incomparable opportunities to students and 
scholars at every level.
    Since the end of World War II especially, we have drawn 
talented, hard-working, often visionary men and women from 
virtually every corner of the world to these institutions of 
higher education. In some cases they stay here and become part 
of our scholarly community, a community that plays a vital role 
in training and educating the next generation, laying the 
foundations for economic prosperity. More often they return to 
their country of origin, taking with them the training they 
have acquired here and the experience, I think, of being part 
of an intellectual community defined by the highest standards. 
They have lived and worked in a climate of free and open 
inquiry and debate. I think that serves our national interests, 
very frankly. We, of course, realize that over the past 3 years 
our visa policies have been markedly revised to reflect our 
urgent security concerns. Application procedures take longer, 
they are more complex, and more expensive. In some instances, 
regrettably, they seem to be arbitrary. Institutions from 
across the country, as has happened here this morning, are 
reporting declines in applications, admissions, enrollments, 
and the difficulty that the students who do come have 
confronted in getting here and then in staying here.
    The Chronicle of Higher Education did a recent survey 
showing that foreign student enrollment in the United States is 
in effect leveling off, while in Australia, the United Kingdom, 
Canada, it is jumping in very significant numbers. So it seems 
apparent that there has been a shift in where these able 
students are going.
    This raises the question whether we can maintain our 
preeminence among the world's institutions of higher education. 
Secretary Powell actually last spring said, acknowledged that 
we need to do a more skillful job of attracting foreign 
students to our colleges and universities. The Secretary's 
comment came as 25 science higher education and engineering 
groups representing some 95 percent of the research community 
joined in proposing revisions to end what they called the 
``visa processing quagmire.'' I quote from that report. 
Actually, NAFSA, the Association of International Educators, 
which is on our second panel, was one of the signatories to 
that report. They said: ``We are resolute in our support of a 
secure visa system and believe that a more efficient system is 
a more secure one. We are also confident that it is possible to 
have a visa system that is timely and transparent, that 
provides for thorough review of visa applicants, and that still 
welcomes the brightest minds in the world.''
    Now, Mr. Chairman, I want to commend you. I think we are 
fortunate in having these three distinguished university 
presidents before us this morning. Both Purdue and Indiana, of 
course, have drawn students from abroad in very significant 
numbers. They are located out in the heartland of our country, 
but they have a very strong international dimension. The 
University of Maryland at College Park is the flagship 
institution of my State's university system and that campus 
plays an absolutely indispensable role in the intellectual 
research and economic infrastructure of our State and indeed 
our Nation.
    The first question I want to put is, it is whether 
legislation may be necessary to compel the Executive Branch to 
use greater common sense. Is there legislation that is an 
impediment? It seems to me that those who have established the 
regulatory regime are not required to establish the one they 
have set up by law. So they could go back and redo it, 
restructure it, in order to address many of the problems.
    Is it your perception that there are legal requirements 
that have been enacted into law that create this problem? Or is 
it how the regulators are setting up their system? Do you have 
any view on that question?
    Dr. Jischke. I believe many of the suggestions that the 
higher education community is making could be implemented 
without new legislation. It is less clear to me that our 
suggestion for additional resources in order to have additional 
people available to expedite the processing might actually 
require, at least, appropriations activity by the Congress.
    Senator Sarbanes. Anyone else want to add to that?
    Dr. Herbert. I agree with that. It seems to me that really 
the key question is the actual availability of resources 
necessary to hire the added consular staff that are really 
critical to addressing some of these problems. But otherwise, 
it is the regulators who could do something about these issues.
    Senator Sarbanes. Which government office do you interact 
with most of the time on this issue?
    Dr. Herbert. State Department.
    Dr. Mote. State Department.
    Dr. Jischke. Yes.
    Senator Sarbanes. How about the Department of Homeland 
Security?
    Dr. Mote. Not directly from us, I do not think. Just one 
second.
    Dr. Herbert. The FBI is the silent partner. The dealings we 
have are primarily with the State Department.
    Dr. Mote. Yes, State Department principally.
    Senator Sarbanes. I think we need to try to divide this 
problem up into sub-problems, so to speak, because it seems to 
me that there are different levels of concern. The Chinese-
Russian issue is complicated by the question of protecting 
technology, which may not exist with respect to people who come 
from other countries.
    I understand one problem is that once they get the visa and 
come, if they then want to go home during a recess or if there 
is a family emergency or if they want to go to a scholarly 
conference, say in Toronto, out of the country, to come back 
they again have to go through the whole process that they had 
to go through to get here to begin with.
    It is one thing to say, okay, you want a visa, we run you 
through pretty intense scrutiny that takes some period of time, 
and there is going to be some cost involved, but eventually you 
get that visa. You come. But then good reasons arise why you 
need to leave the country temporarily, and then come back into 
the country. My understanding is that often they are subjected 
to the same process all over again, the same waiting periods. 
Is that the case?
    Dr. Jischke. Absolutely, right on target, sir.
    Dr. Herbert. In fact, I have a problem right now. We have a 
faculty member who is in our mathematics department, a visiting 
professor from abroad. In May he left the university to give a 
series of lectures in London. The problem is that he has been 
stranded there without support because he cannot get his visa 
renewed to come back into the country to teach the classes that 
he was scheduled to teach this fall.
    So it is without question a serious problem.
    Senator Sarbanes. I know my time is up. Mr. Chairman, I 
think this is one problem we ought to try to isolate and at 
least take care of some aspects of it that seem to cry out for 
immediate remedy. That is, it seems to me, a very clear 
example. We have received reports of students who have come 
here and then go home for a week or so to be with a parent who 
has fallen ill, and then cannot return without going through 
the whole complicated process all over again.
    Dr. Herbert. A common problem. We have had several of those 
cases.
    Senator Sarbanes. I have difficulty seeing the common sense 
of that process.
    Dr. Jischke. Senator, one comment I would make, that in 
some of these reviews, because they involve multiple agencies, 
there was a coordination issue and there indeed maybe the White 
House plays a leadership role in assuring that the agencies 
work together in a timely way to resolve questions of visas. So 
it could, in fact, involve not only the State Department, 
Homeland Security, FBI, but the inter-agency coordination 
function.
    The Chairman. Well, the Senator makes a good point that I 
think I would agree with. We must try to find out what can be 
done by regulators in addition to legislators, and then try to 
segment the problem, maybe by agencies or, where coordination 
is required, we could have a list of who has to be coordinated. 
But in any event, that is the purpose of our hearing, trying to 
find what you have done already--and you have identified some 
of that in your testimony--as well as our pragmatically trying 
to think through with you how we might make some improvements, 
which we are intending to do.
    [The prepared statement of Senator Sarbanes follows:]

              Prepared Statement of Senator Paul Sarbanes

    I want to congratulate you and thank you for scheduling this 
hearing at a time when the Senate is preoccupied with a sweeping 
proposal for fundamental reorganization of our intelligence agencies 
and a recess is imminent. Given the many demands on our time, it would 
have been much simpler to postpone any review of current U.S. visa 
policies with respect to foreign students, scholars and researchers on 
the grounds that visa policy does not rank among the nation's or the 
committee's highest priorities.
    Such a decision would have been quite reasonable, given the 
pressures of the moment, but in my view misguided. The U.S. projects 
its strength around the world in many dimensions--the military, of 
course, but also the economic, the diplomatic and the political. Our 
extraordinary system of higher education, which has no parallel 
anywhere in the world, is an integral part of that strength.
    Our colleges, universities and research institutions offer 
incomparable opportunities to students and scholars at every level. 
Especially since the time of World War II, highly talented, hard-
working and often visionary men and women from virtually every corner 
of the world have sought out these institutions. In some number of 
cases they remain to become leading members in the U.S. scholarly 
community, a community that plays a vital role both in educating and 
training the next generation and in laying the foundations for our 
economic prosperity. More often they return to their country of origin, 
taking with them the training they have received, and also the 
experience of being part of a community defined by the highest 
standards of intellectual endeavor and integrity. They have lived and 
worked in a climate of free and open inquiry and debate. I cannot think 
of anything that better serves our national interest.
    Over the past three years our visa policies have been radically 
revised to reflect our urgent security concerns. Inevitably, 
application procedures take longer; they are more complex and more 
expensive. In many cases they are also arbitrary. As a consequence, 
although one institution's experience may differ in details from 
another's, institutions across the country consistently report declines 
in applications, admissions and enrollments. As foreign student 
enrollments have leveled off in this country, they have risen elsewhere 
in the world. A recent survey in the Chronicle of Higher Education 
shows some sobering trends. From 2000 to 2002, the latest year for 
which U.S. figures are available, foreign student enrollment in 
percentage terms increased 7.1 percent, while enrollment in the United 
Kingdom increased 19.2 percent. In Australia the comparable figure is 
35.1 percent, if enrollments for 2003 and 2004 are added, it is 82.9 
percent. For Canada, the figure is an estimated 39.8 pecent.
    The situation is cause for deep concern. It raises the question 
whether we can maintain our preeminence among the world's institutions 
of higher education. Under the current procedures, promising applicants 
are too often rejected although they pose no security risk at all. 
There is growing evidence that increasing numbers of students are not 
applying at all, and choosing to go elsewhere instead. Even Secretary 
of State Powell, in a speech on May 12, has acknowledged that we must 
do a more skillful job of attracting foreign students to our colleges 
and universities.
    The Secretary's comment came as 25 science, higher-education and 
engineering groups, representing some 95 percent of the nation's 
research community, joined in proposing revisions to end what they 
called ``the visa-processing quagmire.''
    ``We are resolute in our support of a secure visa system and 
believe that a more efficient system is a more secure one,'' they said. 
``We are also confident that it is possible to have a visa system that 
is timely and transparent, that provides for thorough review of visa 
applicants, and that still welcomes the brightest minds in the world.''
    One of the signatories to that report--NAFSA: Association of 
International Educators--is appearing before the committee today.
    We are especially fortunate to have the opportunity to hear 
directly from the presidents of three of the nation's major research 
universities. Dan Mote is the president of the University of Maryland 
College Park, the flagship institution in my state's University System. 
College Park plays an absolutely indispensable role in the 
intellectual, research and economic infrastructure of Maryland. I would 
add that several long-time members of my staff are College Park 
graduates, and I consider myself lucky to have them.
    In concluding his written statement to the Committee, Dr. Mote sets 
out in stark terms the challenge we face. He says: ``To remain 
competitive in the coming decades, we must continue to embrace the most 
capable students and scholars of other countries. Our security and 
quality of life depend on it.''
    This is an urgent issue, Mr. Chairman, and I want to thank you 
again for scheduling this hearing. I look forward to hearing from our 
witnesses.

    The Chairman. Senator Alexander.
    Senator Alexander. Thank you, Mr. Chairman.
    Thank you for the testimony. I am going to begin with a 
suggestion, following up Senator Sarbanes and your own 
comments, and then a comment, then a question. I suggest that 
we Senators communicate with this White House or, if there is a 
change in White House, with that White House between now and 
budget time to be specific about the administration actions 
that involve appropriations that might help.
    Number two, my second suggestion is that you and Senator 
Biden had, I thought, a very useful couple of sessions on post-
Iraq reconstruction, which were not hearings, but you invited a 
number of people who knew what they were talking about to sit 
around a table for 2 hours and discuss a memo that had been 
prepared ahead of time.
    Mr. Chairman, you might consider doing that again, inviting 
people from the administration and from university campuses and 
have somebody arrive with a list and say: Okay, here are the 
first five things I would do if I were President to fix this 
problem and could do it by administrative action, here are the 
first five things I would do that require legislative 
attention. My guess would be that that would produce some 
attention within the administration.
    Then the third thing I think we could do is join with the 
lab directors and university administrators for an 
administration meeting on the subject. I think we could do all 
three of those before the end of the year, and if you thought 
that was useful I would be glad to participate in it, because I 
think this is a genuine problem.
    It is also a problem where we have absolutely clear 
competing principles, both of which we all agree with. On the 
one hand, we just finished 2 years of a 9-11 Commission where 
everybody was going to intensive detail to see, well, was there 
any way to connect all these dots and know what was going to 
happen before we got blown up by terrorists in this country. So 
we all understand that.
    I mean, two of the people who died in the World Trade 
Center crash got their student visas after they were killed. So 
there is a problem there, and if the whole country is 
descending upon the President and the former President and the 
administrations and saying you better not let anybody else in 
the country who is going to blow us up, and we see on 
television every day that we are fighting terrorism, then we 
all understand why we need to be safe.
    We also have just gone through creating this massive 
Homeland Security Department. We are debating in the Senate 
right now changes in the rules because Secretary Ridge and his 
assistants testified before 150 hearings in the past 2 years. 
So instead of working on your problem, they are up here talking 
to us. We are part of the problem, seriously.
    So those--and we all understand that. I do not even think 
that is an argument here. I have talked with the President 
about it, the Vice President about it, and Alan Greenspan has 
mentioned it to me. The President was actually very fired up 
about it. He said coordinating agencies is obviously one thing 
to do.
    So we have got a point on that side that everyone 
understands, and I think you have been very specific in your 
suggestions here, which I commend you for. Witnesses are not 
always that specific. The one thing we might do is separate 
them into what needs to be done by law, what needs to be done 
by administrative action. You may already have done that. And 
maybe put it into priority order, recognizing that what would 
produce the minimum amount of security risk and the maximum 
amount of help in solving the problem.
    The other side of the problem deserves the attention this 
hearing is giving it. Our gross national product has grown in 
the last 25 years from a quarter to 33 percent of the whole 
world's growth, which is an astonishing figure. Our secret 
weapon is our remarkable system of research universities and 
national laboratories, which we have not mentioned this 
morning, because no one else in the world has anything like it.
    We could testify all day about the fact that we not only 
have many of the best universities in the world, we have almost 
all of them, and the world knows that. I mean, you go to Europe 
and you read in the newspaper that Tony Blair and Mr. Schroeder 
in Germany, when their political careers are down, are taking 
enormous political risk to try to change their higher education 
systems because they are not very good compared with ours, and 
they know that. And their talk, their political talk about 
outsourcing in Europe in the headlines is not about jobs, it is 
about brains, the outsourcing of European brains to the United 
States universities and laboratories, all of which give us our 
remarkable standard of living.
    So I think we all--maybe we do not all understand that, but 
it is an established fact not worth very many hours of 
argument, and the facts that you have reminded us today about 
the large number of foreign nationals who receive Ph.D.'s and 
stay here is a huge fact.
    When I was president of the University of Tennessee, it was 
at the time of the Tiananmen Square event. I think there were 
about 30,000 Chinese scholars in the United States. I wrote to 
then-President Bush--I should have called him, actually--and 
suggested that he grant immediate citizenship to all 30,000 of 
those Chinese nationals, who at the time were afraid to go 
home. Maybe that would have provoked a terrible crisis with 
China, but it would have fixed us up in the United States for 
the next generation in terms of brain power, the same way the 
German scientists did during World War II.
    So we need to be very much aware that we are chopping our 
legs off when we make it harder for bright people to come in 
here and help create jobs and a standard of living that we have 
come to enjoy.
    I also appreciate the fact, as noted in Dr. Mote's 
comments, that it is not just visas. I mean, we are living in a 
different world, and that is good. I mean, there are more 
countries beginning to build first-rate universities. They are 
seeing the value of growing. The more they grow--we want 
African countries and Southeast Asian countries to be 
prosperous and democratic, and they do that not just by sending 
their agriculture minister to the University of Tennessee, but 
they might train them there at home. So we want that, and we 
are going to have that competition.
    So I think that as a part of this process--it may not be 
this committee that does it--we need to be thinking about what 
should we be doing in the United States to grow our own 
scientists and engineers and what specifically could we do.
    So let me ask the three of you, what do you think about the 
idea of such a roundtable? We do not have any administration 
people here today, but I know that this President, this Vice 
President, see this as a problem. Would such a roundtable help 
say to the State Department and other people, could we say to 
them, here are the first five things I would do if I were 
President, here are the first five things I would do, I would 
suggest to the Congress?
    Dr. Mote. It sounds like an absolutely great idea to me. I 
have to say, this roundtable would bring the different 
interests around one table so they could hear each other. This 
roundtable could actually list items for action, either by 
policy change, implementation under current legislation, 
actions for additional resources, and just list those out. I 
cannot think of a more effective way to move this forward 
quickly.
    Otherwise, there are so many different partners involved 
and so many different two-way conversations that take place, 
you never actually get down to an agreement that will actually 
move it forward.
    Dr. Jischke. Absolutely. You are quite right, there is some 
inherent conflicts in trying to tackle these issues between 
security, long-term economic interests, and maybe our long-term 
foreign policy interests, and that calls for a discussion and 
it would be useful to have the people who can actually 
implement ideas in the discussion. A great idea.
    Dr. Herbert. I agree. Also, Senator, it seems to me in the 
final analysis it is the dialogue that is most critically 
needed at this point in time, and a discussion in a very candid 
fashion of the problems that we have as well as the 
opportunities that we must pursue. I think that your 
articulation of this is extremely effective and describes what 
might very well be the preamble for what we ought to be doing 
in that kind of setting.
    Senator Alexander. Thank you.
    Mr. Chairman, my time is up, but if you decide that is a 
useful way to move I would be glad to spend time working with 
you on it.
    The Chairman. It is an important pledge and I appreciate 
that. I think it is a very good suggestion and no doubt we will 
get under way. Our problem then will be, for all of us, to 
think of who should be sitting around the table. But that will 
be another day. I appreciate the suggestion.
    Let me just mention, Senator Coleman has taken a specific 
interest in the area that we are talking about today. He has 
been a leader on our committee in this respect. I want to 
welcome him to the hearing and call upon him for his questions.

  STATEMENT OF HON. NORM COLEMAN, U.S. SENATOR FROM MINNESOTA

    Senator Coleman. Thank you, Mr. Chairman. Mr. Chairman, I 
have a more complete statement I would like entered into the 
record.
    The Chairman. It will be made part of the record in full.
    Senator Coleman. Mr. Chairman, let me first thank you. 
Again as my colleague from Maryland noted, this is late in the 
session, and we have got just a few more days we are going to 
be here; we are going to be out Friday and then come back 
briefly in November. So it is pretty extraordinary to do this. 
I have had conversations with the chairman and I really 
appreciate your commitment and your leadership. It is very, 
very important.
    I also welcome--I see two of the presidents here represent 
the heartland that I represent, Minnesota, part of the Big Ten. 
I know that if President Bruenig was sitting here, President of 
the University of Minnesota, his statement and his thoughts 
would parallel your statements.
    President Mote in his remarks raised the question, what is 
the cost to the United States of putting up barriers to 
programs that give us the opportunity to win friends and export 
democratic values? I think that is the question, what is the 
cost? From my perspective, I see this both as an economic 
security issue, as my colleague from Tennessee has talked 
about, the ability for America to be competitive--our 
competitive answers are not low-cost, low-wage jobs. That is 
not what America is about. It is innovation, it is 
productivity, it is mind power.
    The ability for us to be competitive in this changing 21st 
century world is really tied to the academic excellence at 
every level, but in particular what you gentlemen represent. So 
I think this is an economic security issue.
    I also think it is a national security issue, as some of 
your own testimony has indicated, that the leaders of these 
nations are folks who had the opportunity to be schooled in 
American values and American institutions and American friends. 
I think, as we understand in this body, I think the Senate is 
the ultimate relationship business. We, right now, are losing 
that opportunity in massive numbers.
    I think this is a national security issue that will take 
its toll 20 years from now. But the seeds that we fail to plant 
today, the seeds that we are failing to plant today, are going 
to have a direct impact on the ability that we have to work 
with other nations and other leaders who should be our friends 
and should be schooled here.
    So I think there is much work to be done. I have put forth 
a bill, Senate, S. 2715, the International Student and Scholar 
Access Act. In many ways, I would respond to my colleague from 
Maryland, a lot of it is simply asking for common sense. I 
think, President Jischke, in your testimony you give a number 
of specific recommendations. I would note that many of them are 
contained in my bill.
    But it may not take legislation, and so I want to raise my 
hand and join with my colleague from Tennessee to say if there 
is this roundtable, this further discussion, I will commit the 
time and energy to be part of that. I think it is important.
    Let me ask--two observations. One, the SEVIS program. We 
understand that there are important national security concerns 
today. We saw that. My colleague from Tennessee reflected upon, 
two of the terrorists, two of the murderers in 9-11, were folks 
who ultimately got student visas after their dastardly, 
despicable acts. If something like that happens, you see big 
change quickly, as it needs to be. But the question is what is 
the balance.
    It is interesting to note in the September 11th 
Commission's report on page 377 they specifically note: ``The 
United States should rebuild the scholarship, exchange and 
library programs that reach out to young people and offer them 
knowledge and hope. Such assistance as is provided should be 
identified as coming from the citizens of the United States.'' 
We need to be involved in working with students in other 
countries, and I think getting them here is a big part of that. 
SEVIS is important because we need to have a system to deal 
with this.
    I would like to submit a letter for the record, Mr. 
Chairman, from the University of Minnesota that discusses 
problems with the SEVIS system, notably a system crash that 
resulted in some 2,198 students and scholars at the university 
in regulatory limbo, technically out of compliance with the 
Patriot Act through no fault of their own or the university's.
    The Chairman. It will be placed in the record.
    [The information referred to follows:]

                           University of Minnesota,
                          Office of Information Technology,
                                  Minneapolis, MN, October 4, 2004.
    To whom it may concern: As you know, the Patriot Act mandates 
university compliance with the SEVIS system in the Department of 
Homeland Security. The ramifications of inaccurate information 
transmitted from the university to the federal government include 
potential loss of visa status for international students and scholars, 
significant administrative effort, and out of pocket expenses for 
involved parties. The Patriot Act holds the university responsible for 
the accuracy of the records in SEVIS for our international students and 
scholars.
    Due to high volume of transactions, the University of Minnesota 
uses the SEVIS authorized mechanism of batch transmission of data to 
communicate with SEVIS. This process has been improving, but it is 
still fraught with failure. On a regular basis, we do not receive a 
confirmation file, necessitating follow-up with the SEVIS help desk. 
Usually, the issue is resolved within a day. Unfortunately, the most 
recent failure of September 21, 2004 took 10 days to resolve, affecting 
2,198 individuals. When we inquired as to the cause of the failure, we 
were told it was a disk space issue. This leads us to lodge several 
specific complaints.
    1. Communication is an ongoing struggle. Status is not reported by 
SEVIS to universities in a timely manner. We must call to check on 
issues, and in this case we had been told for 10 days that the problem 
would be resolved within 24 hours. Had we received accurate information 
that it would take 10 days, we would have taken different action. Being 
technologists, we recognize that problems occur and solutions are not 
always easy; however, we need a reasonable reply in response to the 
technical difficulties. Communication can help in every situation, and 
it has been sorely lacking.
    2. Status Reporting has been non-existent. When a batch job fails, 
the institution should be notified. The current process is that the 
university must recognize that a confirmation file did not arrive and 
contact the SEVIS Help Desk. There is no web presence or proactive 
notification of processing failure.
    3. The Help Desk and the Federal Processing Center are separated by 
a great distance. Frequently, the help desk passes on information 
regarding a remedy, and it is incorrect. The university is not 
permitted to contact the Federal Processing Center directly. In fact, 
we have never had contact of any sort with the staff directly 
responsible for loading the data that is the legal responsibility of 
the university.
    4. Planned maintenance and system downtime is often communicated 
with very short notice or not at all. With the level of integration 
that is required to run efficient programs, universities and software 
vendors must receive greater advance notice with time reserved for 
testing.
    5. The staff that runs SEVIS is not attuned to business cycles. 
There are legally binding deadlines for submission of information for 
each visa holder. One such deadline is looming on October 7. 
Universities across the country are submitting large volumes of data. 
If the information the help desk passed on is correct, the current 
problem we are dealing with is a direct result of lack of understanding 
of business cycles.
    Lest you think that we are willing to complain but not participate 
in a solution, I offer the following suggestions:
    1. The University of Minnesota would be willing to work with the 
Department of Homeland Security and the staff that run the processing 
center to organize a formal user group to focus on technical and user 
concerns.
    2. A web site communicating university-specific status information 
as well as planned system changes and downtime would be extraordinarily 
beneficial.
    3. The listserv should be used more effectively. It takes a great 
deal of time just to get an additional staff member approved and on the 
list. This needs to be streamlined, better information needs to be 
communicated, and information must be transmitted in a timelier manner.
    I appreciate your efforts to assist the University of Minnesota in 
working through the technology issues associated with SEVIS system data 
transmission. We care deeply about the satisfaction of our very 
talented students, staff, and faculty. The Office of Information 
Technology is also committed to assisting our administration in 
remaining compliant with regulation. I am confident that the University 
and the Department of Homeland Security can work together to establish 
a positive working relationship that ensures solid communication and 
technical processes. If you wish to discuss this further, please 
contact me at 612-625-8855 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f09391879c9589b0859d9ede959485">[email&#160;protected]</a> to arrange a discussion.
            Best regards,
                                      Steve Cawley,
                    Chief Information Officer and Associate
                           Vice President, University of Minnesota.

    Senator Coleman. I appreciate that, Mr. Chairman.
    Let me ask kind of a general question about one issue that 
I know the chairman raised in his statement. That is this issue 
of requiring folks to prove a negative, to prove, young people, 
that they somehow have ties back in their homeland so that when 
they are done with their education they go back. One, I think 
we need to change that. I think we need to change that. I think 
that we have young people who may not have spouses, they may 
not own property. That should not be a barrier to studying in 
this country.
    But I would ask perhaps all of you just to address kind of 
the broader question of what is the problem? What problem are 
we trying to address with the current regulation? Is it in our 
benefit to have certain young people, the best and the 
brightest from Uganda or the best and the brightest from 
Poland, wherever, coming here to study and then decide to stay 
in the United States, to use their talents to work in our 
industries and to work?
    Help me. I would like to hear your reaction or your sense 
of, do we really need to require students to immediately go 
back after they are here, or is there a benefit from having 
some of those students that you know continue to contribute to 
this country?
    Dr. Jischke. I think the reason for the policy--I actually 
agree with your point of view, but I think the reason for the 
policy is concern over competition for jobs that exist in the 
United States. But the history of the country, not only in this 
recent technological age, is that many of these immigrants 
have, in fact, stayed in our country and provide leadership for 
some of the most prominent industries of America. The 
information technology industry is an example.
    I think one of the issues here is a fundamental value of 
our country. What we represent in the world is a place where 
people from the world have come to realize the promise and the 
dream of the American democracy. It is deeply rooted in our 
concept of ourselves and it is deeply rooted in, I think, the 
world's view of America.
    It is one of the reasons we have ascended to a special kind 
of leadership. It is not only our economic might and our 
military might; it is the power of our ideas. We are an 
inclusive country, and it seems to me in this age, instead of 
coming to farm the land, if you will, which my great-
grandfather did, they are coming to learn the technology and 
take their place as part of a longer tradition of immigration 
growth that has made us an extraordinary place in the world, I 
mean the hope of the world.
    It seems to me this is who we are and we ought not to lose 
sight of it and we ought to foster that kind of development. So 
I very much agree with the spirit of your comments that we 
ought to welcome these bright young men and women and be 
thankful that they want to come to our country and be part of 
this living experiment called the United States of America.
    Senator Coleman. Dr. Herbert.
    Dr. Herbert. Senator, I would like to respond by telling 
you just a very brief story. In 1990 our university entered 
into a contract with Petronas, which is the national oil 
company of Malaysia. As part of that program, each year 
students come from that country to study at universities in 
this country. They come first to IU for the purpose of 
preparing them, taking some SAT prep courses, those sorts of 
things.
    But what is significant is that between 1990 and 2001 we 
have had over 200 of those students to come to our institution 
and then go on to Harvard and other universities around the 
country. In 2002 a group of these students came, they went 
through the first phase of the program, then they went back 
home for the summer term with the intent of coming back in the 
fall to go to their respective campuses.
    It is very interesting. What happened was that all of the 
female students were allowed to come back; not a single one of 
the male students was allowed to return to the country. This is 
an ally. As a consequence of how those students were treated, 
the company has discontinued the program. We are now going to 
lose all of those young people who are coming here, who are 
studying here, who are going to understand the values of this 
country. Some of them may have decided to stay. Others may have 
gone back to their country.
    I do not know whether the issue here is simply one of 
national security, if it is a concern about U.S. jobs, or if it 
is a concern about eliminating the brain drain from some of 
those countries. There are any number of possibilities. But in 
the final analysis, it seems to me that what we have to 
understand is that in the case of our institutions again, 30 
percent of the scientists in our medical school are coming from 
abroad. It hurts us significantly if we no longer have access 
to that kind of talent.
    In addition, we are clearly establishing very positive 
long-term friendships with potential leaders--business, 
education, others--in those countries from which the students 
come if they do decide to return. But we need some of that 
intellectual talent in this country. We cannot afford to lose 
it, it is of such vital importance, not only to our 
institutions, our higher education institutions, but other 
parts of our society as well.
    Senator Coleman. Mr. Chairman, I know my time is up. Just 
one comment. I understand the concern about jobs. I worry, 
though, that we have a 20th century mind set in the 21st 
century. Senator Baucus has put together a group on global 
competitiveness, and we have heard from CEOs that our ability 
to grow jobs in this country is tied into having that talent. 
We need to be certain that we are not taking away jobs. I do 
not think that is the case. I think we are bringing the wrong 
mind set. If you want to grow jobs, if you want to grow this 
economy, be on the cutting edge of innovation. The CEO's that I 
have talked to reflect that perspective.
    [The prepared statement of Senator Coleman follows:]

               Prepared Statement of Senator Norm Coleman

    I would first like to express my deep appreciation to the Chair for 
his interest in this vitally important issue and his willingness to 
make this hearing a priority in these waning days of the 108th 
Congress. The chairman and I have discussed this issue at great length, 
and I respect his commitment to the importance of international 
exchanges.
    I firmly believe that it is in America's national interest for the 
best and brightest foreign students to study in America. These are 
people who will lead their nations one day. The experience they gain 
with our democratic system and our values gives them a better 
understanding of what America is and who Americans are.
    Underscoring the importance of international exchanges to our 
national security, the September 11th Commission's report recommends on 
page 377: ``The United States should rebuild the scholarship, exchange, 
and library programs that reach out to young people and offer them 
knowledge and hope. Where such assistance is provided, it should be 
identified as coming from the citizens of the United States.''
    In a world that hates us because they do not know us, international 
education represents an opportunity to break down barriers. Foreign 
students also help out economy. Higher education is a major service 
sector export, bringing in $13 billion dollars to the United States 
economy every year. Competitors like the U.K., Canada and Australia are 
gaining market share while the U.S. is losing.
    As the Chairman is well aware, I have introduced legislation, S. 
2715, the International Student and Scholar Access Act. My legislation 
proposes to make common-sense changes to the way visas are processed, 
to encourage a coherent U.S. marketing strategy for international 
education, and improvements in the way SEVIS fees are collected. I am 
proud to have the co-sponsorship of Senator Bingaman.

    The Chairman. Thank you very much, Senator Coleman.
    Reluctantly, I must bring this chapter in our hearing to a 
conclusion. I say that because we have so much appreciated 
having three great academic leaders before us, and likewise 
vigorous participation, as you perceive, by the Senators, who 
are very interested and committed to trying to make progress on 
these issues for the benefit of universities, but likewise for 
our country.
    Senator Sarbanes. Mr. Chairman, could I just add one point?
    The Chairman. Certainly.
    Senator Sarbanes. It would be helpful if the presidents 
could send us their thinking. I think the question that Senator 
Coleman put is quite an important question, and really I do not 
think we have sorted out exactly what our rationale is, because 
I do think there is a strong rationale that these students were 
to come in and then go back to their countries and contribute 
to the development of their own countries.
    Secondly, the student visas are separate and outside of the 
visa limitations for coming into the country. They do not have 
to line up like others who have decided they want to leave 
their country and come to the United States, which is quite a 
long list and closed out in many countries for a number of 
years. The students come in on a completely separate track and 
therefore we have visas available to them.
    But I think we have to think this through pretty carefully, 
because I do think there in the past, at least, has been a 
strong rationale that they are to come here, get their 
education, learn the way we do things, and then go back to 
their own countries and help the development of their own 
countries. Now, if we are going to shift to a different 
rationale, I think we need to give that some careful thought. 
So it is, I think, a fairly complex problem. I just wanted to 
make that observation.
    The Chairman. I think the Senator's observation is very 
important. In the Millennium Challenge hearing we had 
yesterday, to mention the example of Georgia again, one of the 
16 selected countries, these young leaders that were educated 
in the United States did return to Georgia. They have 
instituted an anti-corruption drive, which is totally counter-
intuitive for the entire area. Likewise, the country is 
fostering a burgeoning democracy with only four million people 
and very tough resources.
    On the other hand, we have had testimony from Chinese and 
Japanese scholars who now have businesses in both Japan and 
China. They are traveling back and forth between the two 
countries. The dimensions of international trade and 
international business now are such that they do not have 
citizenship in two countries, but by and large their wealth is 
divided, and so are their employees. They are employing people 
in both countries, interestingly enough. And that is not 
foreign to your experience, because you see these people all 
the time.
    Senator Alexander. Mr. Chairman, at the risk of--on Senator 
Sarbanes' point, I believe the 1952 Immigration and Nationality 
Act requires that a student applicant say they do not plan on 
staying in the United States upon completion of their degree. 
Yet we have just heard that two-thirds of those who get Ph.D.'s 
in science and engineering do.
    The Chairman. And we have heard likewise that we are 
grateful that they did.
    Senator Alexander. But going back to his point about maybe 
we need to be clear about what our rationale is here as we 
examine this.
    The Chairman. A very important point.
    Thank you very much, gentlemen.
    I would like to call now upon the second panel: Ms. Cotten, 
Dr. Goodman, Ms. Johnson, and Dr. Kattouf.
    [Pause.]
    The Chairman. We thank each of you for coming today to 
enrich our understanding of these important issues. I would 
like for you to testify in the order that I introduced you, 
which would be first of all Ms. Cotten, then Dr. Goodman, Ms. 
Johnson, and Dr. Kattouf.
    Let me indicate--and we will be as lenient as possible 
about this--but we want to make certain that all of you are 
heard, and likewise, that the Senators have an opportunity for 
interchange with you. So, to the extent that you can summarize 
your statements, I would appreciate that. They will be made 
part of the record in full, because we want to have the full 
record of all the research that you have done in preparation 
for this hearing.
    To the extent that you can summarize in five minutes or six 
or something in that ballpark, that would be helpful, because 
we know that the roll call situation is coming upon us 
imminently.
    Ms. Cotten.

 STATEMENT OF CATHERYN COTTEN, DIRECTOR, INTERNATIONAL OFFICE, 
                        DUKE UNIVERSITY

    Ms. Cotten. Thank you. I appreciate the opportunity to be 
here, and I can tell you that at Duke we could repeat the many 
stories that we have heard this morning.
    I come to you from an International Office, not as the 
president of a university. So, as you mentioned earlier, my 
office daily spends its time down in the weeds. I would like to 
speak about some of the issues that we could deal with. Just 
now you had asked what is statutory, what is regulatory, what 
is a matter of policy. I think that is a key question to ask. 
We do have some things we could do now.
    I believe that Senator Coleman's bill will help address 
some of the statutory problems that we have with the security 
clearances, with their definition, with their repetition. But 
we also have situations where visas for certain countries for 
student scholars are given for the full duration of their time, 
visas for other countries are given for 6 months and only two 
entries. This is based entirely on an historic visa reciprocity 
system out of the Department of State and, while that has 
served us well, it appears not to be serving us now. So the 
length of the visa and whether it is for 6 months or 4 years is 
a regulatory policy determination that could be changed if we 
choose to change it. That just needs appropriate discussion on 
what levels of change we need to talk about.
    Indeed, with the SEVIS program we have ways of tracking and 
managing the students that are going to give us a closer watch 
than just having them go back and repeat for visas.
    Because of the differences in the lengths of visas, we have 
some students who come into the country on a 4-year visa stamp, 
they stay for periods of time, they come and go at their 
leisure. They have no problem visiting a sick relative, they 
have no problem going home for a holiday. We have the other 
students on the 6-month visas, who must go through the entire 
process every time they travel. So that is an area where we 
could look at resolution and policy.
    The other discussion today has been on 214B, which is part 
of the Immigration and Nationality Act. As Mr. Alexander said, 
there is statutory language that says that they must have a 
residence abroad that they have no intention of abandoning. 
Keeping in mind that that law was written in 1952--and I think 
at the time that you were traveling to England you went by 
ship--I do not think that would happen today. There were no 
trans-Atlantic jet flights in 1952. The world has changed. 
People travel far more often.
    Consular officers to some degree under 214B were also 
concerned, not about whether someone might come and stay 
legally and then move on to other legal statuses, but whether 
that individual might come and become illegal. So I think that 
that discussion needs to be a part of the discussion on 214B 
and a possible statutory change.
    At the same time, there are different ways, policy ways, to 
interpret 214B and whether individuals have a residence abroad 
that they have no intention of abandoning now, or whether we 
are asking the consular officer to do crystal balling well into 
the future, 4, 5, 8 years into the future, on what they might 
do at some future time.
    It is also the case that the Department of State has 
addressed this issue in another context. There is a cable 
currently in place that permits a slightly different and more 
lenient view of 214B for tourists who are coming as 
cohabitating partners with people coming long-term. One would 
think that we could give to students and scholars the similar 
kind of benefit of the doubt that we are giving to cohabitating 
partners coming on tourist visas.
    So as we discuss these issues, I think that the points you 
have made on statute and regulation and mere policy need to be 
looked at together, and that we do have things we can do now to 
solve some of these problems.
    [The prepared statement of Ms. Cotten follows:]

Prepared Statement of Catheryn Cotten, Director, International Office, 
                            Duke University

    Thank you for the opportunity to comment on an issue of such 
importance to the United States. Many international education 
organizations have spoken to the value of international students and 
scholars in our classrooms and research facilities, to the successes we 
enjoy as a nation because of their contributions, and to the increasing 
road blocks and delays that threaten that continued exchange and 
success. I am including links to organization documents in the appendix 
to this testimony.
    This testimony will summarize the chief difficulties that 
international students and scholars face in applying for visas, and 
will suggest policy and procedural changes that can enhance security 
while helping to make the visa application process more positive and 
welcoming. Let us remember that before these students and scholars 
reach the point of visa application, they have already been vetted by 
the schools and programs as to their academic credentials and their 
qualifications for the study or research in which they will engage. The 
visa application process examines their individual circumstances 
relative to security concerns and to their intent to engage in the 
activities described on the visa documents provided by the school or 
program. The visa stamp is only permission to apply to enter the U.S. 
It is the SEVIS document, provided by the school or program, that 
specifies the activities and intended length of stay. The visa stamp 
may expire shortly after arrival in the U.S., but that stamp expiration 
does not affect lawful status inside the U.S. The visa stamp is only 
required for travel, not for remaining legally in the U.S.
    I come to you representing three different, but related groups: 
Duke University, whose student population is about 10% international 
and whose research facilities host hundreds of scholars every year; 
Duke University as one of the 21 pilot schools that helped design, 
test, and launch CIPRIS, the precursor of SEVIS, and that continues to 
offer information as needed; and as an American citizen who has 
traveled abroad and has seen how others in the world may see us.
    The United States is still the destination of choice for thousands 
of students and scholars, but it has also become a destination of 
academic and personal risk. Consider these representative experiences.
  <bullet> Imagine that your son has been admitted to four of the best 
        schools in world, all in different countries. He has one 
        special favorite in the United States on which he has placed 
        his hopes--all the others are his second choice. He has read 
        the catalogue until he can quote it. He has told all of his 
        friends that he has been admitted. It is only March and he is 
        already packing for school in September. All things being 
        equal, most parents would want him to go to the school of his 
        choice. Now suppose that four of those countries will give him 
        travel documents and visa stamps in 15 days. He could get those 
        visa stamps now, but he has not done so. He is set on attending 
        his favorite school. Surely the U.S. will give him a visa. He 
        worked so hard to be good enough to get admitted. His future 
        depends on it. Then he learns that it may take three months to 
        apply for a visa and even then he might be refused or might be 
        delayed past the first semester. He is still hopeful. He holds 
        out for the visa, does all that is required of him, but time is 
        getting short and still no visa. You are a parent, worried 
        about your child and his dreams, with limited funds for his 
        education, and concerned that such a delay could postpone his 
        education for a year or more. Finally one of those second 
        choices becomes the only choice because the risk of ``waiting 
        it out'' is just too high. He goes to one of the other schools, 
        but his dream is unrealized and he forever harbors a certain 
        bitterness toward the country that admitted him to school and 
        allowed him to dream and then bureaucratized that dream out of 
        existence. In the future it would not be surprising if none of 
        his siblings or cousins or acquaintances apply to schools in 
        the U.S. ``Why should I?'' They might argue. ``Even if they 
        admit me they won't let me in. I can't afford to take the 
        risk.''
  <bullet> Imagine your daughter was admitted to a school in the U.S. 
        and was granted a visa. She has finished her freshman year and 
        you are looking forward to having her home for the summer. She 
        calls you in March and says, ``Maybe I won't come home this 
        summer. Some of my friends went home for the winter break and 
        still haven't been able to get back because of visa delays. My 
        SEVIS documents cover four years, but my initial visa stamp was 
        for only a year and expires in early May (note that expiration 
        of the visa stamp is common and is not expiration of lawful 
        status). I would have to apply for a new visa to come back in 
        the fall. Mom and Dad, I just don't think I can take the risk 
        of not being able to come back.'' Two years later, at the end 
        of her junior year, she has still not been home because she is 
        still afraid that she cannot get a visa to come back. She loves 
        her studies in the U.S., but the inefficient visa system and 
        the long separation might make you wonder if you would send 
        another child to the U.S. And her loneliness might make her 
        wonder if she would encourage her little brother to make the 
        same educational choice she did.
  <bullet> Imagine you are a scholar whose work in a particular field 
        has been recognized internationally. A prestigious U.S. 
        university invited you to join one of its research teams for a 
        three-year project. You applied for your J exchange visitor 
        visa, and though it took three months to get it, you finally 
        arrived and joined the team. The team members are among the 
        best in the world from the U.S. and from other nations. One of 
        your discoveries leads to a paper published in a very selective 
        journal. You are invited to present your findings at the annual 
        international conference in your field. The conference, four 
        days long, is outside the U.S. The original visa stamp in your 
        passport has expired, and you will need a new stamp to return. 
        It will take at least a month, or perhaps longer, to get the 
        visa stamp to return to the U.S. It is your work, your paper, 
        your chance to meet and compare notes with colleagues from 
        around the world. You have an opportunity that would make you 
        competitive for top positions in your home country when you 
        return, but you cannot attend the meeting. You cannot take the 
        chance that you will be away from your time-sensitive research 
        for a month or two or more. Or alternately, you decide to take 
        the chance and you are stuck in a foreign country (not the U.S. 
        and not your home) for months with your savings and your career 
        slipping away. In research, as in politics, time can make all 
        the difference.
    Remember that these are common experiences repeated hundreds of 
times each year at colleges and universities across the U.S. We see 
their effects in the drops in the number of college applications and 
the thousands of U.S. tax dollars wasted as research projects limp 
along because a key team member cannot get a visa.

              WHY DOES IT TAKE SO LONG AND WHAT CAN WE DO?

    Two primary functions of visa application and consular processing 
contribute to the delays and denials, one new, one old.
The Technology Alert List (TAL), ``sensitive areas'' list, and general 
        security concerns
    The TAL is not new, but the combined effect of the TAL with 
understandable post 9/11 concerns about sensitive knowledge areas and 
the resulting need to look closer at the background and affiliations of 
visa applicants has created a visa review process that can take months.
    We need to apply the rules efficiently, transparently, and 
logically. We need to eliminate repetitive visa reviews that serve no 
security purpose and that take resources from other security work. The 
Department of State has worked diligently to streamline the VISAS 
MANTIS clearances and to encourage and empower consular officers to 
expedite visa interviews for international students and scholars. Some 
processes that used to take three months have now been reduced to 30 
days in many cases, but some cases still seem to get stuck in the 
system for many months with no apparent reason. In addition, many 
students and scholars who have undergone the reviews and obtained visas 
are repeatedly subjected to the same review process. This repeat review 
generally occurs not because of any new or additional concerns about 
the applicants, but simply because their initial visa stamps were of 
short duration, merely as an operation of visa reciprocity. Under 
current visa reciprocity rules, a student or scholar from country X 
gets an ``F'' student or ``J'' scholar visa stamp for the full duration 
of his/her program and with multiple entries, while a student from 
country Y gets an ``F'' or ``J'' stamp valid for only six months and 
for only two entries. This inequities result from agreements with other 
countries that have no particular relationship to security. They make 
some sense in the old and longstanding visa reciprocity agreements, but 
do not withstand logical scrutiny in the post-9/11 visa environment. We 
are engaged in repetitive visa reviews on people that represent very 
minimal security risks because we are not willing to review our own 
visa policies, decide if they really serve our interests, and change 
them if necessary. U.S. government resources are being wasted on second 
or third administrative reviews that are only tangential to security, 
if they are related at all.
    Senator Coleman, in S. 2715, the International Student and Scholar 
Access Act, has sought to address these issues of waste, repetition, 
and delay.
Nonimmigrant intent, INA 214(b)
    This law, now over 50 years old, requires that all F and J visa 
applicants (and others such as B visitors) show that they have a 
residence abroad that they have no intention of abandoning.
    DOS needs to rethink INA 214(b), the ``nonimmigrant intent'' rule, 
and accept documentation in SEVIS that the visa applicant is a student 
or scholar as evidence of temporary intent (i.e. to be a student or 
exchange visitor) absent demonstrable evidence to the contrary. Such 
evidence might include the filing of a labor certification or immigrant 
petition or application on behalf of the alien, or very close family 
ties in the U.S. that have an immediate potential for immigration. The 
nonimmigrant intent rule should apply only to maintaining legal status 
during this activity and for this purpose identified on the visa 
application, not to the possibility that the student might legally 
acquire another status in the distant future.
    DOS has considered and addressed similar intent issues related to B 
visitor visas in its policy on cohabitating partners, and has 
implemented a more open policy. While that policy states that the 
individual must meet the nonimmigrant intent rule of INA 214(b), it 
also says that long-term stays in the U.S. with partners in extended 
status is expected and acceptable. It goes on to say that consular 
officers should make appropriate annotations on the visa, ``as that 
will increase the likelihood that the inspector grants the maximum 
possible admission period on initial entry and will facilitate 
subsequent extensions.'' The substance of the cable tells consular 
officers that it is OK to give long term ``B'' tourist visas to 
cohabitating partners, and that it is OK not to worry too much if they 
might stay in the U.S. for a long time. It authorizes the consular 
office to give the cohabitating partner the ``benefit of the doubt'' 
when issuing the visa.
    If nonimmigrant intent can be viewed as related to a particular 
visit that has a variable and unspecified end date for the purpose of 
admitting cohabiting partners for extended stays, why can't a similar 
interpretation and visa issuance practice apply to students and 
scholars? Indeed, unlike the B-2 cohabitating partner, who may have no 
definite completion date, the F or J student or scholar carries 
documents that specify a precise end date. Shouldn't a student or 
scholar be given the same ``benefit of the doubt'' as a cohabitating 
partner?
    When the law was written in 1952 most transoceanic travel was done 
by ship, and no transatlantic commercial passenger jet flight had yet 
occurred. It would be another six years before the first such jet 
flight, and well into the 1960s before jet travel became common. When 
travel was so difficult, so burdensome, and so infrequent, it was 
important for a consular officer to see exceedingly strong evidence 
that the student or scholar to whom he was giving a visa had very 
strong ties to the home country, and did not intend to use that visa to 
enter the U.S. fraudulently and remain here illegally. People travel 
much more easily and frequently now, but the validity of the 1952 
interpretation of the law in the student and scholar context has had 
only minimal review.
    Because people can travel more frequently, our application of the 
law to make that travel very high risk has the opposite effect of that 
intended. The student or scholar who wishes to travel frequently, and 
is permitted to do so by a reasonable visa process, maintains ties to 
home and establishes and develops business relationships that will draw 
him back to his home country. The student or scholar who is threatened 
with visa delays and denial if he leaves will remain in the U.S. for 
three, or five, or eight years getting a degree or doing research. He 
will not take the risk of going home, and so finds it nearly impossible 
to maintain those close ties. His choice not to travel has protected 
him from visa review, but has also isolated him from the family and 
business relationships that would have drawn him back home. It is easy 
to guess which one of these people is likely to become a positive voice 
for America at home and in other countries. Our current visa policies, 
in stifling travel, also stifles those voices.
    Secretary Powell has begun the much-needed conversation on this 
nonimmigrant intent issue in his guidance to consular officers in a 30 
March 2004 cable to the field. Nevertheless, the underlying assumption 
still remains that nonimmigrant intent applies in a kind of perpetuity. 
Not only must the student or scholar show that he has ties in the home 
country now that will likely cause him to return, but also that he will 
not, at some future time years from now, change his mind and remain in 
the U.S. legally. The burden on consular officers to read the mind and 
``crystal ball'' the future of a student or scholar who is primarily 
focused on the next few months, not the next 10 years, is completely 
unreasonable.
            what can sevis do and how can we use it better?
    Although SEVIS is under the purview of DHS, the SEVIS database can 
assist and inform consular officers in their visa deliberations and can 
help relieve the consular burden if we choose to use it to do so.
The Original Vision
    As one of the 21 pilot schools Duke University helped design the 
database management system that is today known as SEVIS. When work on 
what was then called the CIPRIS project began in the mid 1990s, Mr. 
Maurice Berez, the Immigration and Naturalization Service (INS) officer 
in charge of the project, shared with participant schools a vision of 
an integrated system. SEVIS would be the work horse database that would 
organize and streamline student and scholar processing from school 
admission, through visa application, entry at the port, participation 
in the program, travel during the program, and final completion. It 
would provide a range of data on each individual to different 
government agencies. It would identify those students and scholars who 
were maintaining status and pursing the studies, teaching, and research 
for which they came to the U.S., and it would also identify those few 
who failed to do so. SEVIS would:
  <bullet> Collect data from the ``source'' for each data element. For 
        example, schools should enter educational data, consular posts 
        and ports of entry should enter visa and port data 
        respectively, and INS (now DHS) should enter stateside 
        immigration actions related to the student or exchange visitor.
  <bullet> Provide information to all relevant administrative and law 
        enforcement agencies as appropriate for the need of that 
        agency.
  <bullet> Serve as and be recognized as evidence of status and lawful 
        activity for the students and exchange visitors listed in it.
  <bullet> Contribute significantly to national security by providing a 
        broad range of data on individual students and exchange 
        visitors and their host schools and institutions that could be 
        subjected to algorithms and statistical analysis. Such data 
        review could reveal fact patterns or anomalies on individuals 
        or groups that might need additional scrutiny or investigation. 
        This data, combined with information from other databases, 
        could help identify the few who might pose a threat to our 
        national security.
  <bullet> Facilitate the admission to the U.S. and lawful activities 
        in the U.S. of the many bona fide international students and 
        exchange visitors. Treat them as welcomed guests, and make 
        their visa application, admission to the U.S., and subsequent 
        travel easy and efficient.
    INS and the schools worked together toward a system that would use 
practical and logical means to manage data and to use that data not 
only to solve problems, but also to add value for all users. The 
practical applications included:
  <bullet> Issue a student and exchange visitor ID card, something like 
        the Border Crossing Card, that could be used by consular posts, 
        ports, and DHS offices to identify the individual and access 
        SEVIS data. This card would serve in place of the paper Form I-
        20 and Form DS-2019, both of which would be eliminated.
  <bullet> Give consular posts full access to SEVIS so that officers 
        would have all the information available on a visa applicant. 
        That information would, in some cases, not only include current 
        F or J student or scholar data, but also information on prior 
        stays in the U.S.
  <bullet> Establish SEVIS intake facilities at the major ports. Allow 
        students and exchange visitors to go to a special line or area 
        at the port to have their admissions processed by officers who 
        were familiar with SEVIS and with student and exchange visitor 
        issues. Make that process friendly and welcoming. Establish 
        automated processes that would allow the students or exchange 
        visitors to swipe their SEVIS ID cards and have their 
        biometrics and identification verified electronically. In this 
        way they would be treated more like frequent business travelers 
        who have similar services. This special recognition would 
        reinforce the fact that we value their contributions to the 
        U.S. In addition we would gain security by subjecting each 
        entry to biometrics verification and to verification that the 
        student or exchange visitor is currently considered by his/her 
        school or program to be in status and pursuing appropriate 
        activities. The airport in Atlanta tested and used some of 
        these components of admission as part of CIPRIS/SEVIS 
        development.
  <bullet> Connect employment authorization to the SEVIS ID card so 
        that the degree and research related employment already 
        provided for in the law and regulations could be authorized and 
        tracked via the card. It would document whether a student is 
        working on campus on an assistantship or working with an 
        outside employer in required degree related work (example: 
        field work for the Masters in Social Work). Employers would 
        have a secure document upon which to rely for employment 
        verification. The Social Security Administration would have 
        access to SEVIS for their purposes as well.
The SEVIS of Today
    By the year 2001 most of the initial development was completed, and 
the 21 schools were fully converted to the prototype CIPRIS system, INS 
was well into writing and testing the final, and more robust SEVIS 
software based on the CIPRIS model. INS was planning the transition to 
the new, full SEVIS system and was mapping out a structured, measured 
roll-out across the country.
    The attacks on 9/11 and the discovery that at least some, though by 
no means all of the perpetrators had, at some time, had student status, 
precipitated the urgent and immediate full implementation of SEVIS. 
Unfortunately, SEVIS was not ready for full implementation as it had 
been envisioned. What the schools and the nation got was essentially a 
scaled down beta test version. Both the schools and INS had to struggle 
to make it meet the demands placed on it. School international offices 
were literally in lock down mode for weeks as all staff members sat at 
computers putting in 20-hour days to manually enter massive amounts of 
data on hundreds of thousands of students and scholars. SEVIS, itself 
was full of yet to be discovered programming errors and unanticipated 
collateral ``features.'' INS employees were also ``sleeping in their 
offices'' to deal with cascading problems.
    Since that first launch SEVIS has been through many upgrades. 
Schools and DHS (legacy INS) have suffered and continue to suffer 
through arcane work arounds and jury rigged ``data deceptions'' to try 
to give the system accurate information in circumstances where the 
programming was not in place to take the data. DHS has worked 
cooperatively with schools and higher education organizations to 
identify and deal with problems. As with nurturing a premature baby, 
there was a lot of catching up to even approach the level performance 
from SEVIS that we would have expected had INS been allowed to develop 
it properly before launch.
    During 2003-2004 academic year, schools were fully integrated into 
SEVIS and other groups such as consular posts and the Social Security 
Administration have now come on-line, though some to only a limited 
degree. Consular posts are beginning to see data that is useful in 
their visa deliberations and ports of entry are beginning to trust the 
database more than the I-20 and DS-2019 forms presented by the student 
or scholar, which is exactly what should happen. A paper form is 
static, but the schools update the SEVIS database constantly as 
circumstances change for their students or scholars. Ports can now 
consult SEVIS regarding the admission. For example a port officer 
reviewing a student's SEVIS file can learn that the I-20 document that 
the student carries and the visa stamp in the passport, both of which 
appear to be valid, relate, in fact, to a SEVIS record that has been 
invalidated by the school because the student withdrew from school last 
semester. He is no longer a student and is no longer admissible to the 
U.S. in that status.
    Government agencies that have access to SEVIS need to use it to 
provide information on students and scholars. At the same time, they 
need to be informed about how to interpret what they see, and to 
contact schools and programs with questions before taking negative 
action based solely on SEVIS data. For example, a ``completed'' 
notation on a bachelor's program should not necessarily be interpreted 
as completion of SEVIS student or scholar status. It may mean only that 
the bachelor's has been completed and that the student is moving on to 
a higher degree.
SEVIS as a Tool to Serve International Education and the Nation
    SEVIS holds many data elements on students and scholars from many 
sources. The schools and other users provide ongoing updates. As 
mandated by Congress, SEVIS is or soon will be interoperable with many 
other agency and law enforcement databases. We need to continue to 
develop it and make it the tool it was envisioned to be, and we need to 
use that tool.
    Based on the current and future capabilities of SEVIS and related 
databases, and on the policy and procedure changes discussed elsewhere 
in this testimony, we can identify ways that SEVIS could serve to 
welcome students and scholars to the U.S. It could expedite their 
travel and return and inform the higher education community on trends 
in international education, while at the same time providing important 
security information to law enforcement.
  <bullet> Issue a SEVIS student and exchange visitor ID card, 
        something like the Border Crossing Card, that can be used by 
        consular posts, ports, and DHS offices to identify the 
        individual and access SEVIS data. Allow this card to serve in 
        place of the paper Form I-20 and DS-2019.
  <bullet> Use the SEVIS database and its ID card to manage the travel 
        of students and exchange visitors to the U.S., to monitor their 
        academic and related immigration activities while in the U.S., 
        and to allow them to leave and reenter the U.S. in an efficient 
        and timely manner.
  <bullet> Once the student obtains the initial visa stamp, have the ID 
        card serve as ongoing automatic revalidation of the visa stamp 
        while the student or exchange visitor is carried as active in 
        SEVIS. This would eliminate the need to apply for visa 
        extensions at consular posts without compromising security. 
        Remember that SEVIS holds various kinds of ID data that law 
        enforcement can use to run algorithms to search for fact 
        patterns or data clusters that might indicate security 
        concerns. If this infonnation is available 24/7 to law 
        enforcement, what purpose is served by filing a new visa 
        application at a consular post? Further, appropriate government 
        agencies would be immediately informed through the SEVIS system 
        when degrees have been completed or employment has ended, 
        signaling that the visa validation had also ended.
  <bullet> Use SEVIS and connected databases to record and examine 
        other immigration actions that an individual might take that 
        would indicate immigrant intent. Those actions could then be 
        the basis for review of ``intent to return'' rather than 
        requiring consular officers to examine the same unchanged 
        circumstances time after time in repeated visa applications. 
        DOS and DHS could deal directly with students and scholars thus 
        identified to determine if the visa should remain valid.
  <bullet> Allow schools, if they wish, to establish 24/7 contact 
        numbers for consular and port officers so that questions can be 
        addressed quickly and easily. Maintain these contact numbers in 
        the SEVIS database, making them easily accessible to government 
        users. During the mass transition to SEVIS, DHS-ICE asked 
        schools to establish such contacts, and, in our experience, it 
        worked beautifully.
  <bullet> Give schools and other organizations access to national 
        SEVIS data (numbers, not individuals). This was part of the 
        original SEVIS planning, but has been forgotten in the 
        aftermath of 9/11 and the subsequent focus on security 
        concerns. SEVIS should be used to enhance our security, but we 
        should also use it to inform the discussion on international 
        higher education. Consider the wealth of data available on 
        fields of study, countries of origin, levels of study, areas of 
        teaching and research, and so on that could be useful as 
        individual data elements, and a treasure for statistical 
        analysis of trends in international education and research. 
        Imagine the collaborative efforts that could emerge among U.S. 
        schools as they learn where certain concentrations of field 
        specific knowledge or relevant research lie.
  <bullet> Use SEVIS to populate the annual Open Doors census. Again, 
        this was part of the original SEVIS planning. Currently Open 
        Doors has only the data from schools that are willing to 
        respond to its survey. SEVIS could provide data on every 
        student or exchange visitor who holds ``F,'' ``M,'' or ``J'' 
        (students and exchange visitors) visa status.
  <bullet> Give students and scholars limited access to their own files 
        to see what their records show and to facilitate correction of 
        errors, if any, through their schools or through DHS. Control 
        access through the SEVIS number as an identifier. As with all 
        SEVIS users, the information to which they would have access 
        should be filtered to include only those elements appropriate 
        for their review.
The SEVIS Fee
    The fact of the SEVIS fee and its amount are, at this time, of much 
less concern than the way it will be collected and the way refunds and 
overpayments will be managed. Making the payment of the SEVIS fee a 
separate action creates one more procedural and time hurdle for the 
small ``summer months'' window in which a new student must apply for a 
visa. It also says, in a very identifiable way, ``We intend to charge 
you more and we want to make it difficult for you.'' Beyond the payment 
process are concerns regarding credits to proper accounts, refunds, and 
corrections for overpayment.
  <bullet> Incorporate the SEVIS fee into the visa application payment 
        so that the student or exchange visitor does not have to 
        coordinate payment of two separate fees. While the total cost 
        will be the same, making the process easier shows that we want 
        to make coming to the U.S. possible and reasonably achievable.
  <bullet> Refund the fee if no student or exchange visitor visa is 
        issued. While the visa application fee may be nonrefundable, 
        the SEVIS fee should only be charged for a true benefit. The 
        SEVIS fee benefit only occurs if the student or exchange 
        visitor is permitted to come to the U.S.
  <bullet> Refund duplicate fees to the party or parties that paid 
        them. Anyone can pay the fee for a student or scholar, which 
        means that the school or a friend in the U.S. could pay it. 
        This creates the very real potential for more than one person 
        or organization to attempt to pay the fee for the same student 
        or scholar. The fee should be paid by the first payment 
        received and refunds should be provided to all other payers.
                        what is really at stake?
    American citizen who has traveled internationally, even in short 
trips to Canada, Mexico, or the Caribbean, can tell you that people 
outside the U.S. see us differently than we see ourselves. We cannot 
control all of the press and propaganda machines of the world. Others 
will always speak for us and about us. Our only successful response 
will be a strong voice speaking up for ourselves, and we must speak to 
individuals.
    Most people here and abroad do not doubt that the U.S. media and 
entertainment industry has permeated most of the world with images of 
America that can make us proud or make us shudder with disgust. Those 
images go unmediated and unexplained into homes around the world. We 
cannot control how people receive and interpret those images.
    But international education is the ``real thing.'' It is an 
experience of America of the highest quality among friends, colleagues, 
and faculty that can challenge assumptions, obliterate stereotypes, 
embrace diversity, and empower minds to grow beyond the lessons of 
image and propaganda to the lessons and experiences of an open society. 
On our campuses and in our laboratories social argument meets community 
cooperation, political ``enemies'' find workable compromise, and the 
pure passion for knowledge fuels the relentless logic of science. The 
Center for Jewish Life provides meeting space for a discussion on 
religion and ethics in Islam, Christianity, and Judaism. A student from 
a country with a repressive government participates in her first 
political demonstration in support of a women's shelter and the shelter 
is saved. A young scientist is proud and amazed to be asked to ``take 
charge'' of a particular component of a research project even though he 
is a ``foreigner'' and not yet even 35 years old!
    People around the world want what we have to offer for a thousand 
different personal reasons, some of which they can't even identify 
themselves until after they arrive. Allow me to share a few human 
moments.
  <bullet> Duke sponsored a young man to do research in the J-1 
        exchange visitor status. His work went very well and he 
        published a paper as ``first author'' (an academic indication 
        that the research and the discoveries were primarily his). He 
        was asked to present the paper at a conference. He came into my 
        office to check his documents for travel, and in that 
        conversation said, ``At home I would never have been allowed to 
        do this. I would never be first author or present.'' I asked 
        why, assuming his answer would be no money or space for 
        research. Instead he explained, ``They maybe might have let me 
        do the research, but they never would have given me credit as 
        first author. In America you recognize people for what they do, 
        for their own work.'' Turns out in his own country he was the 
        wrong family, wrong social class, wrong color. By the time he 
        left the U.S. he had a publication record that would open doors 
        around the world. This happened before 9/11, and he was able to 
        do that presentation and return to the U.S. to complete his 
        project. Today he would probably be afraid to leave because he 
        couldn't get back.
  <bullet> In March of 2004 I spent three weeks in Egypt and Jordan as 
        a visitor. In that short time I met three very different people 
        for whom America was a distant but real place of learning and 
        opportunity.
    <bullet> A young middle school student showed me medals she had won 
            in international competitions in gymnastics and school 
            competitions in English language, literature, and poetry. 
            She was looking forward to applying to U.S. colleges in a 
            few years.
    <bullet> A man in his late forties spoke with pride about his son 
            who had gone to America to college and had come home to 
            build a very good life for himself and his family. His 
            grandchildren will see America as a place of generosity and 
            opportunity for a better life for those who are willing to 
            work hard and learn. They may apply to school here.
    <bullet> A young man of 16 or 17 talked about studying in America 
            someday. He had learned English and he kept up with the 
            global news and current events. Politics seemed to be his 
            passion. He said to me, ``Tell your president, Mr. Bush, 
            that Egyptians want peace but it must be fair. You tell 
            him, we want peace, but it must be fair.''
    This last comment is perhaps one of the most instructive, not for 
the political content, the discussion of which belongs in another 
venue, but because it tells us how very much we can gain if we support 
international education and solve these visa issues, and how much we 
can lose if we allow that support to languish. This young man's core 
assumption, not subject to doubt, was that any American could go back 
and talk to her government, could convey a message to her president. 
And he was right. Even more importantly, he spoke of fairness, of this 
very American characteristic of equal recognition, of doing the right 
thing, of rewarding merit. When we open the door through admitting 
students and inviting scholars, and then build a barricade across that 
open door with unreasonable and illogical visa processes, we are being 
profoundly unfair in a way that shouts ``Unwelcome!'' to each 
individual.
    The few with evil intent will always try to practice evil against 
us. No level of security can keep them out and keep us 100% safe. Our 
real security, our future, our success as a part of the global 
community, depends on the understanding and good will of our neighbors. 
It depends on that researcher of the ``wrong color'' making a 
difference in his part of the world in the way people think about him 
and about others. It depends on that young gymnast whose bilingual 
poetry may someday bring Arabic and English speakers to common 
understanding. It depends on that eager young man who, if he is allowed 
to realize his dreams in a U.S. college, may influence hundreds or 
thousands by sharing his experiences. It depends on all those who, if 
allowed to enter our universities and research facilities and to travel 
freely, will spread the message of democracy, not in speeches and 
political tracts, but in being what America lets them be, in showing 
others the confidence and success that comes from the American 
experience, in contributing their knowledge, their skills, and their 
understanding of America to the world.

    The Chairman. Thank you very much for that testimony, which 
is very thoughtful. It incorporates comments from the first 
panel and our questions, and concisely directs our attention to 
something about which I think there is consensus among the 
Senators here to tackle. We thank you.
    Dr. Goodman.

   STATEMENT OF ALLAN E. GOODMAN, PH.D., PRESIDENT AND CHIEF 
    EXECUTIVE OFFICER, INSTITUTE OF INTERNATIONAL EDUCATION

    Dr. Goodman. Thank you, Senator, for focusing the Senate 
and the country on this topic and for this committee's 
unwavering support for the Fulbright Educational Exchange 
Program. Without Fulbright, there would be a lot less 
international education for our country and others. We also 
appreciate your personal interest in the Ford International 
Fellowship Program which you helped launch with us a few years 
ago.
    I would like to briefly address just three questions: What 
do the numbers tell us about the past half century, what lies 
ahead for the next several years, and what strategic steps 
could we take to make a difference right now?
    In the appendix to my statement, I try to display in a set 
of facts, ``Fast Facts,'' that show what the past half century 
looks like. International education in America has grown in 
periods of sharp increases followed by plateaus. Lots of 
factors contribute to making that happen: turmoil in the 
countries that students are coming from, conflict on the 
international or regional scene, economic slowdowns, their 
policies and our policies, as well as competition.
    Sometimes our visa policies discourage students, and 
sometimes, as we heard this morning, a country like Taiwan has 
a policy which provides disincentives for their students to 
study here. In recent years, we have heard about disincentives 
in Malaysia, Saudi Arabia, and China.
    All of these factors are at work today. Recently, in India, 
the largest sending country, the Hindustan Times of New Delhi 
published a lead editorial. It suggested that, while America is 
the first choice for Indian students to study abroad and that 
visa regulations ``are a speed bump, not a red light,'' we face 
a lot of competition, especially from Australia and the United 
Kingdom, where Indian students are increasingly going. American 
higher education is described as exorbitantly expensive. In 
addition, Indians are less interested in the opportunity to 
stay behind after their education is complete because 
globalization is creating good jobs back at home.
    That diagnosis and these mix of factors is the reality that 
we face. We have also heard, and we agree, that there are 
instances of decline. We are now in a period of plateau. It 
will deeply affect major research institutions in America and 
therefore American science and technology, and it will affect 
some disciplines, particularly math and computer sciences, 
where we think we will show either a plateau or a decline.
    But what nobody can match is America's open doors and our 
capacity. We hear a lot about the organized campaigns in 
Australia and the United Kingdom to recruit students from 
elsewhere, but the 39 institutions of higher education in 
Australia and the 259 institutions of higher education in the 
United Kingdom simply do not have the capacity to take the 
students that our 4,000 colleges and universities do.
    Significantly, we currently have 600,000 foreign students 
in America. Half of them are enrolled at just 80 schools. So 
America has open doors, and it also has room to accommodate 
what I think will be tremendous growth after this plateau in 
the demand for higher education abroad.
    We could do three things now that would make a big 
difference. There is, with respect to SEVIS and the collection 
of the fee, a very strong pilot program on how you could 
harness the power of Western Union's quick pay system so that 
students everywhere could meet that financial obligation. If it 
works, it should be global.
    Secondly, in my statement I said that I hoped that our own 
Foreign Service Institute officers in the consular course would 
be taught more about the value of international education. I am 
happy to note that the Assistant Secretary for Consular 
Affairs, Mara Hardy, personally addresses every new foreign 
service class, the A-100 class, on the value of international 
education. If we could build that into the consular curriculum, 
it would further underscore the importance of this.
    As my colleagues have said, one thing we could do 
immediately that would ease the burden of the State Department 
and ease the anxiety of the students would be to grant visas 
for the entire course of their degree. That single step would 
assure that we have both open doors and the appropriate secure 
borders.
    We stand, America stands, for unparalleled international 
education opportunity. The students that are here now and the 
ones that are coming tomorrow and in the years ahead will win 
the Nobel Prizes of the future. They will cure cancer, discover 
a vaccine for HIV-AIDS, and become, as you noted at the 
beginning, Senator, leaders of countries on whom the success in 
all the wars we face--disease, poverty, and terrorism--will 
ultimately depend.
    Thank you.
    [The prepared statement of Dr. Goodman follows:]

 Prepared Statement of Allan E. Goodman, President and Chief Executive 
             Officer, Institute of International Education

    Mr. Chairman and Members of the Committee: I am Allan Goodman, 
President and Chief Executive Officer of the Institute of International 
Education. Thank you for providing me this opportunity to discuss an 
issue of critical import to the field of education. America needs a 
visa policy that supports and encourages international students to seek 
an education here in the United States and that keeps our borders 
secure.
    It is a particular honor to appear before the Senate Foreign 
Relations Committee, which was once chaired by Senator J. William 
Fulbright. He created the nation's flagship educational exchange 
program, which the Institute administers on behalf of the Department of 
State. Through the years, this committee has strongly endorsed the 
importance of all the programs funded under the Fulbright-Hays Act. 
They are the best investments the country can make towards a less 
dangerous world.

                 INTERNATIONAL EDUCATION BY THE NUMBERS

    The United States is the destination of choice for most foreign 
students seeking to study abroad. The education available at our 4,000 
accredited colleges and universities is recognized and envied around 
the world. While other countries are actively competing to increase 
their share of internationally mobile students, none match America's 
diversity and capacity. There are more seats in higher education in 
California, for example, than in all of China. Only nine countries in 
the entire world have more institutions of higher education than the 
states of California and New York. To retain our leadership position, 
however, it is vital that the U.S. continue to be recognized as a 
welcoming host to all those legitimately seeking education and training 
abroad.
    To assist the Committee in understanding trends in the flow of 
international students, as well as such things as their countries of 
origin, states where they are studying, fields of study and data about 
the international student market share, I am attaching ``Fast Facts: 
Open Doors 2003'' to these remarks. They demonstrate, in summary:
Total International Student Enrollment
  <bullet> In 2002/2003, there were 586,323 international students 
        studying in the U.S., which represents a 0.6% increase, 
        following the previous two years' 6.4% increases.
  <bullet> While the 0.6% increase is the smallest increase since 1995, 
        there have been periods of strong growth followed by periods of 
        slow growth throughout the history of the International Student 
        Census of the Open Doors Report on International Educational 
        Exchange.
Leading Places of Origin
  <bullet> International students from Asia, particularly from India, 
        China, and Korea, represent a growing concentration in 
        international student enrollments in U.S. higher education.
  <bullet> Students from the leading four places of origin (India, 
        China, Korea, Japan) comprise 40% of all international students 
        in the U.S.
Fields of Study
  <bullet> Nearly half of all international students in the U.S. are 
        studying in just three fields of study: business and 
        management, engineering, and math and computer sciences.
  <bullet> Business continues to be the top field of study, but 
        engineering has increased steadily, with a nearly 10% increase 
        from the previous year, reflecting substantial growth in Indian 
        and Chinese graduate student enrollments over the past five 
        years.
International Student Market Share
  <bullet> U.S. market share of international students has declined 
        since 1997; Australia and the United Kingdom are the biggest 
        competitor countries, and have formulated and articulated 
        national strategies for recruiting international students, 
        unlike the U.S.
  <bullet> International students are a large percentage of the overall 
        higher education enrollments in Australia and the United 
        Kingdom, but the international student total in those two 
        nations is not even half of the U.S. international student 
        total.
    The trends we have noted lead us to believe that there is a 
leveling off of foreign students seeking to study in the U.S. Based on 
early feedback from campuses we anticipate enrollments continuing to 
soften--and perhaps show slight declines overall. Individual campuses 
and academic disciplines may also show steep declines. Initial data 
indicates that enrollment in mathematics and computer sciences will be 
down this year. This will have a particularly serious effect for the 
country's major research universities.

                        THE INSTITUTE'S HISTORY

    IIE's commitment to this goal began in 1919, as America was turning 
inward after the devastation of World War I. IIE was created by Stephen 
P. Duggan, a distinguished professor of diplomatic history, and two 
Nobel Laureates, Elihu Root, who served in this body on your Committee 
on Expenditures in the Department of State, and Nicholas Murray Butler, 
the President of Columbia University, who believed that America needed 
to stay engaged in the world community and that international 
educational exchange could lead to a more peaceful future.
    Eighty years ago, the Institute led a national effort to insure 
that international students would not be turned away as America's doors 
were closing to many kinds of foreign immigrants. At that time, many 
students and scholars were being detained at Ellis Island because U.S. 
law classified them as immigrants subject to highly restrictive quotas, 
which had been imposed in 1917. The Institute took the position that 
academics were really temporary visitors and succeeded in having them 
so classified in 1921. The Institute then developed a standard 
application form for foreign students so they could be easily 
identified and processed by university officials as well as by U.S. 
consular officers, a process that led to creation of the non-immigrant 
``student visa''. We also published for many years a Guide Book for 
Foreign Students in the United States that explained U.S. immigration 
laws and advised students on these and other issues to be considered in 
planning for academic studies here.
    Throughout this period, we worked closely with Members of Congress 
and the Commissioners of what were then the Bureaus of Immigration and 
of Education, as well as with officials in the Department of State. We 
did this, as the first president of the Institute wrote, because ``our 
experience . . . justifies the belief that international good-will can 
hardly fail to result from the coming of the foreign student'' and that 
``upon them, to a great extent, may depend the attitude adopted by 
their countrymen towards our country.''
    Nothing has happened over the years to change this belief--or to 
make mutual understanding any less important. Indeed, our founders' 
concerns in 1919 seem even more urgent today, as we are again engaged 
in a national debate on the importance of keeping America's doors open 
to students, scholars, and other professionals coming here to pursue 
their educational goals.

                          HOW AMERICA BENEFITS

    With more than 50 years of experience in administering the 
Fulbright Program on behalf of the Department of State, we also know 
that educational exchange programs, and in particular, those under the 
Fulbright umbrella, are the best investment that America can make in 
reducing misunderstanding of our culture, our people and our policies. 
An educational experience in America pays dividends to our nation's 
public diplomacy over many years. More than 50 of the world leaders 
called by President Bush and Secretary Powell to join the coalition 
fighting terrorism studied in the United States or came to America 
early in their careers as part of the International Visitor Program 
which we also assist the Department of State in administering. The 
Department's special initiatives in the Middle East, North Africa and 
non-Arab Islamic countries have created opportunities for thousands 
more emerging leaders from those countries to have a positive 
experience in the U.S.
    There are other benefits to having foreign students on our 
campuses. I was a professor at the Georgetown University School of 
Foreign Service for 20 years before assuming my current position at the 
Institute. What I know from that experience is that, with foreign 
students in your class, you teach differently--and better. They come 
into the classroom with a very different worldview from American 
students. Raised in a different culture with a different history, they 
enrich the classroom discussion and share their global perspectives 
with American classmates, many of whom may never have the opportunity 
to study or travel abroad.
    According to IIE's data, published annually in Open Doors, less 
than 200,000 American students study abroad for credit each year, a 
tiny fraction of approximately 15 million enrolled in U.S. colleges and 
universities. For the vast majority who will never study abroad, 
academic dialog with foreign students on U.S. campuses may well be 
their only training opportunity before entering careers which will 
almost certainly be global, whether in business, government, academia, 
or the not-for-profit sector.
    Foreign students, especially in the sciences and engineering at the 
graduate level, often provide the necessary pool of teaching assistants 
needed to serve American undergraduate students, and to support faculty 
teaching and research at the leading U.S. universities. American 
students are simply not applying in sufficient numbers at the graduate 
level in these disciplines to support many of the fields in which 
America needs manpower and brainpower to sustain its academic edge and 
its groundbreaking research activities.
    In addition to their intellectual contributions to the U.S., 
international students make important financial contributions to their 
host institution and to the local communities in which they live during 
their stay. Each year, students from abroad bring some $12 billion into 
the U.S. economy, making educational exchange one of the leading 
American service export industries, according the U.S. Department of 
Commerce. About two-thirds of foreign students in the U.S. are 
supported primarily with personal funds from abroad; for many states, 
the tuition, fees and living expenses paid by international students 
exceed the revenues generated by professional football and basketball 
combined.

                   OPEN DOORS REQUIRE SECURE BORDERS

    Heated policy debate and extensive media coverage have focused on 
the need to eliminate the potential for abuse of student visas, while 
maintaining reasonable access for the many students who legitimately 
study here (and often become life-long friends, allies and trading 
partners for America when they return home.) We must balance these two 
goals in a way that insures that America remains the destination of 
choice for the best and brightest students from around the world.
    We support the fundamental steps taken to increase scrutiny of 
candidates who are applying for student visas and the computerized 
record keeping that tracks their academic progress while in the United 
States. These improved systems help increase the certainty that the 
nearly 600,000 foreign students in this country, plus some 150,000 
other international visitors and a like number of dependents, remain in 
legal visa status, fully engaged in the studies, research or other 
activities they came here to pursue. The success of the system relies 
on the professionalism of the nationwide network of foreign student 
advisors who work diligently and year-round to sort out the complex 
visa requirements as they affect each student's unique personal 
circumstances. While the new requirements have increased their workload 
and added substantial costs at the campus level, U.S. higher education 
has risen to the challenge and installed the new systems as quickly as 
required, working closely with the U.S. government to meet statutory 
deadlines.

                            OTHER OBSTACLES

    But there are still some obstacles to be overcome.
    The U.S. Department of State, through its embassies abroad, needs 
to communicate regularly and clearly the requirements and time 
constraints confronting international students applying for visas to 
study in the United States. The Department has already started posting 
such information on its website, which is very helpful to international 
students in their planning for the visa process, and a number of U.S. 
Ambassadors have issued very helpful statements to the local press 
about America's commitment to international education and our readiness 
to accept students from abroad.

                               SOLUTIONS

    And, as Secretary Powell has urged, and I could not agree more 
whole heartedly, U.S. Embassy staff must find ways to expedite the visa 
review process so that students are not still waiting for visa approval 
back home as their academic program begins here in America. Consular 
staff at each U.S. Embassy is thinly stretched by the new screening and 
interview requirements. They need to assure that their procedures 
facilitate the handling of visa applicants expeditiously and 
respectfully, despite heavy caseloads and increased screening 
requirements. This would send the most important signal that our doors 
are open to legitimate students from abroad. They need to project the 
impression that students from abroad are welcome in the U.S., in spite 
of the heavy workloads and the often-challenging review process that 
confronts legitimate students and scholars seeking to come here. 
Thankfully, my colleagues and I hear increasingly that State Department 
officers abroad are doing just that.
    Second. The Foreign Service Institute should review its consular 
training curriculum to assure that new officers are fully aware of the 
value of international educational exchange to America.
    Third. One way of reducing consular officers' workload would be to 
reduce the number of times U.S. officials must review the records of 
students and scholars already approved. Currently, students and 
scholars, especially those in important scientific and technical 
fields, face lengthy delays as they must reapply for visa approval each 
time they return home, even for short visits during holiday breaks. IIE 
and the entire higher education community urge that visa approval be 
awarded for their entire study period in the United States, freeing 
consular officers to spend more time on new applicants. And those 
already approved for U.S. study would not face unreasonable concern 
that their desire to attend an academic conference outside the United 
States, or go home to visit family or attend to personal business may 
jeopardize their ability to reenter the U.S. and complete their studies 
or research here.
    Fourth. The process by which the SEVIS fees are collected abroad 
also needs to be reviewed, so that students without home-country access 
to U.S. currency or credit cards are not excluded from access to U.S. 
higher education. There are some experiments being conducted in high 
volume countries such as China and India, which need to be evaluated 
and replicated quickly if they prove successful. If not, other means 
need to be devised to insure that students are not deterred from even 
applying to study by procedural or logistical hurdles.

                          ACCURATE INFORMATION

    The American public also needs better and less sensationalized 
information on the visa issue. Because of inaccurate media coverage, 
some still believe that most of the September 11 terrorists came to the 
U.S. on student visas, when in fact only one of the 19 was on such a 
visa, which had been fraudulently obtained and had already expired. 
Americans need to know about the rigorous screening process now in 
place through which foreign students are admitted to our colleges and 
universities, and awarded visa approval. They also need to be better 
informed about the benefits that international students bring to the 
local communities in which they are studying, to the campuses that 
enroll them, and to the vast majority of American students who will not 
themselves have a chance to study abroad. We urge this Committee to 
consider making its own annual statement on international education as 
a part of how America celebrates International Education Week, which 
this year is November 15th to 19th.
    We will do our part. The Institute's annual census of international 
student mobility, Open Doors, which we publish with the support of the 
Department of State's Bureau of Educational and Cultural Affairs, is 
shared with the widest possible circle of journalists and others 
writing about trends in higher education. Institute experts will 
continue to update this annual census with online surveys and periodic 
briefings and fact sheets to keep the public informed.

                               CONCLUSION

    U.S. leadership in support of international education remains 
central to the kind of world in which we are going to live. A few weeks 
after 9/11, I had a visit from the Director of the Ministry of 
Education and Research of Germany. We spoke at some length about the 
need to keep the educational doors of both of our countries as open as 
possible. After our discussion he wrote that ``We learnt from the 
United States how enriching it is to win the interest and support of 
the brightest minds from all over the world and we trust in your 
country to remain as open as it has been in the past. If you closed 
your borders . . . again you would set a model that others would follow 
all too soon.''
    The international educational opportunities that America stands for 
benefit our society and the world. In fact, 29 alumni of the Fulbright 
Program, as well as 15 other grantees of the Institute and four of our 
Trustees have won Nobel Prizes. They are listed in an attachment 
hereto. Some of the international students that are here today will win 
the Nobel prizes of the future. In the process, they may well cure 
cancer, discover a vaccine for HIV/AIDS, and become the leaders of the 
governments upon which ultimate success in all the wars we are 
fighting--against poverty, disease and terrorism--will depend.
    Mr. Chairman, I thank you for the opportunity to appear before you 
today. I would be happy to answer any questions you may have, and I 
look forward to working with you and your staff in the future as you 
address these important issues.
                                 ______
                                 

                      Fast Facts: Open Doors 2003

                   INTERNATIONAL STUDENTS IN THE U.S.

    Total international student enrollment. In 2002/2003, the number of 
international students in the U.S. increased slightly, after five years 
of stronger growth rates. Periods of sharp increases since 1954, 
followed by plateaus, can be seen in the line graph below.

 
----------------------------------------------------------------------------------------------------------------
                                                                        Annual %
                       Year                           Int'l students     change     Total enrollment    % Int'l
----------------------------------------------------------------------------------------------------------------
1954/55...........................................             34,232  ..........          2,499,800         1.4
1964/65...........................................             82,045         9.7          5,320,000         1.5
1974/75...........................................            154,580         2.3         10,321,500         1.5
1984/85...........................................            342,113         0.9         12,467,700         2.7
1994/95...........................................            452,653         0.6         14,554,016         3.1
1995/96...........................................            453,787         0.3         14,419,252         3.1
1996/97...........................................            457,984         0.9         14,286,478         3.1
1997/98...........................................            481,280         5.1        *13,294,221         3.6
1998/99...........................................            490,933         2.0         13,391,401         3.6
1999/00...........................................            514,723         4.8         13,584,998         3.8
2000/01...........................................            547,867         6.4         14,046,659         3.9
2001/02...........................................            582,996         6.4         13,511,149         4.3
2002/03...........................................            586,323         0.6       **12,853,627         4.6
----------------------------------------------------------------------------------------------------------------
*In 1997 the College Board changed its data collection process.
**College Board Annual Survey of Colleges data on U.S. higher education enrollment.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                 INTERNATIIONAL STUDENT TOTALS BY LEADING PLACES OF ORIGIN, 2001/02 AND 2002/03
----------------------------------------------------------------------------------------------------------------
                                                                                                   2002/03 % of
         Rank               Place of origin           2001/02         2002/03        2002/03 %      U.S. Int'l
                                                                                      change       student total
----------------------------------------------------------------------------------------------------------------
1....................  India....................          66,836          74,603            11.6            12.7
2....................  China....................          63,211          64,757             2.4            11.0
3....................  Korea, Republic of.......          49,046          51,519             5.0             8.8
4....................  Japan....................          46,810          45,960            -1.8             7.8
5....................  Taiwan...................          28,930          28,017            -3.2             4.8
6....................  Canada...................          26,514          26,513             0.0             4.5
7....................  Mexico...................          12,518          12,801             2.3             2.2
8....................  Turkey...................          12,091          11,601            -4.1             2.0
9....................  Indonesia................          11,614          10,432           -10.2             1.8
10...................  Thailand.................          11,606           9,982           -14.0             1.7
11...................  Germany..................           9,613           9,302            -3.2             1.6
12...................  Brazil...................           8,972           8,388            -6.5             1.4
13...................  United Kingdom...........           8,414           8,326            -1.0             1.4
14...................  Pakistan.................           8,644           8,123            -6.0             1.4
15...................  Hong Kong................           7,757           8,076             4.1             1.4
16...................  Kenya....................           7,097           7,862            10.8             1.3
17...................  Colombia.................           8,068           7,771            -3.7             1.3
18...................  France...................           7,401           7,223            -2.4             1.2
19...................  Malaysia.................           7,395           6,595           -10.8             1.1
20...................  Russia...................           6,643           6,238            -6.1             1.1
                                                 ---------------------------------------------------------------
                       World Total..............         582,996         586,323             0.6  ..............
----------------------------------------------------------------------------------------------------------------
International students from Asia, particularly from India, China, and Korea, represent a growing concentration
  in international student enrollments in U.S. higher education.
Students from the leading four places of origin comprise 40% of all international students.



          STATES WITH THE MOST INTERNATIONAL STUDENTS, 2002/03
------------------------------------------------------------------------
                                                         Total economic
      Rank          State/region      Total 2002/03         impact*
------------------------------------------------------------------------
1..............  California.......             80,487      1,770,287,737
2..............  New York.........             63,773      1,517,701,997
3..............  Texas............             45,672        794,899,274
4..............  Massachusetts....             30,039        889,694,728
5..............  Florida..........             27,270        593,210,485
6..............  Illinois.........             27,116        616,955,647
7..............  Pennsylvania.....             24,470        626,921,387
8..............  Michigan.........             22,873        430,803,636
9..............  Ohio.............             18,668        425,028,251
10.............  New Jersy........             13,644        322,840,177
11.............  Indiana..........             13,529        332,576,169
12.............  Virginia.........             12,875        250,753,835
13.............  Maryland.........             12,749        291,973,887
14.............  Georgia..........             12,267        248,059,190
15.............  Washington.......             11,430        244,498,296
------------------------------------------------------------------------
*Tuition, fees, and living expenses paid by internation students from
  personal and family sources of funds.


                         FIELDS OF STUDY OF INTERNATIONAL STUDENTS, 1998/1999 to 2002/03
----------------------------------------------------------------------------------------------------------------
                                      1998/99    1999/00    2000/01    2001/02    2002/03
           Field of study              Int'l      Int'l      Int'l      Int'l      Int'l       % of     % change
                                      students   students   students   students   students    total
----------------------------------------------------------------------------------------------------------------
Business & Management..............    102,083    103,215    106,043    114,885    114,777       19.6       -0.1
Engineering........................     72,956     76,748     83,186     88,181     96,545       16.5        9.5
Mathematics & Computer Sciences....     48,236     57,266     67,825     76,736     71,926       12.3       -6.3
Other*.............................     49,293     53,195     57,235     59,785     58,473       10.0       -2.2
Social Sciences....................     40,062     41,662     42,367     44,667     45,978        7.8        2.9
Physical & Life Sciences...........     37,055     37,420     38,396     41,417     43,549        7.4        5.1
Undeclared.........................     30,970     32,799     35,779     36,048     36,395        6.2        1.0
Fine & Applied Arts................     31,486     32,479     34,220     33,978     31,018        5.3       -8.7
Health Professions.................     20,260     21,625     22,430     24,037     28,120        4.8       17.0
Humanities.........................     16,295     16,686     16,123     18,367     19,153        3.3        4.3
Intensive English Language.........     21,030     21,015     23,011     21,237     17,620        3.0      -17.0
Education..........................     13,261     12,885     14,053     15,709     16,004        2.7        1.9
Agriculture........................      7,949      7,729      7,200      7,950      6,763        1.2      -14.9
                                    ----------------------------------------------------------------------------
      Total........................    490,933    514,723    547,867    582,996    586,323      100.0        0.6
----------------------------------------------------------------------------------------------------------------
*``Other'' mainly includes General Studies, Communications & Technologies, Law, and Multidisciplinary Studies.



                                    INTERNATIONAL STUDENT MOBILITY WORLDWIDE
 [International student market share of the leading three anglophone receiving countries: United States, United
                                               Kingdom, Australia]
----------------------------------------------------------------------------------------------------------------
                                                                              Australia   Australia   3 country
            Year              U.S. total    U.S. %    U.K. total    U.K. %      total         %         total
----------------------------------------------------------------------------------------------------------------
1997.......................      481,280       65.2      207,770       28.1       49,145        6.7      738,195
1998.......................      490,933       64.7      213,205       28.1       54,195        7.1      758,333
1999.......................      514,723       65.0      219,125       27.7       58,518        7.4      792,366
2000.......................      547,867       64.9      225,615       26.7       70,137        8.3      843,619
2001.......................      582,996       64.8      235,175       26.1       81,737        9.1      899,908
2002.......................      586,323       61.5      270,090       28.3       96,569       10.1      952,983
----------------------------------------------------------------------------------------------------------------
Sources:
U.S. data--Open Doors 2003 Repoort on International Educatiional Exchange.
U.K. data--British Council.
Australia data--Global Student Mobility 2025: Analysis of Future Labour Market Trends and the Demand for Higher
  Education.



     International Student Total and Percentage of Higher Education Enrollment in Other Major Host Countries
----------------------------------------------------------------------------------------------------------------
                                                                                           Higher
                  Country                                Year              Int'l total   education     % higher
                                                                                         enrollment   education
----------------------------------------------------------------------------------------------------------------
Canada....................................  Year End 2003................       61,303    1,032,167          5.9
France....................................  2003.........................      180,000    2,220,000          8.1
Germany...................................  Winter Term 2002/2003........      227,026    1,938,811         11.7
----------------------------------------------------------------------------------------------------------------
Source: IIE, Atlas of Student Mobility Project.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    These gifted men and women--and the next generation of 
international exchange students the Institute is currently 
identifying--are truly the hope of the world, working to serve mankind 
by conquering disease, advancing world peace, reducing poverty, 
preserving the environment, and creating a more just and prosperous 
global society.

------------------------------------------------------------------------
  Prize year          Name                                  Nobel Prize
------------------------------------------------------------------------
1904.........  Sir William Ramsay  IIE Visiting Lecturer,  Chemistry.
                                    UK to U.S., 1920s.
1912.........  Elihu Root........  IIE Founder...........  Peace.
1915.........  Sir William L.      IIE Visiting Lecturer,  Physics.
                Bragg.              UK to U.S., 1920s.
1921.........  Christian L. Lange  IIE Visiting Lecturer,  Peace.
                                    Norway to U.S., 1933.
1925.........  James Franck......  Emergency Committee     Physics.
                                    Scholar, Germany to
                                    U.S., 1930s.
1929.........  Thomas Mann.......  Emergency Committee     Literature.
                                    Scholar, Germany to
                                    U.S., 1930s.
1931.........  Nicholas Murray     IIE Founder and         Peace.
                Butler.             Trustee, 1919-1923.
1933.........  Sir Norman Angell.  IIE Visiting Lecturer,  Peace.
                                    UK to U.S., 1920s-
                                    1940s.
1937.........  Lord Edgar A.R.G.   IIE Visiting Lecturer,  Peace.
                Cecil.              UK to U.S., 1920s.
1947.........  Bernardo A.         IIE Fellow, Argentina   Medicine.
                Houssay.            to U.S., 1947-48.
1950.........  Ralph Bunche......  IIE Trustee, 1950-1970  Peace.
1952.........  Edward M. Purcell.  IIE Graduate Student,   Physics.
                                    to Germany, 1933-1934.
1952.........  Felix Bloch.......  Emergency Committee     Physics.
                                    Scholar, 1933;
                                    Fulbright, 1959.
1957.........  Chen Ning Yang....  Fulbright Scholar, to   Physics.
                                    Brazil, Egypt,
                                    Malaysia, 1974.
1958.........  Joshua Lederberg..  Fulbright Scholar, to   Medicine.
                                    Australia, 1957.
1959.........  Emilio Segre......  Fulbright Scholar, to   Physics.
                                    Italy, 1950.
1962.........  James D. Watson...  Fulbright Scholar, to   Medicine.
                                    Argentina, 1986.
1964.........  Charles H. Townes.  Fulbright Scholar, to   Physics.
                                    France and Japan,
                                    1955.
1966.........  Robert S. Mulliken  Fulbright Scholar, to   Chemistry.
                                    England, 1952-54.
1967.........  Hans Bethe........  Fulbright Scholar, to   Physics.
                                    UK, 1955.
1968.........  Lars Onsager......  Fulbright Scholar, to   Chemistry.
                                    England, 1951-52.
1969.........  Jan Tinbergen.....  IIE Advisor, Norway to  Economics.
                                    Pakistan, 1965.
1969.........  Max Delbruck......  Emergency Committee     Medicine.
                                    Scholar, Germany to
                                    U.S., 1930s.
1970.........  Hannes Alfven.....  Fulbright Scholar,      Physics.
                                    Sweden to U.S., 1954-
                                    55.
1970.........  Paul Samuelson....  Fulbright Scholar, to   Economics.
                                    Asia, 1972.
1973.........  Wassily Leontief..  Fulbright Scholar, to   Economics.
                                    France, 1961-62.
1973.........  Henry A. Kissinger  IIE Trustee, 1999.....  Peace.
1976.........  Milton Friedman...  Fulbright Scholar, to   Economics.
                                    UK, 1953-54.
1977.........  Philip W. Anderson  Fulbright Scholar, to   Physics.
                                    Japan, 1953-54.
1977.........  Rosalyn S. Yalow..  Fulbright Scholar, to   Medicine.
                                    Portugal.
1982.........  Bengt Samuelsson..  Fulbright Scholar,      Medicine.
                                    1961.
1983.........  William A. Fowler.  Fulbright Fellow, to    Physics.
                                    England, 1954-55.
1984.........  Carlo Rubbia......  Fulbright Fellow,       Physics.
                                    Italy to U.S., 1958-
                                    59.
1985.........  Franco Modigliani.  Fulbright Scholar, to   Economics.
                                    Italy, 1961-62.
1986.........  James M. Buchanan.  Fulbright Scholar, to   Economics.
                                    Italy, 1955; to UK,
                                    1961.
1986.........  Wole Soyinka......  IIE Travel Grantee,     Literature.
                                    Nigeria to U.S., 1968.
1987.........  Susumu Tonegawa...  Fulbright Fellow,       Medicine.
                                    Japan to U.S., 1963.
1989.........  Trygve Haavelmo...  Fulbright Scholar,      Economics.
                                    Norway to U.S., 1957-
                                    58.
1991.........  Simon Kuznets.....  IIE Advisor, U.S. to    Economics.
                                    Ethiopia and Korea,
                                    1971-72.
1991.........  Erwin Neher.......  Fulbright Fellow,       Medicine.
                                    Germany to U.S., 1966.
1993.........  Douglass C. North.  Fulbright Scholar, to   Economics.
                                    Uruguay.
1996.........  James A. Mirrlees.  IIE Consultant, UK to   Economics.
                                    Pakistan, 1966-68.
1998.........  Amartya Sen.......  IIE Visiting            Economics.
                                    Professor,
                                    Bangladesh, 1974-75.
2000.........  Alan G. MacDiarmid  Fulbright Fellow, New   Chemistry.
                                    Zealand to U.S., 1950.
2001.........  Joseph Stiglitz...  Fulbright Fellow, to    Economics.
                                    UK, 1969-70.
2001.........  George A. Akerlof.  Fulbright Scholar, to   Economics.
                                    India, 1967-68.
2002.........  Masatoshi Koshiba.  Fulbright Fellow,       Physics.
                                    Japan to U.S., 1953-
                                    55.
2002.........  Riccardo Giacconi.  Fulbright Fellow,       Physics.
                                    Italy to U.S., 1956-
                                    58.
------------------------------------------------------------------------

    The Chairman. Thank you very much, Dr. Goodman, and we 
thank likewise the Institute of International Education for the 
amazing tables of figures and statistics that you have 
submitted as a part of your testimony. They are very important 
in helping us to get the facts right so that we will understand 
the dimensions of the problem. We thank you very much.
    Dr. Goodman. Thank you, Senator.
    The Chairman. Ms. Johnson, may we have your testimony.

 STATEMENT OF MARLENE M. JOHNSON, EXECUTIVE DIRECTOR AND CHIEF 
    EXECUTIVE OFFICER, NAFSA: ASSOCIATION OF INTERNATIONAL 
                           EDUCATORS

    Ms. Johnson. Thank you, Mr. Chairman.
    I have three messages for the committee today. First, in 
the global age and even more in the age of global terror, 
international education and exchange are integral to our 
national security. Second, our immediate task is to create a 
timely, transparent and predictable visa process in which 
efforts are focused on those who require special screening, 
rather than being wasted on repetitive and redundant reviews of 
legitimate visitors. Third, our long-range challenge is to 
reestablish the reputation of the United States as the 
destination of choice for students who wish to pursue higher 
education outside their home countries.
    It is a particular honor to testify before the Committee on 
Foreign Relations. This is the birthplace of our educational 
exchange programs. As I come before you today, I am struck by 
the sense that we are back in 1948 again. At that time we 
confronted a new kind of war, the cold war, and we were just 
beginning a long process of learning how to fight it. In that 
year Congress had the wisdom and foresight to create the 
Fulbright program, the first of several exchange programs that 
have been fundamental to the ability of democratic values to 
prevail in the cold war.
    But today we are once again near the beginning of what 
promises to be a long process of learning how to wage 
effectively a new kind of war. This war, like the cold war, is 
fundamentally about competing ideas, competing values, and 
competing visions of society, governance, and human rights. As 
was the case of the cold war, we have the resources to win this 
new version of the war of ideas. One of them which is integral 
to success is educational exchange.
    Today, as before, this committee is called on to lead. 
Obviously, Mr. Chairman, under your leadership and that of 
Senator Biden, two true friends of international education, I 
know it is obvious that this committee is rising to that 
challenge and we thank you.
    We thank you also, Mr. Chairman, for your co-sponsorship in 
the last Congress of Senate Resolution 7 that was based on our 
policy paper, ``Toward an International Education Policy for 
the United States,'' which elaborates on the importance of 
international education for our national security. That report 
is in the packet of information that we sent ahead.
    I would also like to thank my colleague from Minnesota, 
Senator Coleman, for introducing the International Student and 
Scholar Access Act of 2004.
    Mr. Chairman, it is now recognized at the highest levels of 
government that America's strong interest in robust educational 
and scientific exchange is ill served by the visa system that 
is currently in place. We have had much excellent testimony 
already today about it. Secretary Powell has said recently, 
``We have put in place too many restrictions and now we have to 
start backing off.''
    In the prepared statement that I have left for you, I 
document the worrisome trends that we are experiencing in 
international student enrollments on our campuses. The 
presidents of the campuses talked about that earlier today. 
This is particularly troublesome at the graduate level. These 
are trends that contrast starkly with the rising international 
enrollments prior to 9-11.
    To reverse these trends, the beginning of wisdom is to 
understand that security versus exchange is a false dichotomy. 
Exchange is part of security, and it has been recognized as 
such by virtually every foreign policy leader in our country 
since World War II. The national security question is not how 
do you balance exchange versus security. It is rather, how do 
you maximize national security both by denying access to those 
who seek entry into our country in order to do harm to us and 
by facilitating access for those whose access to our country 
serves the national interest.
    Our recommendations for doing so are in your packets. They 
are under the title ``Promoting Secure Borders and Open 
Doors.'' * There are four things I just want to raise with you 
right now.
---------------------------------------------------------------------------
    * ``Promoting Secure Borders and Open Doors,'' presented during 
earlier testimony can be found on page 19.
---------------------------------------------------------------------------
    First, we need more effective policy guidance for consular 
officers, and this under the law must come from the Department 
of Homeland Security and the Department of State.
    Second, we need specific reforms, which we enumerate, that 
focus visa reviews on those who most require special attention 
and to liberate consular officials and those involved in inter-
agency clearance in Washington from the time-consuming 
repetitive and redundant reviews of legitimate visitors.
    Third, we need specific reforms, which we enumerate, to 
create timely, transparent, and predictable inter-agency 
reviews.
    Fourth, we need Congress to provide the resources for these 
officials to do the job that Congress requires.
    Mr. Chairman, we have the administration's attention and 
that is really good. But the administration needs to hear from 
this committee that these are priorities. It needs to be asked 
for progress reports. It needs to be asked when will this be 
done.
    Some years ago we were the unrivaled leading destination 
for international education. That is no longer the case. While 
we have been seen as unwelcoming for international students 
since 9-11, as others have mentioned, other countries have used 
this opportunity. We must act decisively now to restore our 
reputation as the destination of choice. It will take a 
national effort. We have outlined our recommendations for that 
in this report, which is also in your packet, ``In America's 
Interest: Welcoming International Students,'' which provides a 
road map.
    I welcome the opportunity to respond to your questions 
later.
    [The prepared statement of Ms. Johnson follows:]

 Prepared Statement of Marlene M. Johnson, Executive Director and CEO, 
             NAFSA: Association of International Educators

    Thank you, Mr. Chairman, for inviting me to testify on this topic, 
which is of paramount importance for success in the war on terror and 
for our country's leadership role in the world.
    NAFSA is the professional association of those who administer 
educational exchange programs at the postsecondary level. Our 9,000 
members are employed at some 3,500 institutions, principally colleges 
and universities, in the United States and abroad. Our mission is to 
promote and advance international education and exchange, and we 
support public policies that expand international education and 
exchange programs between the United States and other nations.
    I have three messages for the Committee today. First, in the global 
age--and even more in the age of global terror--international education 
and exchange are integral to the national security of the United 
States. Second, our immediate task is to create a timely, transparent, 
and predictable visa process in which efforts are focused on those who 
require special screening and are not wasted on repetitive and 
redundant reviews of legitimate visitors. Third, our long-range 
challenge is to re-establish the reputation of the United States as the 
destination of choice for students who wish to pursue their higher 
education outside their home countries--in business terms, to win back 
the loyalty of our customers.
    My testimony focuses on visa issues, which are our greatest 
problem, rather than on SEVIS, where the remaining issues are largely 
technical. I will only say for the record that NAFSA and DHS have 
worked in very close partnership to surmount the daunting challenge of 
implementing SEVIS in a crisis mode. It is a pleasure to be able to 
acknowledge publicly the enormous efforts that our members have made to 
bring SEVIS where it is today.
      international education in an age of globalism and terrorism
    It is a particular honor to testify before the Committee on Foreign 
Relations, the birthplace of our educational exchange programs. As I 
come before you today, I am struck by a sense that we are back in 1948 
again. At that time, we confronted a new kind of war, the cold war, and 
we were just beginning a long process of learning how to fight it. In 
that year, Congress had the wisdom and foresight to create the 
Fulbright program, the first of several exchange programs which, during 
the course of the cold war, were fundamental to the ability of 
democratic values to prevail in that conflict.
    Today, we are once again near the beginning of what promises to be 
a long process of learning how to wage effectively a new kind of war. 
That war, like the cold war, is fundamentally about competing ideas, 
competing values, and competing visions of society, governance, and 
human rights. As was the case with the cold war, we have the resources 
to win this new version of the war of ideas--and one of them, which is 
integral to success, is educational exchange. Today, as before, this 
Committee is called upon to lead. I know, Mr. Chairman, that under your 
leadership and that of Senator Biden--two true friends of international 
education--the Committee will again rise to the challenge.
    Our policy paper, ``Toward an International Education Policy for 
the United States,'' which we co-authored with the Alliance for 
International Educational and Cultural Exchange, elaborates on the 
importance of international education for our national security. It is 
in your packets. You, Mr. Chairman, joined Senator John Kerry in 2001 
in introducing a sense of the Senate resolution based on this paper, 
for which we are very grateful. S. Con. Res. 7 was adopted by the 
Senate by unanimous consent.
    I would also like to take this opportunity to compliment my 
colleague from Minnesota, Senator Coleman, for his leadership, and 
specifically for introducing the International Student and Scholar 
Access Act of 2004. This legislation speaks directly to the problems we 
face. It was our privilege to work with Senator Coleman in drafting 
that bill, and I would hope that a similar bill might be considered in 
the next Congress. We would be pleased to work with you on that, Mr. 
Chairman.
promoting secure borders and open doors: a national-interest-based visa 
                    policy for students and scholars
    In this context, the ability of legitimate international students 
and scholars to gain access to the United States is paramount. The 
beginning of wisdom on this matter is to understand that security 
versus exchange is a false dichotomy. Exchange is part of security, and 
has been recognized as such by virtually every foreign policy leader in 
this country since World War II. The national security question is not: 
How do you balance exchange versus security? It is: How do you maximize 
national security, both by denying access to those who seek entry into 
our country in order to harm us, and by facilitating access for those 
whose access to our country serves the national interest?
    I believe it is now recognized at the highest levels of government 
that America's strong interest in robust educational and scientific 
exchange is ill served by the visa system that is currently in place. 
As Secretary Powell has said, ``We have put in place too many 
restrictions, and now we have to start backing off on them.''
    These controls were put in place piecemeal since 9/11, in all good 
faith, to better protect our security. But in their totality, they are 
now hindering international student and scholar access to the United 
States to an extent that itself threatens our security. Our current 
visa system maximizes neither our safety nor our long-term national 
interests in scientific exchange and in educating successive 
generations of world leaders--interests that the United States has 
recognized for more than half a century.
    The trends are not good. In the academic year 2002-2003--the last 
year for which definitive data are available--international student 
enrollments in U.S. colleges and universities were essentially flat 
compared to the previous year, after many years of steady increases.
    A spot survey that we and our colleague associations conducted last 
fall suggested that international student enrollments in 2003-2004 may 
have begun to decline; more responding schools reported a decline in 
enrollments than reported an increase.
    Last February we surveyed international student applications to 
U.S. colleges and universities for this fall and found that, at the 
graduate level, they were down by an average of about 30 percent. This 
past summer, the Council of Graduate Schools found that admissions of 
international students to U.S. graduate schools were down, on the 
average, 18 percent compared to the year before. It is therefore 
predictable that our spot survey on international student enrollments 
for this fall, the results of which will be released next month, will 
be down, at least at the graduate level. Anecdotal evidence suggests 
that at some schools, the magnitude of the decline could be rather 
alarming.
    More than a year ago, NAFSA issued recommendations for fixing this 
problem in a way that would not compromise security--indeed, we believe 
they would enhance security. We updated and re-issued our 
recommendations last April. Subsequently, we joined 33 colleague 
associations, principally scientific associations, in making similar 
recommendations.
    NAFSA's recommendations, ``Promoting Secure Borders and Open 
Doors,'' are in your packets. If you look at the bullets on the second 
page, you will see that we think four things need to be done.
    First, State and DHS, who now share responsibility in this area, 
must get together on effective policy guidance for consular officials 
who make the day-to-day decisions. No such comprehensive visa policy 
guidance has been issued since 9/1l. In a policy vacuum, every control 
looks like a good one--and therein lies the source of the problem.
    Second, we must focus our efforts more effectively on those who 
require special screening. Today, far too many scarce human resources 
are wasted on routine reviews of low-risk visa applications. This 
particularly affects scientists, and people from Arab and Muslim 
countries; both of these populations are subjected indiscriminately to 
special reviews. Repetitive, redundant reviews, particularly of well 
known people, clog the system, frustrate applicants, and detract from 
our ability to focus our attention where it is really needed.
    Third, for those tens of thousands of visa applications--vastly 
more than before 9/11--that are sent to Washington for special security 
reviews, the process lacks appropriate time guidelines and 
transparency. Lately, the State Department has been making progress on 
speeding up clearances for scientists--the so-called ``MANTIS'' 
clearances. I remain concerned, however, about the so-called ``CONDOR'' 
clearances that Arab and Muslim males must go through. This process is 
very opaque; we have no good data on the CONDOR process. But our 
friends in the region tell us constantly of their extreme concern that 
we are cutting off access to an American education for a whole 
generation of future Middle Eastern leadership. Few things could be 
more short-sighted.
    Fourth, Congress must provide greater resources for the State 
Department to provide the increased scrutiny of visa applications that 
Congress demands.
    Mr. Chairman, we have gotten the administration's attention. Almost 
all of our recommendations are under consideration or being worked on 
at some level in our government. But the government moves slowly and 
with difficulty. It needs to hear from the Committee that these are 
priorities. It needs to be asked for progress reports. It needs to be 
asked, ``When will this be done?'' I urge the Committee to let the 
administration know it's interested. It will make a huge difference.
        in america's interest: welcoming international students
    Mr. Chairman, some years ago, the United States was unrivalled as 
the leading destination for international students. That is no longer 
the case. The last three years, in particular, have been tough on our 
image. I say that not to debate or complain about policy, but simply to 
state a fact that we have to deal with. Other countries, meanwhile, 
which were already implementing proactive international student 
recruitment strategies before 9/Il in an overt challenge to our 
leadership in international education, have had a field day recruiting 
since 9/11.
    International student enrollments at universities in the UK 
increased 23 percent from 2002 to 2003. The British Council, which 
promotes British higher education abroad, predicts that the UK could 
triple its international student enrollments by 2020.
    The number of international students at Canadian universities 
increased by more than 15 percent from 2002 to 2003. The number at 
Australian universities increased by more than 10 percent from 2003 to 
this year.
    In addition, as you may know, under the Bologna Declaration, all EC 
university students now have seamless access to higher education 
anywhere in the community. To make this work, the common language of 
instruction tends to be English. You can now study for a university 
degree in English in virtually any country in Europe--an unthinkable 
concept just a few years ago. This creates yet another center of 
competition--and an increasingly vigorous one--for the English-speaking 
international student market.
    All of that is fine. I'm delighted that international students are 
finding their way to high quality educations in these countries. But we 
need to be in the race. We, too, can attract international students to 
our country in significantly higher numbers. But to do that, we need to 
act decisively to restore our reputation as the destination of choice 
for international students. We have to win back the loyalty of our 
customers. It will take a national strategy to do this, and government, 
higher education, and the private sector will all have to do their 
part.
    We set forth such a long-term national strategy in the report of 
our task force on international student access, whose honorary chair 
was former Secretary of Defense William Perry. The report, entitled 
``In America's Interest: Welcoming International Students,'' is in your 
packets. Time does not permit me to go into that, but I urge you to 
read the report, Mr. Chairman, and to consider holding a hearing in the 
next Congress on a long-term strategy to attract international 
students.
    Mr. Chairman, thank you again for the opportunity to testify. I 
look forward to responding to questions.
                                 ______
                                 

    Toward an International Education Policy for the United States: 
      International Education in an Age of globalism and Terrorism

                                OVERVIEW

    In the decades following World War II, visionary leaders understood 
that the challenges of the cold war required that Americans be 
knowledgeable about the world and that future world leaders have 
opportunities for a U.S. education and for exposure to American values. 
International education and exchange programs were created to serve 
these dual objectives.
    On September 11, 2001, the challenges of global terrorism replaced 
those of the cold war as the central organizing concept of American 
foreign policy. An international threat of which Americans were largely 
ignorant proved capable on that day of doing more serious damage to the 
homeland than any foreign power had managed to inflict since the War of 
1812. Nothing could have awakened us more dramatically to the 
continuing necessity of international knowledge and understanding.
    September 11 sealed the case; on that date, international education 
became, beyond question, a national security imperative. It is now 
clearer than ever that the end of the cold war did not mean an end to 
international, civil, and ethnic conflict. The defense of U.S. 
interests and the effective management of global unrest in the twenty-
first century will require more, not less, ability on the part of 
Americans to understand the world in terms other than their own. Yet 
today, the nation's commitment to international education is in doubt.
    These post-September 11 security concerns, despite their gravity 
and immediacy, should not cause us to forget the other enduring factors 
that make international education a necessity. Globalization is 
obliterating the distinction between foreign and domestic concerns. 
Most domestic problems in today's world are also international. The 
global economic and technology revolutions are redefining the nation's 
economic security and reshaping business, life, and work. The opening 
of global markets, the explosion of trade, the globalizing effects of 
Internet technology, and the need for U.S. businesses to compete in 
countries around the world require much more global content in all U.S. 
education.
    The world is coming to us, whether we like it or not--and was doing 
so in fundamental ways even before foreign terrorists attacked us on 
September 11. Immigrants are changing the face of American society. 
Foreign-born experts pace America's scientific leadership; indeed, U.S. 
scientific leadership rests so much on international expertise that the 
U.S. research community is now deeply worried about the effects of 
post-September 11 immigration controls on scientific exchange. The 
American workforce is now multicultural, and customers for American 
products are found everywhere the Internet goes.
    These realities help fuel U.S. development--but they also create 
new needs, both for managers who can think globally and for tolerance 
and cross-cultural sensitivity in our neighborhoods and workplaces.
    In short, international and cross-cultural awareness and 
understanding on the part of U.S. citizens will be crucial to effective 
U.S. leadership, competitiveness, prosperity, and national security in 
this century. Yet--all the laws on the books notwithstanding--the 
United States effectively lacks a coherent, clearly articulated, 
proactive policy for imparting effective global literacy to our people 
as an integral part of their education and for reaching out to future 
foreign leaders through education and exchange.
    This situation, problematic before September 11, now constitutes a 
clear and present danger. We no longer have the option of getting along 
without the expertise that we need to understand and conduct our 
relations with the world. We do not have the option of not knowing our 
enemies--of understanding the world where terrorism originates and 
speaking its languages. We do not have the option of not knowing our 
friends--of understanding how to forge and sustain international 
relationships that will enhance U.S. leadership and help our values 
prevail. We do not have the option of not increasing--dramatically--the 
ability of the world's citizens to understand America, and of Americans 
to understand the world, through exchange relationships.
    What is needed is a policy that promotes the internationalization 
of learning in the broadest sense, including supporting the learning of 
foreign languages and knowledge of other cultures by Americans, 
promoting study abroad by U.S. students, encouraging students from 
other countries to study in the United States, facilitating the 
exchange of scholars and of citizens at all levels of society, and 
enhancing the educational infrastructure through which we produce 
international competence and research.
    We issue this updated policy statement in an effort to renew the 
momentum created when the statement was first released in November 
1999. The Clinton administration made a start with its April 19, 2000, 
Executive Memorandum instructing federal agencies to take certain steps 
to promote and facilitate international education--the first such 
memorandum ever. Presidents Clinton and Bush have both proclaimed 
International Education Week in November of every year since 2000. In 
2001, the Senate unanimously passed Senate Concurrent Resolution 7, 
expressing the sense of Congress that the United States should 
establish an international education policy. Now is the time to take 
the effort to the next level. We call upon the administration to renew 
and strengthen the U.S. commitment to international education.

             ELEMENTS OF AN INTERNATIONAL EDUCATION POLICY

    An international education policy that effectively promotes U.S. 
interests in the twenty-first century should do the following:
Bolster International, Foreign Language, and Area Expertise
    Globalization and the war on terror expand the nation's need for 
international competence. To maintain U.S. security, well being, and 
global economic leadership, we need to increase the depth and variety 
of international expertise of Americans in government, business, 
education, the media, and other fields. Although the Internet 
dramatically increases opportunities for global collaboration, 
technology alone cannot substitute for the expertise developed through 
serious study and substantive international experience.
    As the streamers across the bottom of our television screens in the 
days following the terrorist attacks--asking speakers of Arabic, Farsi 
and Pashto to come forward--dramatically demonstrated, American foreign 
language skills are in critically short supply. They will remain so 
until we take bold steps to enhance the infrastructure for teaching 
foreign languages at all levels of education. The U.S. government alone 
requires 34,000 employees with foreign language skills, and American 
business increasingly needs internationally and multi-culturally 
experienced employees to compete in a global economy and to manage a 
culturally diverse workforce.
    An international education policy should:
  <bullet> Set an objective that international education become an 
        integral component of U.S. undergraduate education, with every 
        college graduate achieving proficiency in a foreign language 
        and attaining a basic understanding of at least one world area 
        by 2015. New technologies should be employed creatively to help 
        achieve this objective.
  <bullet> Promote cultural and foreign language study in primary and 
        secondary education so that entering college students will have 
        increased proficiency in these areas.
  <bullet> Through graduate and professional training and research, 
        enhance the nation's capacity to produce the international, 
        regional, international business, and foreign-language 
        expertise necessary for U.S. global leadership and security.
  <bullet> Encourage international institutional partnerships that will 
        facilitate internationalized curricula, collaborative research, 
        and faculty and student mobility.
Welcome International Students
    The millions of people who have studied in the United States over 
the years constitute a remarkable reservoir of goodwill for our 
country, perhaps our most underrated foreign policy asset. To educate 
international students is to have an opportunity to shape the future 
leaders who will guide the political and economic development of their 
countries. Such students gain an in-depth exposure to American values 
and to our successful multicultural democracy, and they take those 
values back home to support democracy and market economies. 
International students contribute significantly to national, state, and 
local economies and to the financial health of their schools: The 
583,000 who studied in the United States at the postsecondary level in 
the academic year 2001-2002, along with their dependents, spent nearly 
$12 billion on tuition, fees, and living expenses, making international 
education the fifth-largest U.S. service sector export.
    This resource is now at risk. For a generation, the United States 
could take for granted its position as the destination of choice for 
international students. This is no longer the case, because the United 
States has failed to recognize and respond to the increasing 
competitiveness of the international student market. For lack of a 
proactive policy for attracting such students and facilitating their 
access to this country, the United States risks losing its market 
dominance to the United Kingdom, Canada, Australia, New Zealand, and 
other countries that have launched aggressive recruitment strategies. 
Indeed, the U.S. share of the international student market fell nearly 
ten percentage points from 1982 to 1995, the last year for which data 
are available. If current practices continue, a further significant 
decline is inevitable.
    The situation has become dire since September 11. The institution 
of harmful measures--including an unpredictable visa process 
characterized by increasing delays and denials, an unreliable student 
monitoring system still unable to perform effectively, and high-profile 
detentions of international students and exchange visitors--seriously 
threatens the attractiveness and accessibility of U.S. higher education 
for international students. These policies are disproportionately 
impacting students from those countries with which stronger ties of 
international understanding are most needed--the Arab and Muslim world. 
The long-term effects on U.S. national security of severing our 
exchange relationships with this part of the world and shutting down 
access for Arab and Muslim students will be profound.
    An international education policy should:
  <bullet> Outline a comprehensive strategy to enhance the ability of 
        legitimate international students to pursue higher education 
        opportunities in the United States
  <bullet> Ensure that the United States attracts and provides 
        opportunities for students from strategically important regions 
        of the world to study in the United States, including those 
        from predominantly Muslim and Arab countries.
  <bullet> Facilitate entry into the United States for bona fide short-
        term and degree students, treat those who observe the terms of 
        their visas as valued visitors while they are here, and adopt 
        training and employment policies and regulations that enable 
        students to maximize their exposure to American society and 
        culture through internships and employment.
  <bullet> Promote the study of English by international students in 
        the United States, and promote the United States as the best 
        provider of English training services and materials.
Encourage Study Abroad
    The good news is that the number of U.S. students studying abroad 
for credit doubled in the past decade, to more than 150,000 in 2000-
2001, according to the Institute of International Education. The bad 
news is that this number represents about one percent of enrollment. 
Clearly, most college students still do not study abroad, and many lack 
access to study abroad programs through their institutions.
    This situation is no longer acceptable at a time when it is more 
important than ever for Americans to understand the world in which they 
live. We must not only increase vastly the numbers of U.S. students 
studying abroad, but also to increase the proportion studying in non-
European areas of growing importance to U.S. interests, in academic and 
professional fields outside the liberal arts, and in languages other 
than English. We must also enhance the study abroad experience by 
incorporating out-of-the-classroom experiences that bring students into 
closer and broader contact with host-country people and culture.
    If American students are to be able to function effectively in the 
world into which they will graduate, it must become the routine--not 
the exception--for them to study abroad in high quality programs. For 
that to happen, the United States requires a policy to promote global 
learning, which recognizes that providing Americans with opportunities 
to acquire the skills, attitudes, and perceptions that allow them to be 
globally and cross-culturally competent is central to U.S. security and 
economic interests in the twenty-first century.
    An international education policy should:
  <bullet> Set an objective that 20 percent of American students 
        receiving college degrees will have studied abroad for credit 
        by 2010, and 50 percent by 2040.
  <bullet> Promote ethnic, socioeconomic, and gender diversity in study 
        abroad.
  <bullet> Promote the diversification of the study abroad experience, 
        including: increased study in nontraditional locations outside 
        the United Kingdom and Western Europe; increased study of major 
        world languages--such as Arabic, Chinese, Japanese, Portuguese, 
        and Russian--that are less commonly learned by Americans; and 
        increased study abroad in underrepresented subjects such as 
        mathematical and physical sciences and business.
  <bullet> Promote the integration of study abroad into the higher-
        education curriculum, and increase opportunities for 
        international internships and service learning.
Strengthen Citizen and Scholarly Exchange Program
    The United States benefits from a great wealth of exchange 
programs, some federally funded but many more funded privately. They 
operate at all levels, from high school to higher education to the 
business and professional realms. Armies of American volunteers make 
these programs possible, hosting visitors in their homes and serving as 
resources and guides to their communities. Exchange programs uniquely 
engage our citizenry in the pursuit of our country's global interests, 
and offer opportunities for substantive interaction in the broadest 
possible range of fields.
    These exchanges also offer unparalleled opportunities for 
intercultural learning. Many of today's world leaders first experienced 
America and its values through exchange programs. But these valuable 
programs are hemmed in by diminished policy priority and by a federal 
regulatory regime that has lacked consistency and predictability. In 
addition, exchange program participants have suffered from the same 
visa and monitoring problems as have foreign students.
    An international education policy should:
  <bullet> Invigorate federal programs and reform regulations governing 
        private efforts in order to dramatically strengthen citizen, 
        professional, and other exchanges that bring future leaders 
        from around the world to the United States for substantive 
        exposure to our society, and that give future American leaders 
        opportunities for similar experiences overseas.
  <bullet> Promote the international exchange of scholars in order to 
        enhance the global literacy of U.S. scholars, ensure that the 
        United States builds relationships with the best scholarly 
        talent from abroad, and improve the international content of 
        American curricula.
  <bullet> Ensure that exchanges with strategically important regions 
        of the world--such as predominantly Arab and Muslim nations--
        receive adequate priority.
Mobilize the Resources
    The federal government cannot do it all. Colleges, universities, 
and community colleges must further internationalize their curricula 
and campuses, and must provide enhanced global opportunities for 
students and faculty. Higher education institutions, state governments, 
private foundations, nongovernmental organizations, and the business 
community (which will be the primary beneficiary of a globally literate 
workforce) all need to accept their responsibilities, increase their 
support for international education, and forge creative partnerships to 
achieve these important national goals. But the federal role is crucial 
in setting a policy direction, creating a conceptual understanding 
within which members of the public can define their roles, and using 
federal resources to leverage action at other levels.
    An international education policy should:
  <bullet> Clearly articulate the national interest in international 
        education and set a strong policy direction to which citizens 
        can relate their own efforts.
  <bullet> Dedicate federal resources that are appropriate for the 
        national interests served.
  <bullet> Stimulate involvement by, and leverage funding from, the 
        states and the higher education, business, and charitable 
        communities.

                            A CALL TO ACTION

    To be an educated citizen today is to be able to see the world 
through others' eyes and to understand the international dimensions of 
the problems we confront as a nation--skills that are enhanced by 
international experience. The programs we put in place today to make 
international experience integral to higher education will determine if 
our society will have a globally literate citizenry prepared to respond 
to the demands of the twenty-first century and an age of global 
terrorism.
    We call on the President to:
  <bullet> Announce the international education policy in a major 
        address, decision memorandum, or message to Congress, and 
        propose appropriate funding.
  <bullet> Appoint a senior White House official who will be in charge 
        of the policy and responsible for meeting its targets.
  <bullet> Convene a White House summit of college and university 
        presidents, other academic leaders, international education 
        professionals, and NGO and business leaders to map out the 
        specifics of the policy.
  <bullet> Assign specific roles to appropriate federal agencies.
  <bullet> Create an interagency working group of these agencies, 
        chaired by the senior White House official, to ensure that 
        policies and regulations affecting international education are 
        consistent and coherent.
  <bullet> Create an advisory commission consisting of business 
        leaders, state-level officials, and international education 
        professionals from institutions of higher education, exchange 
        programs, foundations, and appropriate professional 
        associations to offer advice and guidance on program 
        implementation.
                                 ______
                                 

In America's Interest: Welcoming International Students--Report of the 
          Strategic Task Force on International Student Access

                           EXECUTIVE SUMMARY

    At a time when efforts to counter the global threat of terrorism 
have highlighted the importance of building ties and friendships around 
the world, the United States needs a comprehensive strategy to enhance 
the ability of legitimate international students to pursue educational 
opportunities here. Such is the conclusion of a task force established 
by NAFSA: Association of International Educators to examine the issue 
of international student access to higher education in the United 
States.
    In its report, ``In America's Interest: Welcoming International 
Students,'' the Strategic Task Force on International Student Access 
identifies the major barriers to the ability of prospective 
international students to access U.S. higher education, and sets forth 
a strategic plan to address each of them.
The Continuing Importance of International Students
    The task force report affirms that openness to international 
students serves long-standing and important U.S. foreign policy, 
educational, and economic interests. The terrorist attacks of September 
11, 2001, presented new challenges for screening visa applicants more 
carefully to keep out those who wish us harm. At the same time, the 
terrorist threat also highlights the importance of building friends and 
allies across the world to better counter such global threats. The task 
force report therefore restates the case for encouraging and enabling 
legitimate international students to study in the United States. The 
task force believes strongly that international education is part of 
the solution to terrorism, not part of the problem.
Barriers to International Student Access
    The U.S. position as the leading destination for international 
students has been eroding for years in the absence of a comprehensive 
national strategy for promoting international student access to U.S. 
higher education. In this strategic vacuum, four barriers, which impede 
access, remain unaddressed. The principal barriers are (1) the failure 
of the relevant U.S. government agencies to make international student 
recruitment a priority and to coordinate their recruitment efforts, and 
(2) burdensome U.S. government visa and student-tracking regulations. 
Lesser barriers are (3) the cost of U.S. higher education, and (4) the 
complexity of the U.S. higher education system.
A Strategic Approach to Promoting International Student Access
    The task force recommends that the U.S. government, in consultation 
with the higher education community and other concerned constituencies, 
develop a strategic plan for promoting U.S. higher education to 
international students, based on a national policy that articulates why 
international student access is important to the national interest. In 
the context of such a strategic plan, the task force makes the 
following recommendations for addressing each of the four barriers to 
international student access cited above.
A Comprehensive Recruitment Strategy
    A recruitment strategy must be developed that specifies the roles 
of the three federal agencies that share responsibility for 
international student recruitment--the Departments of State, Commerce, 
and Education--and provides for coordination of their efforts. Such a 
strategy must rationalize and create an effective mandate for the State 
Department's overseas educational advising centers, resolve issues of 
responsibility and coordination in the Commerce Department, and provide 
a clear mandate for the Department of Education.
Removing Excessive Governmentally Imposed Barriers
    Three broad actions are required to remove governmentally imposed 
barriers that unnecessarily impede international student access to U.S. 
higher education. First, immigration laws affecting international 
students must be updated to reflect twenty-first century realities, 
particularly by replacing the unworkable ``intending immigrant'' test 
set forth in section 214(b) of the Immigration and Nationality Act with 
a standard that focuses on whether or not the applicant is a legitimate 
student. Second, a visa-screening system is needed which permits 
necessary scrutiny of visa applicants leading to decisions within 
reasonable and predictable periods of time. Third, the administration 
must strive to implement the congressionally-mandated student 
monitoring system in a way that maintains the attractiveness of the 
United States as a destination for international students without 
sacrificing national security.
Addressing Issues of Cost
    Issues of cost must be addressed through innovative and expanded 
loan, tuition exchange, and scholarship programs for international 
students. Scholarship assistance, through the Agency for International 
Development, should be directed at countries or regions--such as 
Africa--where the United States has a strong foreign policy interest in 
providing higher education opportunities but where the cost of a U.S. 
higher education is an insurmountable barrier. A financial aid 
information clearinghouse should be developed to help international 
students understand the options available to them.
Addressing Complexity With a Marketing Plan
    A marketing plan should be developed that sends a clear, consistent 
message about U.S. higher education and that transforms the complexity 
of the U.S. higher education system from a liability to an asset. A 
user-friendly, comprehensive, sophisticated, Web-based information 
resource is needed, through which international students will be able 
to understand the multiple higher education options available to them 
in the United States.
Conclusion
    Rather than retreating from our support for international student 
exchange--and forgoing its contribution to our national strength and 
well being--we must redouble our efforts to provide foreign student 
access to U.S. higher education while maintaining security. The task 
force calls on the U.S. government, academe, the business community, 
and all who care about our nation's future to step up to the task of 
ensuring that we continue to renew the priceless resource of 
international educational exchange.

              INTRODUCTION: THE AFTERMATH OF SEPTEMBER 11

    The increased awareness of international issues to which the 
secretary-general referred in his Nobel Peace Prize acceptance speech 
has placed special emphasis on the work of this task force, which was 
formed before September 11, 2001. Our mandate is to identify barriers 
to international student access to U.S. higher education and to 
recommend measures to address those barriers.
    For at least the second half of the twentieth century, it was an 
unquestioned verity of U.S. foreign policy that programs to promote 
international understanding advanced the national interest. It was 
almost universally accepted that educating successive generations of 
world leaders in the United States constituted an indispensable 
investment in America's international leadership.
    After September 11, 2001, these assumptions are being questioned to 
an unprecedented degree. Those who have recently argued against 
international exchange programs seem to see today's United States of 
America as a country so vulnerable in the face of the terrorist threat 
that it has no option but to close its borders. They have portrayed the 
U.S. consular officer corps as an inadequately trained group that 
unselectively hands out visas as a way to curry favor with foreign 
governments. From their perspective, programs that have for generations 
educated the people who now lead many countries of the world are 
suddenly nothing more than avenues for fraudulent entry into the United 
States. Their views, asserted persistently since September 11, seek to 
persuade Americans to lead from their insecurities and fears, rather 
than from their strengths and hopes. This is not the America we see. 
Nor, in our opinion, is it the nation that most Americans know.
    Without question, September 11 was a wake-up call that changed many 
of the security imperatives of our country. Like all Americans, we and 
our colleagues in higher education mourn the thousands of lives lost on 
that terrible day, grieve for their families, and are determined that 
it shall not happen again. But in our horror of those tragic events, it 
is important not to draw self-defeating lessons. The United States had 
a strategic need to act to enhance international student access to U.S. 
higher education before September 11. The need is only stronger now.
    We cannot know what the future holds, but we do know one thing: 
There will be other crises. When the next generation's crises occur, 
and the United States needs friends and allies to confront them, we 
will look to the world leaders of that time who are being educated in 
our country today. If we act out of fear and insecurity, rather than 
confidence and strength, we risk making the future worse, not better, 
for our country and our world.
    Continued--indeed, enhanced--U.S. openness to international 
students is integral to America's security in today's world. 
International student exchanges are part of the solution to terrorism, 
not part of the problem. In the pages that follow, we propose bold 
initiatives to increase international student access to U.S. higher 
education. We commend our recommendations to all who are not content to 
lead from fear, and who dare to hope for a better, more secure future.

         THE CONTINUING CALL FOR INTERNATIONAL STUDENT EXCHANGE

    Forward-looking leaders have called time and again for continued 
international educational exchange as an important part of a strong 
response to terrorism. Nine weeks after September 11, 2001, President 
George W. Bush said:

          . . . We must also reaffirm our commitment to promote 
        educational opportunities that enable American students to 
        study abroad, and to encourage international students to take 
        part in our educational system. By studying foreign cultures 
        and languages and living abroad, we gain a better understanding 
        of the many similarities that we share, and learn to respect 
        our differences. The relationships that are formed between 
        individuals from different countries, as part of international 
        education programs and exchanges, can also foster goodwill that 
        develops into vibrant, mutually beneficial partnerships among 
        nations.
          America's leadership and national security rest on our 
        commitment to educate and prepare our youth for active 
        engagement in the international community. . . .''

    On February 27, 2002, Secretary of State Colin Powell reaffirmed 
the State Department's support for foreign students:

          The Department's policy on student visas is based on the 
        democratic values of an open society and the perception that 
        foreign students make an important contribution to our nation's 
        intellectual and academic climate, as well as to our nation's 
        economy. We must continue to nurture these vital relationships 
        even as we improve the security of our borders.
          . . . American values, including democracy, economic freedom, 
        and individual rights, draw students from many nations. As 
        these students and scholars from other countries gain from our 
        society and academic institutions, they also serve as resources 
        for our campuses and communities, helping our citizens to 
        develop the international understanding needed to strengthen 
        our long-term national security and enhance our economic 
        competitiveness. The professional partnerships and lifelong 
        friendships that are created through international education 
        are important for a secure, prosperous future, not only for our 
        own country but also for the world as a whole.

    The New York Times, in a September 24, 2002, editorial, suggested 
that our efforts to spread our influence and understanding of our 
culture should be stepped up, not abandoned. Cautioning that government 
policies must not impede legitimate exchange, the editorial said, 
``Higher education is one of the best methods we have of spreading the 
word about who we are and of exposing our citizens to non-Americans. 
Bringing foreign students onto our campuses is among the best favors we 
can do ourselves.''
    This task force enthusiastically agrees that we must engage this 
world without walls, this indivisible humanity. We must learn to 
understand our similarities and respect our differences. We must 
continue to nurture our greatest foreign policy asset: the friendship 
of those who know our country because we have welcomed them as 
students. That is the counsel of strength and hope, which we believe 
Americans, with their innate common sense, understand intuitively.

                  BENEFITS THAT FAR OUTWEIGH THE RISKS

    Why do we care if international students choose U.S. colleges and 
universities to pursue their education and to improve their English 
language skills? The case has been articulated many times, but 
September 11 made us forget it. It is, therefore, worth restating the 
ways in which openness to international students continues to serve the 
fundamental interests of U.S. foreign policy, our economy, and our 
educational system--even more so in an age of global terrorism.
Foreign Policy Benefits
    Secretary Powell has spoken eloquently of the foreign policy 
benefits that accrue to the United States from being the destination of 
choice for the world's internationally mobile students and, especially, 
from educating successive generations of world leaders. By hosting 
international students, we generate an appreciation of American 
political values and institutions, and we lay the foundation for 
constructive relations based on mutual understanding and goodwill. The 
ties formed at school between future American and future foreign 
leaders have facilitated innumerable foreign policy relationships. The 
millions of people who have studied in the United States over the years 
constitute a remarkable reservoir of goodwill for our country perhaps 
our most undervalued foreign policy asset.
    Is there a danger that terrorists will gain access to the United 
States by posing as students? Of course there is; that danger exists 
with respect to all nonimmigrant visitors, of which students constitute 
only a minuscule two percent. All countries must confront a central 
question of our age, which is how to reconcile global mobility with 
global terrorism. Openness to mobility carries dangers; higher 
education wants to be a part of the greater attention to these dangers 
that is now necessary, and of the more robust enforcement measures that 
are now required.
    In this context, the task force fully supports appropriate 
screening and monitoring measures. Schools are collectively spending 
millions of dollars and countless hours to implement the international 
student tracking system that became a federal priority on September 11. 
They are working with the Department of State to protect the integrity 
of student visas and to prevent their fraudulent use by those who seek 
access to the United States for illegitimate reasons. Research 
institutions are wrestling with questions of access to sensitive 
scientific information and are doing their best to strike the 
appropriate balance. In these and other ways, higher education is doing 
its part to help protect our country.
    But to unduly restrict the access of future leaders--and, indeed, 
the youth of the world--to this country is to court a greater danger, 
which is to nurture the isolationism, fundamentalism. and bigoted 
caricatures that drive anti-Western terrorism. After September 11, it 
seems clear that the more people who can experience this country first-
hand, breaking down the stereotypes they grow up with and opening their 
minds to a world beyond their borders, the better it is for U.S. 
security.
Economic Benefits
    International students are good for the U.S. economy, as well. 
This, while not in the task force's judgment the most important reason 
for reaching out to such students, is nevertheless the basic driving 
force leading competitor countries to adopt proactive strategies for 
attracting them. NAFSA estimates that international students and their 
dependents spent nearly $12 billion in the U.S. economy in the last 
academic year, which makes international education a significant U.S. 
service-sector export. This economic benefit is shared by schools, 
communities, states, and the U.S. economy as a whole. According to the 
Institute of International Education, more than 70 percent of 
undergraduate international students pay full tuition and receive no 
financial aid, thus allowing schools to offer more financial assistance 
to American students. In addition, U.S.-educated students take home 
preferences for American products, and business students in particular 
take home an education in U.S. business practices.
Educational Benefits
    International students enrich American higher education and 
culture. For many American students, college or university life 
provides their first dose and extensive contacts with foreigners. These 
contacts begin the process of preparing these students to be effective 
global citizens. Foreign graduate students make important contributions 
to teaching and research, particularly in the scientific fields, and 
their enrollment in under-enrolled science courses often makes the 
difference for a school's ability to offer those courses. Indeed, 
graduate education as we know it could not function without 
international students.
    Immigration opponents argue that international students compete 
with Americans for slots in the U.S. higher education system and the 
U.S. economy, as though international education were a zero-sum game 
and any slot a foreigner gets is one an American does not get. The task 
force is unaware of anything but anecdotal evidence to support the 
thesis that international students take spots in universities that 
Americans would otherwise occupy. There is, however, ample evidence for 
a contrary proposition: International student enrollments and 
international teaching assistants enable universities to offer classes 
to American students that would not otherwise be available.
    On the job front, it is worth remembering that laws and regulations 
provide for visitors to adjust their status to remain in the United 
States and work precisely so that people with needed skills can work in 
the U.S. economy. The fact is that, although most students return home 
and contribute to their countries after studying in the United States, 
some remain legally in the United States and contribute to the U.S. 
economy. And increasingly, in this age of global mobility, some do 
both--effectively becoming citizens of two countries, moving back and 
forth, and contributing to both. In any of those cases, they contribute 
to long-term U.S. interests.
    As former Secretary of Defense William Perry noted in an address to 
the 1998 USIA-ETS conference, ``Attracting foreign students to study in 
the U.S. is a win-win-win situation: it's a win for our economy; it's a 
win for our foreign policy; and it's a win for our educational 
programs''--and all the more so since September 11. Without question, 
September 11 gave us a new appreciation of the importance of 
identifying and screening out international visitors of any kind--
students or otherwise--who would do us harm. We consider it equally 
without question, however, that openness to international students is 
overwhelmingly a net asset for the United States.

         THREATS TO U.S. LEADERSHIP IN INTERNATIONAL EDUCATION

    Thanks in part to the broad support it continues to receive, 
educational exchange to the United States is still going strong. The 
Institute of International Education reports that the number of 
international students in U.S. higher education institutions has 
increased in most years since 1955. According to IIE's Open Doors 2002, 
the authoritative source of data on international student enrollment 
for academic year 2001-2002, ``This year's 6.4 percent increase in 
international student enrollment in U.S. colleges and universities 
equals last year's increase, which was the largest increase in the past 
20 years. This continues a trend of substantial growth in foreign 
student enrollments that began in 1997, after a four-year period of 
minimal growth.''
    What's wrong with this picture? At first glance, nothing. But 
although the absolute numbers are increasing, U.S. market share is 
going in the opposite direction. According to IIE, the U.S. share of 
internationally mobile students--the proportion of all international 
students who select the United States for study--declined by almost ten 
percent from 1982 to 1995, the last year that IIE did the calculation 
(39.2 to 30.2 percent).
    In itself, that is not an alarming statistic. U.S. market share is 
still healthy, and the argument could be made that our nearly 40 
percent market share was unsustainable. It is what lies behind that 
statistic that is alarming.
    Declining U.S. market share is not simply a function of the free 
market. It is due to at least two factors. First, it reflects 
aggressive recruitment efforts by our competitors--the United Kingdom, 
Australia, New Zealand, Canada, and others--who have determined that 
they want to reap more of the foreign policy, economic, and educational 
benefits that international students bring. Conversely, it reflects the 
absence of such a conclusion on the part of the United States, which 
apparently assumes that international students will always come because 
they always have. In sum, the international student market has become 
highly competitive, but the market leader is not competing. Such 
complacency risks the loss of our country's leadership in international 
education, with the accompanying negative ramifications for our 
security, foreign policy, and economy.
    Second, declining U.S. market share does not appear to reflect any 
decline in international demand for U.S. higher education. Demand is 
strong; people still want to study here. The problem is access: How 
does one get here? How does one understand where one fits in the 
uniquely complex U.S. higher education system, finance the high cost of 
a U.S. education, and--above all--surmount the formidable, 
governmentally imposed barriers to studying here? While competing 
nations seek to remove disincentives to study in their countries, U.S. 
policy ignores--and sometimes exacerbates--the disincentives to study 
here. The problem lies not in the internationally popular product, nor 
in the highly motivated customer, but rather in market imperfections 
that keep the two from finding each other. Those imperfections are all 
subject to our control or influence. If we ignore them, we will 
continue to lose out in the competition.
    Ultimately, what's wrong with this picture is the absence of a 
strategy to sustain the numbers. For a generation after World War II, 
the United States had a strategy of promoting international student 
exchange as a means of waging the Cold War and promoting international 
peace. But now more than ever, the U.S. government seems to lack 
overall strategic sense of why exchange is important--and, therefore, 
of what U.S. interests are at risk by not continuing to foster 
exchanges. In this strategic vacuum, it is difficult to counter the 
day-to-day obstacles that students encounter in trying to come here--
and that schools encounter in trying to recruit them.
    In addressing the need for a comprehensive national initiative to 
promote international student access to U.S. higher education, 
therefore, it is as important to understand what the problem is not as 
it is to understand what the problem is. At the most basic--and 
encouraging--level, the problem is not one of weakness. The United 
States has every resource it needs to be successful in attracting 
international students--and, indeed, has been successful at it.
    The United States has more higher education capacity than our major 
competitors combined, the high quality of U.S. higher education is 
universally recognized, and the United States is a magnet for many 
throughout the world. The problem is not how to make the United States 
and its higher education system more attractive, but how to make them 
more accessible.
    Many colleges and universities are already sophisticated in 
actively recruiting undergraduate international students, either 
individually or through consortia. U.S. higher education is highly 
entrepreneurial and market driven. The problem is not a lack of 
competitiveness; but how to harness higher education's competitive 
energies into a national strategy.
    At the level of the federal government, the Departments of State, 
Commerce, and Education all have programs that relate to attracting 
international students. These programs are uncoordinated and seemingly 
operate in complete isolation from one another. For example, the 
Commerce Department's ``Study USA'' program and the State Department's 
``Education USA'' program have nothing to do with each other. Although 
more resources are needed, it is not clear that more resources for 
current programs, absent a coordinated strategy, would make a 
difference. The problem is not the absence of resources, programs, and 
dedicated civil servants, but a lack of policy, strategy, and 
coordination.

                BARRIERS TO INTERNATIONAL STUDENT ACCESS

    The task force has identified four barriers to international 
student access to U.S. higher education. We believe a strategic plan is 
needed to address them. The principal barriers to access, on which we 
focus most of this report, are: (1) the absence of a proactive, 
coordinated effort to recruit international students; and (2) 
burdensome U.S. government regulations, which often effectively cancel 
out recruitment efforts. Lesser barriers are (3) the cost of U.S. 
higher education, and (4) the complexity of our higher education 
system. To effectively address each of these barriers, the task force 
recommends that the United States articulate and develop a strategic 
plan to increase access.
The Need for a Proactive Access Strategy as Part of an International 
        Education Policy for the United States
    The U.S. government has not yet made it a strategic objective to 
increase international student access to the United States and, 
consequently, lacks a strategic plan for doing so. The time has passed 
when the United States could idly assume that it will continue to 
attract the world's best and brightest without such a plan. As 
articulated earlier in this report, our nation's foreign policy, 
economic, and educational interests require such a strategy now more 
than ever before.
    NAFSA, along with numerous other higher education and exchange 
organizations, has articulated the need for an international access 
strategy before, as part of a more comprehensive national policy that 
promotes international education in the broadest sense. In the past two 
years, a national policy on international education, originally put 
forth by NAFSA and its colleague association, the Alliance for 
International Educational and Cultural Exchange, has received strong 
bipartisan public support. In 2000, the Clinton administration issued a 
memorandum to federal agencies instructing them to take certain steps 
to promote and facilitate international education, and Congress has 
introduced and passed bipartisan resolutions to create a national 
policy on international education. The task force strongly supports the 
continuation of these efforts, and in particular, it urges the U.S. 
government to articulate the need for a national strategy to facilitate 
access to U.S. higher education and to develop a plan to implement that 
strategy.
    The presence of such an access strategy would provide the policy 
basis for addressing the following four barriers to international 
student access.
Uncoordinated Recruitment Efforts
    One consequence of the absence of strategy is uncoordinated 
recruitment efforts on the part of both the U.S. government and higher 
education. At the government level, there is no lead agency, there is 
no interagency coordination, and there is no coordination within 
agencies to ensure that one bureau does not work at cross-purposes with 
another. At the level of colleges and universities, some are more 
active--and some more successful--than others in recruiting 
international students; but, with rare exceptions at the state level, 
schools do not enter into strategic partnerships for the purpose of 
increasing recruitment overall.
Burdensome U.S. Government Regulations
    Another consequence of the absence of strategy is unnecessarily 
burdensome government regulations that restrict international student 
access to the United States.
    Uninformed rhetoric since the September 11 tragedy has fostered the 
impression that student visas are handed out to all corners. The 
reality is quite different. Student visas are not--and never have 
been--easy to get. The student visa denial rate was 28 percent in 
fiscal year 2001; in countries where consular officers suspect that the 
desire to emigrate to the United States is prevalent, it is 
significantly higher.
    Although data are not yet available, a post-September 11 sea change 
appears to be occurring in visa processing for male Muslim applicants 
and for applicants who intend to pursue a science major. Many such 
applicants were unable to enroll for the fall 2002 semester because 
their visa applications were sent to Washington where they sat for 
months, without being decided, until the program start date had passed. 
This denial through delayed decision making is devastating our 
exchanges with the Muslim world--at the same time that Congress creates 
highly touted new Muslim exchange programs. Here is the absence of 
strategy: foreign policy going in one direction and visa policy in 
another, with the former pursuing forward-looking public diplomacy 
objectives while the latter makes the implementation of those 
objectives impossible.
    It is at the level of visa policy where the primary strategy needs 
to be directed. Operationally, there are no exchange programs if the 
participants cannot get visas. Nothing could be more shortsighted than 
to deny exchange opportunities to people from countries where isolation 
from the rest of the world is driving terrorism. This will only 
increase security risks in the long run.
    Applicants for visas to the United States need to be subject to 
appropriate screening. After September 11, increases in such 
screening--carefully targeted at real risks--may be necessary. Having 
said that, burdensome laws and regulations, arbitrary decision making, 
and a severely overburdened consular corps still make it unnecessarily 
difficult to study in the United States. With effort, this barrier 
could be significantly reduced.
    Visas are not the only problem. One would never know it from what 
one reads in the press, but the lives of those students who make it 
here are in fact controlled by a large body of federal regulation that 
far exceeds that which applies to any other category of nonimmigrant. 
Although that is not strictly speaking a barrier to entry, it hardly 
presents a welcoming image to those contemplating study in the United 
States--especially since September 11, as each new regulation is 
trumpeted in a press conference as cracking down on terrorism. Each new 
layer of regulation increases the resources--time, personnel, and 
money--that schools must spend to comply, robbing them of those 
resources for proactive efforts to recruit international students and 
enhance their integration into campus and community. This is another 
reflection of the absence of strategy--the imposition of costs without 
consideration of foregone benefits. Meanwhile, our competitors are 
asking the strategic question: How can we streamline our regulations to 
enhance our position in the international student market?
The Cost of U.S. Higher Education
    Higher education, already expensive for Americans, looks even more 
so from abroad. It is a simple competitive fact of life that U.S. 
higher education, while of the highest quality, is also the most 
expensive--a factor that is only exacerbated as more schools add 
international student processing fees to pay for expensive monitoring 
systems. Other countries have a cost advantage over us. Because there 
is no prospect of changing this factor, the task is to find ways to 
ameliorate it.
The Complexity of U.S. Higher Education
    The fourth barrier is the flip side of a strength. The U.S. higher 
education system is the most complex in the world, and is very 
difficult for foreign students to decipher. This is not something we 
should want to change, for the diversity of U.S. higher education is a 
great strength. In fact, this diversity provides multiple points of 
access for foreign students to U.S. higher education, which they do not 
find in any other country. With respect to this barrier, the task is to 
provide foreign students with the tools to understand and navigate this 
complexity, thus turning complexity from a liability into an asset.
      recommendations: how to enhance international student access
    The United States requires a strategic plan for enhancing 
international student access consistent with national and homeland 
security. At its most elementary level, a strategic plan must provide a 
coherent government approach to international students, as opposed to 
an approach where one part of the government cancels out the other. 
Accordingly, such a plan must: (1) specify the roles, and provide for 
coordinating the efforts, of the principal agencies that must be 
involved in a comprehensive effort to recruit international students; 
and (2) provide guidance for removing unnecessary governmentally 
imposed barriers to international student access. Those two elements 
would address the major problems with the U.S. government approach to 
international students. In addition, the plan should address the issues 
of (3) the cost and (4) the complexity of U.S. higher education.
    The task force makes the following recommendations for implementing 
a strategy to enhance international student access.
I. Articulate a Policy and Develop a Strategic Plan
    The United States government, in consultation with the higher 
education community and other concerned constituencies, must develop a 
national policy that articulates why promoting study in the United 
States to international students is important to the national interest. 
Only when that is done will we be able to move to a strategic plan for 
promoting U.S. higher education abroad.
II. Develop a Recruitment Strategy
    The three federal agencies that share responsibility for 
international student recruitment must have their roles specified and 
must cease operating in a vacuum, as they do today. Specifically, each 
agency must be tasked with the following:
The Department of State
    The Department of State must rationalize and create an effective 
mandate for the currently under-resourced State Department overseas 
educational advising centers. Some 450 advising centers are spread 
around the world, existing on a shoestring budget of some $3 million a 
year. With that meager amount, the advising centers help to leverage 
$12 billion of foreign student spending in the U.S. economy by serving 
as the initial gateway for people inquiring about study in the United 
States. This is surely one of the most cost-effective government 
efforts ever recorded. The task force has nothing but admiration for 
the job that the advising centers do with virtually no resources. Yet 
they are a shadow of what they could be under a real strategic plan.
    More funds are needed--but not yet. First, these centers need to be 
given a mission--that of promoting U.S. higher education. The mission 
should anchor a strategic plan--one that specifies how many centers 
there should be, where they should be located, what they should do, and 
how they fit into a strategic international student recruitment plan 
for the United States. The task force believes that Congress will 
respond to a call by the President to support a strategic effort at a 
level that it has not been prepared to provide for the existing effort, 
and that the higher education community will be in the trenches with 
the administration fighting for that support.
The Department of Commerce
    The second task is to rationalize the role of the Department of 
Commerce in international student recruitment. An industry that 
generates $12 billion of spending in the U.S. economy would seem to 
qualify as a business worthy of Commerce Department support. Yet, the 
department's effectiveness in promoting this industry is compromised by 
its organizational structure and the lack of overriding policy or 
direction.
    Responsibility is currently claimed by both the Office of Trade 
Development. which sees international education as an agenda item in 
multilateral trade negotiations, and the U.S. and Foreign Commercial 
Service, which sees international students as a marketing issue. Each 
appears to go about its business with nearly complete lack of awareness 
of the other and therefore lacking a common conception of what each is 
trying to do. This not only makes it impossible for Commerce to act 
strategically to promote international education products and services, 
it also makes it challenging, to say the least, for those who seek to 
collaborate with Commerce to promote international education.
The Department of Education
    The third task is to provide a clear mandate for the Department of 
Education regarding international student recruitment. Other countries' 
efforts center on their Ministries of Education. Yet in the United 
States, the Department of Education presently seems to have no 
strategic role at all when it comes to international student enrollment 
in U.S. colleges and universities. The only departmental program that 
supports international student recruitment is the U.S. Network for 
Education Information (USNEI), a Web site that provides general 
information about the U.S. educational system for those from other 
countries. In addition, the department participates, with the State 
Department, in International Education Week. The task force was 
encouraged by the new international education policy priorities 
recently announced on November 20 by Secretary of Education Rod Paige, 
particularly the component that supports ``U.S. foreign and economic 
policy by strengthening relationships with other countries and 
promoting U.S. education.'' While we commend the department for these 
activities and initiatives, we believe it has the capacity to play a 
much greater leadership role in increasing international student 
enrollments in U.S. higher education. The assistant secretary for post-
secondary education should be tasked with providing this leadership and 
should have the strong support of the secretary.
A Comprehensive Strategy
    The fourth task is to coordinate all of these efforts and combine 
them into a coherent, comprehensive strategy to promote international 
student access. Under that strategy, all of the agencies involved must 
deploy their resources in complementary ways with the aim of increasing 
international enrollments in U.S. higher education.
III. Remove Excessive Governmentally Imposed Barriers
    In the new, post-September 11 security environment, everyone 
accepts that greater scrutiny is necessary to try to keep people from 
entering the country under false pretenses and to discover them once 
they are here. Inevitably, this entails greater government controls on 
mobility. This applies no less--and no more--to the minuscule 
proportion of nonimmigrant visitors who are students. Because this 
population has been especially targeted since September 11, schools 
have already been called upon to do their part, and they are devoting 
enormous resources to complying with what is required of them.
    But in the emotion of the moment, it is too easy to carry that 
consensus to its illogical conclusion: The more barriers, the better. 
U.S. national interest dictates otherwise. Because of the great benefit 
that the United States derives from mobility, the objective should be 
the minimum controls consistent with national and homeland security. To 
achieve this objective for students, updated legislation, improved visa 
screening, and a rational student monitoring system are required.
    International student mobility has increased more than tenfold 
since our basic immigration law was written, and other immigrant and 
nonimmigrant flows have grown concomitantly. U.S. higher education has 
also been revolutionized during that time--leading, for example, to the 
far greater prevalence of part-time and continuing education. 
Demographically, the United States now finds itself with an immigrant-
dependent economy. In the face of these massive shifts, U.S. 
immigration laws, their enforcement, and visa practices are still in 
the pre-global era. Post-September 11 politics has had the unfortunate 
effect of reinforcing their outdatedness, as if we could somehow 
insulate ourselves from danger by moving backwards: making our 
immigration laws even less reflective of contemporary reality, making 
each visa decision take longer, and growing the mountains of unanalyzed 
data on international students ever higher.
    Security lies in the opposite direction. We need to update our 
immigration laws. We need to find ways to make the routine granting of 
visas to non-threatening populations easier, so that consular 
officials--who will never be able to scrutinize everyone equally--can 
devote their attention to the problematic cases. We need to collect the 
information that we really need about foreigners in our midst without 
diverting scarce resources to expensive systems that produce ever more 
data but ever less-useful information. If we do all that, we will make 
access to U.S. higher education easier for bona fide students, even as 
we increase our security.
An Immigration Law for the Twenty-First Century
    The effort to remove unnecessary, governmentally imposed barriers 
must start at the level of immigration policy. Immigration law (section 
214(b) of the Immigration and Nationality Act) requires that applicants 
for nonimmigrant visas be presumed to have an intent to immigrate to 
the United States unless they can demonstrate otherwise to a consular 
officer--that is, prove a negative. That requirement imposes an 
unrealistic burden on students, who are typically not yet sufficiently 
well established in their societies to be able to demonstrate a 
likelihood of return. It also imposes an unreasonable burden on 
consular officials, who are in effect required by law to know the 
unknowable and to determine the intent of the visa applicant in an 
interview lasting a few minutes. Because the consular decision must 
necessarily be based on a guess, this requirement too often produces 
arbitrary and unaccountable consular decision making. This creates 
great frustration on the part of those who wish to study in the United 
States and wreaks havoc with college and university enrollments.
    If the policy of the United States were, in fact, as articulated by 
section 214(b), we might just have to live with these problems. But it 
is not--nor, in this day and age, can it be. As far as students are 
concerned, the United States does not, in fact, practice the policy 
that they must return to their home country; in practice, we do--and we 
should--permit graduates of our educational institutions to adjust 
their status legally and remain in the United States if they possess 
skills that we need. Demographic trends dictate this policy because the 
United States cannot fill all the skilled jobs in its economy from the 
native-born population.
    Current law does not provide sensible, workable, enforceable 
guidance for a global age and a global job market. A huge barrier to 
international student access to the United States would be removed, 
with no ill effects on safety or security, simply by replacing the 
``intent-to-immigrate'' standard with one that is more appropriate for 
student visas: Does the applicant have a bona fide reason and 
sufficient financial means to enter the United States as a student? 
Unlike the question posed by current law, that is an answerable 
question. What happens if they wish to stay--which some clearly do 
anyway--is a matter governed by other laws. (Like all other visa 
applicants, of course, students would still have to undergo applicable 
security and background checks, including having their names checked 
against terrorist watch lists.)
    Only when our 1950s-vintage immigration law catches up to twenty-
first century immigration reality will consular decision making become 
rational, predictable, and accountable to those wanting to study in the 
United States and to the institutions that seek to enroll them. This 
task force proposes that a joint government-higher education task force 
be formed to devise a new legislative standard for student visas.
    Another legal anomaly deserves mention. Every one of our English-
speaking competitors in the international student market permits 
nonimmigrants to pursue short-term study for up to 90 days on tourist 
visas. This enables international students to take short-term English 
courses or other short-term summer courses in those countries, return 
for a week to defend their dissertations, and engage in all kinds of 
other short-term educational programs that are common in today's world, 
for which a student visa is inappropriate. In the United States, this 
practice is technically illegal, and post-September 11 crackdowns 
jeopardize these worthy activities. The law needs to be updated to 
reflect this common practice.
Improved Visa Screening
    Notwithstanding an anomalous decline in visa applications in 2002, 
it is predictable that the volume of visa applicants will only continue 
to increase over the long term. The State Department's professional 
consular officers, scurrilous attacks to the contrary notwithstanding, 
do a responsible job, under adverse conditions, of trying to keep up 
with the flow. It's an impossible task. As in the classic ``I Love 
Lucy'' television show, the conveyor belt is only going to keep moving 
faster. Legislating that consular officers must give greater scrutiny 
to every applicant and treat everyone as a security risk is like 
legislating rain; it just can't happen. Post-September 11, a system is 
urgently needed that permits necessary scrutiny of visa applicants 
leading to decisions within reasonable and predictable periods of time.
    So that they may devote adequate attention to visa applications 
with real security implications, consular officers must find ways to 
devote less attention to the rest, without any loss of overall 
effectiveness. The visa decision cannot be delegated; it is an 
essential government function. Some of what informs the visa decision, 
however, can be delegated. Through the creative use of partnerships, 
consular officers can use others to help inform their decisions. The 
result will be better, safer, more reliable visa decisions.
    In the student visa area, we propose two such partnerships: first, 
a partnership with the higher education community to train new consular 
officers in the student visa process; and second, a partnership with 
the department's own overseas educational advising centers, whereby the 
latter would prescreen student visa applicants. We also propose 
increased funding for the consular affairs function in the State 
Department's budget.
    First, the State Department should ask higher education to produce 
and deliver, in partnership with the department, an international 
student module for use by the Foreign Service Institute in training new 
consular officers. This module would help new officers understand the 
foreign policy, educational, and economic roles of international 
students in our society; the complexity of U.S. higher education and 
the international student admissions process; the documentation 
required of such students; the effects on schools when visa decisions 
are unpredictable; and other relevant factors. The point is not to 
suggest that any of these factors should drive the visa decision; they 
should not. The point is to make sure that the decisions are informed 
and are not made in an information vacuum, as is too often the case 
today. The result will be more rational accountable visa decision 
making.
    Second, to reduce the burden on consular officers, the Department 
should use its own overseas educational advising centers to prescreen 
student visa applicants. A model for this exists in Malaysia, where the 
overseas educational advising centers have an agreement with the U.S. 
consulate that they will prescreen students' visa applications to make 
sure that all the necessary documents are in order before sending the 
applications to the consulate. (This is particularly important in view 
of new, post-September 11 visa requirements, with which students may 
not be familiar.) Once the consulate approves the visa, the documents 
are sent back to the advising center for the student to pick up. In 
denial cases, the consulate returns the documentation to the advising 
center, which notifies the student. In this way, two purposes are 
accomplished: The consular officer is relieved of routine document 
verification and of having to process routine denials based on 
incomplete documentation; and recruitment is enhanced by driving 
applicants to the centers, where they can be counseled and provided 
with information. The British, who have been very effective at 
streamlining access for international students, have employed this 
method with good results. This is a case where we would do well to 
emulate our competitors.
    Third, recent congressional attacks on the Bureau of Consular 
Affairs ring somewhat hollow in view of the fact that Congress has 
routinely underfunded this bureau, as it has much of the Department. 
Educators have long advocated greater funding for Consular Affairs. 
Thankfully, September 11 appears to have induced Congress to recognize 
the necessity of funding Consular Affairs at a level commensurate with 
its role as a first line of defense. The task force urges Congress to 
follow through and sustain necessary funding increases over time. The 
nation asks much of its consular officers; we will only get it if we 
pay for it.
A Rational Student Monitoring System
    There has been much debate in recent years on the advisability of a 
nationwide international student monitoring system. That debate ended 
on September 11, 2001; it is not our intention to restart it. Such 
monitoring will soon be a reality, with the full support of higher 
education.
    It is important, however, to remain focused on what the monitoring 
system was intended to accomplish. It was intended to be a tool for 
enforcing our immigration laws by enabling the government to know if 
international students were abiding by the terms of their visas and of 
their admission to the United States. And it was billed by the INS as 
capable of producing efficiencies for both the INS and academic 
institutions in the administration of educational exchange. As such, it 
was unobjectionable. It was not intended to be a barrier to exchange.
    Unfortunately, as we lead from fear instead of from confidence, the 
system threatens to become what it was not intended to be. Many 
violations of student status are technical and inadvertent, stemming 
from lack of knowledge or understanding by young people of what are, 
after all, fairly complex regulations. Others are minor, routine 
infractions that the INS has considered to be harmless and, as such, 
are rarely subject to enforcement actions. And indeed, it is not 
unheard of for students to be deemed, incorrectly, to be out of status 
because INS officials do not understand their own regulations.
    It has been possible, heretofore, for harmless technical violations 
or misunderstandings to be corrected, once discovered, without the 
student losing status. The system gave enough discretion to designated 
school officials to permit a rule of reason to prevail in the 
overwhelming preponderance of the cases that involved infractions with 
no national security implications. As we are now only too painfully 
aware, there were also enough ``gaps'' in the system to permit 
violations with profound national security implications to go 
undetected. The task is now to achieve a new balance, which maintains 
the attractiveness of the United States as a destination for 
international students without sacrificing national security.
    It is not clear that the international student monitoring system 
that will go into effect on January 30, 2003, will achieve that 
necessary balance. The rigidities of the system are so great that 
inadvertent loss of status threatens to be a common occurrence, and the 
remedies are so difficult that significant numbers of international 
students may face significant disruptions in their studies and may even 
have to leave the country. This is not idle speculation. Reports have 
surfaced periodically since September 11 of international students 
being jailed for technical violations with no national security 
implications, or due to a misunderstanding of the regulations by 
enforcement officials.
    It is certainly necessary to tighten enforcement, increase training 
for school officials, and do more to help international students 
understand how to remain in status and the consequences of failing to 
do so. But it is quite simply impossible for the United States to 
retain a robust international student industry if students must live in 
constant fear of making a mistake that costs them their education or 
even their freedom. Our competitors do not impose such burdens. It is 
they who will reap the benefits, and the United States that will incur 
the loss, if we continue down this road.
IV. Address Issues of Cost
    Although U.S. education is of the highest quality available 
worldwide, other countries appear to enjoy a competitive cost advantage 
over the United States. This primarily reflects the high cost of higher 
education in the United States for those unable to take advantage of 
in-state tuition rates. It also reflects the high cost of living and, 
for some, the high cost of travel to the United States, and is often 
exacerbated by a strong dollar on the exchange market.
    What we need are more financial aid opportunities for international 
students and an easy mechanism for accessing information about these 
options. Through creative partnerships among the stakeholders who have 
an interest in increasing international student access to the United 
States--including higher education institutions, the U.S. government, 
foreign governments, and the business community--the task force 
proposes that more loans, tuition exchanges, and scholarships be made 
available to international students.
Loans
    More private loans need to be available to foreign students and 
their families, particularly loans that permit co-signers from abroad. 
There are several promising models for such loans.
    Citi-Assist International Loans and Citi-Assist Global 
International Loans, both offered by Citibank, have operated 
successfully for years. Unlike most other loans, which require a U.S. 
co-signer, these loans simply require that the student be enrolled at a 
participating school. If the student does not have sufficient 
individual financial assets, the student must only have a declaration 
of financial support from a family member.
    Another model is the Duke MBA Opportunity Loan. International 
students attending the Fuqua School of Business may borrow up to 
$30,000 per academic year with a 5 percent disbursement fee and an 
interest rate of prime plus 2 percent. This partnership exemplifies the 
kind of cooperation that is needed between higher education 
institutions and the business community--in this case, between Duke's 
business school, SLM Corporation (Sallie Mae), and HEMAR Insurance 
Corporation.
    In yet another innovative program being considered by First 
Financial Partners, Inc., families abroad could contribute money toward 
an investment fund that will safeguard their money in U.S. dollars and 
would accrue tax-free interest that can be invested in their children's 
education at U.S. institutions. This type of program is particularly 
promising for students in countries where their families know early on 
that they will want to send their children to study in the United 
States and where depositing money in their own national banks is viewed 
as high risk for them.
    The task force calls upon the higher education and business 
communities to develop more innovative partnerships like these to make 
U.S. higher education more accessible to foreign students.
Tuition Exchanges
    In what is truly a reciprocal exchange, students from other 
countries change places with students from the United States. They pay 
tuition and fees to their home institutions, so no money changes hands 
between the participating institutions. Because tuition expenses can be 
significantly lower in other countries, this type of tuition exchange 
offers foreign students an affordable opportunity to study in the 
United States, while encouraging U.S. students to study abroad. There 
are many examples of such partnerships between U.S. and foreign 
universities, operated successfully at minimal cost to both 
institutions. Many more such programs are needed.
Scholarships
    There are also existing scholarship programs for international 
students that could serve as models for a broader effort. The 
approaches fall into two categories: first, at the state level, 
providing financial aid for international students in exchange for 
public service commitments by the students to the states; and second, 
at the national level, providing financial aid for international 
students to further specific U.S. foreign policy and international 
development objectives in the students' home countries.
    At the state level, colleges and universities (even public ones) 
can offer tuition scholarships to international students. In a program 
to encourage public service in exchange for financial aid, the 
University of Oregon system offered out-of-state tuition remission to 
international students. In return, the students provided services to 
the campus and the local community, including providing translation 
services for local businesses and teaching in elementary schools about 
their countries and cultures. The program proved so valuable that, when 
the system lost its ability to offer tuition remission, the chancellor 
decided to keep it going by offering tuition scholarships financed with 
university funds.
    To this point, our recommendations for addressing the cost of 
higher education for international students would entail minimal or no 
cost to the public treasury. This approach is deliberate. However, a 
strong case can be made for publicly funded scholarship programs 
targeted at countries or regions where they would serve a strong U.S. 
foreign policy interest. This applies particularly to areas, such as 
Africa, whose economic development is important to the United States 
but that are too poor to afford their people the opportunity for a U.S. 
education. Where international student access is important to U.S. 
interests, but cost considerations are an obstacle to such access, 
appropriate programs are needed to address that problem.
    In one model, the U.S. Agency for International Development offers 
seed money for scholarship programs for study in the United States that 
require the recipients to repay the scholarship through service in 
their home country. These partnerships have led to programs like one 
currently operated by the Academy for Educational Development. The 
program brings Botswanan students to the United States for their 
education in exchange for a commitment by the students to spend 2 years 
in public- or private-sector service in Botswana upon completion of 
their program. The program, initially funded with AID seed money, is 
now fully funded by the Botswanan government and is very successful, 
boasting a 99 percent return rate.
    The Vietnam Education Foundation Act, sponsored by Senators John 
Kerry and John McCain, represents a different approach. The act creates 
a Vietnam Debt Repayment Fund, into which payments on debts assumed by 
the Socialist Republic of Vietnam, which were owed to the United States 
by the former South Vietnamese government, are deposited. The fund will 
be used to finance higher education in the United States for Vietnamese 
nationals, as well as service in Vietnam by U.S. citizens. The act 
provides for matching contributions by U.S. universities. Variants of 
this model could be used to recycle the debt payments of other 
countries into activities that support their economic development in 
furtherance of U.S. foreign policy goals.
    These are examples of highly cost-effective programs that provide 
international students with opportunities to pursue higher education in 
the United States and, in the process, enhance the public good in 
various innovative ways. It should not be difficult to increase 
significantly the funding available for international students by 
building on these models. The task force calls for more such programs.
A Financial Aid Information Clearinghouse
    Our nation's most important disadvantage pertaining to the cost of 
education is that other countries are aggressively marketing their 
advantages over the United States, while we are doing nothing to combat 
the notion that a U.S. education is unaffordable. As loan, scholarship, 
and tuition exchange opportunities are expanded, a comprehensive 
resource must be developed for international students to help them 
understand the financial options available to them. This needs to be 
part of the comprehensive information system on U.S. higher education 
that we propose in the next section.
V. Address Complexity With a Marketing Plan
    To arrest the decline in the U.S. share of the international 
student market, the United States, through the coordinated efforts of 
the Departments of State and Commerce, must do what its competitors are 
doing: strategically market overseas the value of a U.S. education. The 
marketing strategy must address the problem of the complexity of U.S. 
higher education by transforming complexity from a liability into an 
asset. This must be done in two ways: first, through a coherent message 
that explains to consumers why the product is superior; and second, 
through an effective information tool that enables consumers to 
navigate the complexity and locate their needs in relationship to what 
the product offers.
A Coherent Message
    The U.S. government and higher education institutions need to send 
out a dear, consistent message about U.S. higher education. The message 
should convey that the United States can provide a high-quality 
educational opportunity for everyone, even if they have limited 
financial means. Our higher education system's great diversity can help 
each individual who seeks an education in the United States to find the 
right fit. The message should help students understand that a U.S. 
education, although costly, is the best investment that students can 
make in their lives, careers, and financial future. It should convey to 
international students--and their families--that they will be welcomed 
by the U.S. government, the universities, and the American public and 
that they will be safe.
    Essentially, this is the branding of U.S. higher education as value 
and opportunity. A brand is a template that both government agencies 
and schools can use to craft their own messages to ensure that the 
overall U.S. message is consistent. By producing high-quality 
materials, which can be modified as necessary and distributed widely by 
all stakeholders, branding allows the pooling of resources for maximum 
impact and encourages the best use of marketing dollars.
    In crafting this message, the State Department public affairs 
offices and Commerce Department Foreign Commercial Service offices 
should share responsibility for overseeing the market research 
necessary to enhance our understanding of how to appeal to overseas 
audiences on behalf of U.S. higher education. Admissions professionals 
in the schools, many of whom possess considerable expertise on 
marketing to international students, should be enlisted in this effort.
An On-line Resource
    If the message is effective in conveying that a U.S. education is a 
good value, then students will want to know how to access this value. 
It is essential to develop a user-friendly, comprehensive, 
sophisticated, Web-based information resource through which 
international students wifi be able to understand and assess the higher 
education options available to them in the United States and identify 
possible financing options. This online resource should allow students 
to rank their personal preferences (cost, location, academic program, 
etc.) and should provide links to institutions that match up with their 
preferences. Ideally, these links would then allow students to apply 
for admission online.

                               CONCLUSION

    The need is clear. Rather than retreating from our support for 
international student exchange--and foregoing its contribution to our 
national strength and well being--we must redouble our efforts to 
provide access to foreign students while maintaining security. We need 
to develop a strategic plan for promoting study in the United States to 
international students, rationalize the recruitment effort, remove 
excessive governmentally imposed barriers to access, and address issues 
of cost and complexity. The task force calls on the U.S. government, 
academe, the business community, and all who care about our nation's 
future to step up to the task of ensuring that we continue to renew the 
priceless resource of international educational exchange. We pledge our 
continuing support for the effort.

    The Chairman. Thank you very much, Ms. Johnson. Thank you 
also for including in the packet a good number of suggestions 
and publications that are very important and that exemplify the 
work of your group. We appreciate that.
    I would like to call now on Dr. Kattouf.

  STATEMENT OF HON. THEODORE H. KATTOUF, PRESIDENT AND CHIEF 
                  EXECUTIVE OFFICER, AMIDEAST

    Ambassador Kattouf. Mr. Chairman, members of the committee: 
I am honored to appear before you today on the status of 
international students and exchange visits in the United States 
in light of the new visa regulations and other measures 
implemented since 9/11.
    As a former ambassador to both Syria and the United Arab 
Emirates and as someone who has spent 21 of 31 years in the 
foreign service at U.S. embassies and missions in the Arab 
world, I well appreciate the threat that terrorists pose to 
this country. I have been on the wrong end of a couple incoming 
missiles myself when I was out in the field. But, as we all 
know, U.S. security does not depend solely on the strength of 
our armed forces or on the effectiveness of the CIA, the FBI, 
Homeland Security, U.S. Customs, and others charged with 
uncovering and preempting plots against us.
    As this committee well recognizes, the war against 
terrorism requires that we isolate to the greatest extent 
possible those who would slaughter civilians and indeed stop at 
virtually nothing to achieve their goals. We cannot kill even 
the most twisted and evil ideology with force alone.
    I think, as is clear from everybody who has spoken today 
and from the opinions expressed by committee members that 
exposure to liberal education and values such as academic 
freedom and open inquiry are among the best tools we have to 
inspire a new generation in the Arab and Islamic world to 
resist the siren calls of those who would subvert one of the 
world's great monotheistic religions to achieve their political 
interests.
    Let me say in this regard that the Fulbright program 
continues to be one of the best means ever conceived to bring 
international scholars and academics here and to send our young 
scholars and academics abroad. In the past decade alone, tens 
of thousands of Middle Eastern students, scholarship recipients 
as well as those who are self-funded, have returned to their 
own countries and assumed leadership positions in which they 
are able to serve as cultural interpreters by virtue of their 
first-hand perspectives on U.S. society.
    It has already been noted that 10 of 21 outgoing Jordanian 
cabinet members--they have just had a cabinet re-shuffle--but 
10 out of 21 of the last cabinet are graduates of U.S. 
universities. It may surprise some to learn that most of the 
ministers in the government of Saudi Arabia and also in their 
consultative council have received degrees from U.S. 
universities. This is true across the Middle East, not 
necessarily in those numbers, but there are people who are 
holding positions in business, academia, and other professional 
leadership positions.
    Mr. Chairman, I know that you and your committee, along 
with some other key Members of Congress, strongly support 
programs and policies that are both consistent with homeland 
security and keeping the welcome mat out for legitimate 
students who wish to benefit from our educational system and 
learn more about our way of life.
    My organization is much smaller than the others who have 
testified here today, but we do have 15 offices in 11 Arab 
countries, that is AMIDEAST. And we are proud that for decades 
we have received a grant from the State Department that has 
permitted us to assist hundreds of thousands of Middle Eastern 
students interested in attending U.S. institutions of higher 
learning. We are no less proud that we manage over 200 Arab 
Fulbright students who are currently studying in this country.
    My organization, further, has been involved for many years 
in various exchange programs, and I want to thank this 
committee for the support it has given recently to such 
innovative exchange programs as the Youth Exchange and Study 
program, or YES, that brings Middle Eastern and South Asian 
youth to this country for 1 year of high school and home stays 
with American families. Similarly, the Partnerships for 
Learning Undergraduate Studies, PLUS, program offers 
disadvantaged students from the region the opportunity to get a 
liberal arts degree in this country; and the Congress has 
funded the Middle East Partnership Initiative, which is 
administered by the Near East Bureau of the Department of State 
and allows organizations like my own to come up with innovative 
programs that help fill needs in terms of bringing students to 
this country, bringing exchange student professionals to this 
country, and doing projects in the field as well.
    The response to these new programs has been extremely 
positive, even overwhelming. I cite statistics which show that 
for every, for instance, scholarship we have in the U.S. 
program there are 50 or 100 applicants. I had the honor, Mr. 
Chairman, of attending a reception here on Capitol Hill co-
hosted by you and Senator Kennedy, and I can attest to the fact 
that all the students I talked with were uniformly 
enthusiastic. Their only concern was, how are we going to 
explain to the folks back home how good America really is?
    I would just say in conclusion, sir, that this committee, 
besides having our gratitude, that we need to continue to fund 
at a high level such programs as I have mentioned--YES, PLUS, 
the Middle East Partnership Initiative. I think more can be 
done in this regard and should be done in this regard.
    It is also important, as a number of speakers have pointed 
out, that the Department of State, the Department of Homeland 
Security, and other concerned government entities be adequately 
funded to handle their visa processing caseloads, and that they 
work smarter and that they work closely and cooperatively 
together to refine and streamline the visa issuance and entry 
processes. It is in our national interest to get out the word 
that the United States remains a country welcoming of foreign 
students and other visitors.
    Thank you, sir.
    [The prepared statement of Ambassador Kattouf follows:]

  Prepared Statement of Ambassador Theodore H. Kattouf, President and 
                   Chief Executive Officer, AMIDEAST

    Mr. Chairman, Members of the Committee. I am honored to testify 
before you today on the status of international students and exchange 
visitors in the United States in light of the new visa regulations and 
other measures implemented since 9/11 to protect the homeland and the 
American people. As the former Ambassador to Syria and the United Arab 
Emirates, and as someone who has spent 21 years of a 31-year career at 
U.S. embassies and missions in the Arab world, I well appreciate the 
threat that terrorists pose to our vital interests, and nothing I say 
today should be construed as intended to weaken our resolve to combat 
them.
    U.S. security, however, does not depend solely on the strength of 
our armed forces or on the effectiveness of the CIA, FBI, U.S. Customs, 
and others charged with uncovering and preempting plots against us. As 
this committee well recognizes, the war against terrorism requires that 
we isolate to the greatest extent possible those who would slaughter 
civilians and, indeed, stop at nothing to achieve their goals. But 
military might and timely intelligence cannot do this alone. We can't 
kill even the most twisted and evil ideology with force, and indeed, 
the use of force sometimes has the unintended effect of strengthening 
such ideologies.
    It is my firm belief that exposure to liberal education and values 
such as academic freedom and open inquiry are among the best tools we 
have to inspire a new generation in the Arab-Islamic world to resist 
the siren calls of those who would subvert one of the world's great 
monotheistic religions to achieve their political self-interests. In 
this regard, the Fulbright Program continues to be one of the best 
means ever conceived to bring international scholars and academics to 
this country and to send our young scholars and academics abroad.
    In the past decade alone, tens of thousands of Middle Eastern 
students--scholarship recipients as well as those who are self-funded--
have returned to their own countries and assumed senior leadership 
positions in which they are able to serve as cultural interpreters by 
virtue of their firsthand perspective on U.S. society. I will not be 
the first to note that 10 out of 21 outgoing Jordanian cabinet members 
and most of the ministers in the Saudi government received degrees from 
U.S. academic institutions. Significant numbers of ministers in other 
Arab countries such as Lebanon, Egypt, Kuwait, and Morocco also have 
studied in the United States, as have those in business, academia, and 
other professional leadership positions regionwide.
    Yes, it is true, Mr. Chairman, that disdain for--and suspicions 
of--U.S. government policies and intentions are widespread throughout 
the region. Indeed, the current level of anti-Americanism is higher 
than I can remember it being except at critical times such as during 
and after the 1967 Arab-Israeli war. Yet what we cannot quantify is how 
much worse the situation would be for American interests in the region 
if there were not a cadre of responsible regional leaders, who through 
their U.S. studies, have gained an appreciation of what is good and 
decent about America and who know and respect our values.
    Mr. Chairman, I know you and your committee, along with some other 
key members of the Senate and the House, strongly support programs and 
policies that are both consistent with homeland security and keep the 
welcome mat out for legitimate students who wish to benefit from our 
educational system and learn more about our way of life. My own 
organization, AMIDEAST, with 15 offices in 11 Arab countries and 
territories, is proud that for decades it has received a grant from the 
State Department that has permitted us to assist hundreds of thousands 
of Middle Easterners interested in attending U.S. institutions of 
higher learning. We are no less proud to have been chosen to manage the 
Fulbright Foreign Student Program for Arab grantees, over 200 of whom 
are currently studying in this country. My organization has further 
been involved for many years with various exchange programs, and I want 
to thank this committee for the support it has given recently to such 
innovative exchange programs as the Youth Exchange & Study (YES) 
program that brings Middle Eastern and South Asian youth to this 
country for one year of high school and homestays with American 
families; the Partnerships for Learning Undergraduate Studies (PLUS) 
program that offers disadvantaged students from the region and South 
Asia the opportunity to complete a U.S. undergraduate liberal arts 
degree; and for allocating funds at an increasing annual rate for the 
Middle East Partnership Initiative (MEPI) that is overseen by the State 
Department's Near East Bureau. The response to these new programs among 
the target populations has been highly positive even in the current 
atmosphere, evidenced by the impressive number of applicants for the 
YES program in particular--683 in Lebanon (from which 24 were 
selected), 449 in Jordan (from which 18 were selected), and 497 in the 
West Bank (from which 25 were selected).
    I had the honor and pleasure, Mr. Chairman, of attending a 
reception here on Capitol Hill co-hosted by you and Senator Kennedy in 
honor of the first group of YES students just prior to their return 
home. I talked with a number of them, including some students from 
Syria where I most recently served. I can honestly relate, Sir, that 
each and every one of these young people was enthusiastic about the 
high school academic year they had just experienced. Time and again, 
they commented that they found Americans warm and welcoming and that 
they did not feel themselves strangers once they came to appreciate the 
true diversity of this country and the great number of immigrants who 
call America home. The one problem--if it can be called that--voiced by 
many of these young people was their concern that it would be hard to 
explain their positive feelings for this country and its people to 
their families and friends back home who had not had the same 
opportunity for first-person exposure. Therefore, I laud Congress and 
the Administration for renewing and expanding this program from the 
initial 160 students who participated last academic year to the 450 
expected this year.
    Despite the impressive response to the YES program, the United 
States risks suffering a net loss if the overall numbers of students 
coming here to study are outnumbered by those who make the conscious 
choice not to come. Unfortunately, this is a real possibility if not 
already a reality. The number of Saudi, Kuwaiti, and Bahraini students 
studying in the U.S. fell by over 25% the first academic year after 9/
11. Other countries that sent significantly fewer students included the 
UAE, Yemen, Syria, Jordan, Oman, Egypt, and Tunisia. Some of these 
previously U.S.-bound students have ended up at AUB, AUC, and the other 
more recently established U.S.-style universities in the region that 
have witnessed a surge in applications; in Qatar's new Education City, 
U.S. universities have established campuses and are awarding degrees 
identical to those they confer in the United States. While I will be 
the first to applaud an increase in the number of individuals who can 
benefit from a U.S.-style education in the region, these opportunities 
do not provide the first-hand exposure to U.S. culture and society that 
is so essential. Meanwhile, more Middle Eastern students are enrolling 
in universities in Australia, Canada, and the United Kingdom, whose 
representatives are actively recruiting in the region. Word of mouth is 
extremely important in the Middle East; and just as many Arabs have 
chosen U.S. study because their family and friends had positive 
experiences here years ago, today's international scholars will one day 
be recommending universities elsewhere in the world if current trends 
continue.
    Many of the reasons behind the declining enrollments of Middle 
Easterners at U.S. universities are well known, but they bear 
repeating. Initially, many Arab students heard stories, often 
exaggerated, about compatriots in this country suffering hostility and 
harassment immediately following 9/11. Worries about personal safety in 
the U.S. has largely subsided, but in its place is a growing fear of 
being humiliated at points of entry and concern about the U.S. attitude 
to the Arab world in general. The speed with which new visa regulations 
have had to be formulated and enforced has resulted in considerable 
confusion, not least within the U.S. government agencies charged with 
implementing the new policies. Some foreign students nearing the end of 
successful degree programs have been denied reentry into the United 
States or expelled from the United States because of an inadvertent 
minor visa violation or a bureaucratic mistake. Others have undergone 
intense investigation at their ports of entry--or have been sequestered 
for hours only to eventually be given a cursory interview and permitted 
through. The latter has occurred with a number of U.S. government-
sponsored students and other visitors administered by AMIDEAST, and in 
some cases the problem seems to have been insufficient immigration 
staffing rather than concerns about the visitors themselves. Sometimes 
these situations can be rectified, but by then students may have missed 
a semester or more of study and incurred significant additional 
expense, not to mention the ill will generated in the process.
    While the number of U.S. study-related visits to our field offices 
is on the upswing after two years of decline, far fewer students appear 
to be actively pursuing U.S. study options. Attendance at our 
preadmissions advising sessions reached a high of over 9,000 students 
in calendar year (CY) 2000, after which we have experienced a steady 
decline to just over 5,000 students in CY 2003; statistics from the 
first half of CY 2004 indicate that this trend is continuing. Our field 
staffs confirm that the fear of running afoul of visa regulations 
during a long course of academic study--and of lengthy and humiliating 
interrogation at points of entry--is discouraging many legitimate 
students from seriously considering higher education in the United 
States. If fewer Arab youth choose to come to this country for higher 
education, who in the next generation will be able to serve as cultural 
interpreters? Who will be able to explain that while U.S. regional 
policy may fall short in Arab eyes, there is much that is worthy of 
emulation in U.S. society?
    Finally, Mr. Chairman, I want to emphasize the importance of 
American students and scholars going to the Arab world for study. 
Despite the recent targeted violence against Americans and other 
foreigners in Iraq and Saudi Arabia in particular, many other parts of 
the region remain hospitable to visiting scholars, and interest in 
study abroad in the region among U.S. universities and students alike 
is on the upswing. Anything the U.S. government can do to encourage and 
promote this interest is most welcome. It is vital that we continue to 
develop linguistic and regional expertise. Failure to do this can 
literally kill us. A shortage of linguists, particularly in difficult 
Middle Eastern and South Asian languages, too often results in U.S. 
foreign affairs and law enforcement agencies being slow to recognize 
the importance of information already available to them. According to a 
Modern Language Association study released last November, only 8.7% of 
all college students are enrolled in foreign language courses, half of 
whom are studying Spanish. In a National Geographic survey done in 
2002, when there was much speculation that the United States military 
would be asked to go into Iraq, only 13% of young adults ages 18-24 
could locate Iraq or Iran on a map of the region. By contrast, 34% of 
young Americans correctly identified the South Pacific as the location 
of the island used for the show Survivor during that television season.
    In conclusion, I want to thank this committee and the Congress for 
its current commitment to funding the expansion and innovation of 
programs intended to bring Middle Eastern students to this country. I 
believe that even more can and should be done in this regard. The 
safeguarding of our borders must remain a top priority, of course. 
However, it is also important that the Department of State, the 
Department of Homeland Security, and other concerned government 
entities be adequately funded to handle their visa processing caseloads 
and that they work closely, cooperatively, and expeditiously to refine 
and streamline the visa issuance and entry processes. It is in our 
national interests to get out the word that the U.S. remains a country 
welcoming of foreign students and other visitors.

    The Chairman. Thank you very much, Ambassador.
    Let me just suggest now that we have a round of 
questioning. We will have a 3-minute limit and ration our time. 
That will allow us each maybe one question.
    I would like to direct my question to you, Ambassador. You 
have extensive experience with students from the Middle East. 
Picking up a question that Ms. Johnson asked, she said why 
spend so much time on people who are obviously no problem? 
Devote your time to those that seem to be a problem. Now, there 
seem to be two problems in a practical mind. People outside 
this hearing might say, on the one hand we talked earlier about 
problems of technical expertise or trade secrets or that type 
of thing. We were worried about the Chinese and the Russian 
students.
    But with the Middle Eastern students, many people would 
say, well, after all, that is where the war on terrorism is 
going on. This is where the people are coming from. Some 
Americans would say, well, now you are profiling. You are 
looking at very specific countries, and here these people are 
perfectly innocent. As a matter of fact they probably oppose 
what the mullahs are doing.
    How do we get to a point where as a practical measure we 
know who we want to look at, and how intensively we want to do 
so? Or do we discriminate in any fashion? How do we simplify 
the whole business?
    Ambassador Kattouf. Thank you for your question, sir. I was 
the Ambassador to Syria, where a lot of the most stringent visa 
regulations took effect prior to going into effect in a number 
of other countries. I can give you a vignette in which a Sunni 
Muslim woman, the daughter of two doctors who were well and 
favorably known to me, who were upstanding members of the 
community, who were very, very pro-American, who had come to 
this country all the time, came back to visit her parents 
during the summer. While she was there, her visa expired and 
the new visa regulations kicked in for Syria. She was working 
in her last year for a Ph.D. at MIT in the biological sciences. 
Her number one mentor at the university was a Jewish professor 
who thought extremely highly of her and had recommended her for 
teaching assistantships and the like.
    I as the U.S. Ambassador could do nothing to speed the 
process up. My word, my knowledge, counted for nothing. It had 
to be vetted, her name had to be vetted by Homeland Security, 
and it was impossible for me at that time to find out where in 
the system, if anywhere, you could intervene.
    Finally, we got her back in time to--but it was almost just 
serendipity that we got her back in time to do her 
assistantship.
    These stories can be repeated hundreds and hundreds of 
times. Right now, sir, in this country we have 3,500 Syrian-
American doctors, not people who came 100 years ago and are 
descendants of people who came 100 years ago, but people who 
got their university degrees in Damascus and Aleppo and are 
practicing as board-certified physicians in places like 
Appalachia today.
    So the benefit we have reaped by people coming from all 
over the world, including the Middle East, far outweighs any 
security threats. And I agree with Ms. Johnson, we need to 
concentrate our attention on those who would truly hurt us.
    The Chairman. Senator Sarbanes.
    Senator Sarbanes. Thank you very much, Mr. Chairman.
    I would like to put to each of you, let us do a 
hypothetical. Assuming that you have been established as the 
coordinator or the person in charge in the Executive Branch of 
our government with respect to this visa question, what 
changes, what are the top changes you would institute which 
could be done, as it were, immediately in order to address this 
question?
    Why do we not go right across the panel.
    Ms. Johnson. Well, the first thing that we need is policy 
guidance. There needs to be--the Department of Homeland 
Security has a responsibility for the policy guidance under the 
law. They, along with the Department of State, need to write 
something that is the policy guidance for the consular affairs, 
because without that the individual consul who is deciding has 
no choice really but to always make the most conservative 
decision, because nobody wants to be the one that made the 
mistake and they cannot be making individual policy down there.
    Secondly, we need to give consulates discretion to grant 
waivers of personal appearances based on a risk analysis that 
the State Department guidance provides. We need to refine the 
controls on advanced science and technology. There are a list 
of these which we have given, we have submitted, that are in 
your packet. Rather than using up all the time, I could go 
through them again, but----
    Senator Sarbanes. We will take a look at it.
    Ms. Johnson. Yes. But I think we have given--and we have 
been talking to the Department of Homeland Security. I have to 
say that we are working actively with the Department of 
Homeland Security and with the Department of State, and there 
is progress and we are told that there is more progress under 
way and that you will be pleased.
    Senator Sarbanes. Who do you work with when you work with 
the Department of Homeland Security?
    Ms. Johnson. Well, starting at the top, with Asa Hutchinson 
and Stewart Verteray and on down.
    Senator Sarbanes. Do you think there should be a person in 
the Department of Homeland Security tasked with just this 
problem alone?
    Ms. Johnson. Which, the visa problem?
    Senator Sarbanes. Yes.
    Ms. Johnson. Well, there must be. I do not know. I mean, 
there is--there are people with this responsibility, but it is 
not the only responsibility at the Department. But there are 
individuals whose primary responsibility is visa policy.
    Senator Sarbanes. No, I meant just student visas.
    Ms. Johnson. Yes, student visas.
    Senator Sarbanes. There is such a person?
    Ms. Johnson. Yes.
    Senator Sarbanes. I did not think there was.
    Ms. Johnson. Well, you mean, are you talking about a person 
who has no responsibility other than student visas?
    Senator Sarbanes. That is right--a specific person who is 
the go-to person by universities all across the country, by 
ambassadors with their problems. This is your fairly high-level 
person within the Department who has the authority and the 
power to handle just this problem, and everyone knows that this 
is the person and this is the office to go to; this particular 
problem within the broader visa problem is of sufficient 
importance that it ought to have this kind of bureaucratic 
structure to deal with it.
    Ms. Johnson. Well, I think I am not sure if you are asking 
if they should have a place where individual universities are 
going to for case work. I do not know that that is what we need 
here, because we really need a policy driver that gives, 
provides the flexibility for individual consular affairs people 
at each embassy to work with. That is the framework.
    Senator Sarbanes. I am hard put to see how the guidance is 
going to get the consular officer off the hot spot of being 
extremely defensive about who he lets in, because no one wants 
to be the consular officer who gave a visa to someone who turns 
out to be a bad actor.
    Ms. Johnson. Exactly, right.
    Senator Sarbanes. You are finished if that happens. So 
somehow you have to get it to a point where you have people who 
are prepared to make these decisions and in effect take the 
responsibility for them. I am searching for a way to do that, 
to break through the system in order to make it work.
    Ambassador Kattouf. Senator, if I may, if might say, I as a 
former Ambassador, I think that is an excellent idea, that 
there needs to be an ombudsman maybe in the Department of 
Homeland Security, somebody who could cut across all the 
various agencies that vet visas and run the name checks and 
say, okay, we have an ambassador out here or we have a consul 
general out here or a Fulbright commission out here who have 
reviewed this person. We know who this person is, even if their 
name is similar to that of a terrorist because they have a 
tribal name or something. We know this is not the person you 
are looking for. It is not necessary to do 6 months of further 
background checks. We know who we have got here; please admit 
this person.
    Because you are absolutely right, the consuls cannot take 
that responsibility. The vice consuls are finished if they just 
make one mistake of a serious nature.
    The Chairman. Thank you for that suggestion.
    Thank you, Senator Sarbanes.
    Senator Alexander.
    Senator Alexander. Thank you, Mr. Chairman.
    I will make a brief comment and ask one question so we have 
time for Senator Coleman, who has displayed such an interest in 
this subject. On Senator Sarbanes' comment about rationale, I 
would guess the rationale for all this is, for the importance 
of the visas, is, one, public diplomacy. One could argue that 
the best spent dollars that the United States has ever spent on 
improving our position around the world has been at American 
universities educating people from around the world. I believe 
that.
    Two, jobs. The National Academy of Sciences says that half 
our new jobs since World War II have come from investments in 
science and technology, and you have told us or reminded us 
that a quarter to a third of our science and engineering 
degrees, new degrees, are held by foreign--well, more than that 
are held by foreign, earned by foreign nationals. But maybe a 
third of them stay here.
    Then the third is--and I do not mean this in any 
disparaging way--600,000 students times whatever the tuition is 
is a lot of money, and that is very important to many colleges 
and universities in the United States. They are glad to have 
the customers.
    My question is this. Are you involved with the national 
laboratories in your work to solve this problem? They have the 
same problem. They are similar institutions. They are managed 
by yet another department of our government, the Department of 
Energy, and might be a valuable ally in solving the problem.
    For example, three physicists approved to do research at 
Oak Ridge National Laboratory went to Canada for a conference 
during their stay at Oak Ridge and were not allowed to return 
to Oak Ridge, so they spent the next 6 weeks in Canada trying 
to get back. The same sort of problem that you have with 
repetitive visas.
    So my question is, are national labs involved in the work 
you are doing at all? Do you work with them?
    Dr. Goodman. Senator, many of us have also testified with 
the National Academy of Sciences, which takes also the lead in 
the scientific community for just this thing. We all face 
similar problems. We communicate with each other a great deal.
    I think Senator Sarbanes has really hit the nail on the 
head. If we had the Homeland Security counterpart to the 
Assistant Secretary for Cultural Exchange at the Department of 
State, it would elevate the problem and also the urgency of the 
solution in that Department in the way that the State 
Department has acted very proactively. They are not the 
problem. It is the other Department and they need to treat 
educational exchange and scientific exchange as just as 
important as any other aspect of their business in homeland 
security.
    Ms. Cotten. Might I add? Once we have done all of this--and 
people mentioned before. Once we have subjected each of these 
people to this review and we have decided that they can come 
in, then give them visas that are the duration of their 
programs, that are tied directly to the educational or research 
activities, rather than truncated.
    The Chairman. Thank you very much, Senator Alexander.
    Senator Coleman.
    Senator Coleman. Thank you, Mr. Chairman.
    I take great pleasure in having Ms. Johnson here. She is a 
former lieutenant governor of the State of Minnesota. Eleven 
years ago we participated in a series of debates together when 
we were both candidates for mayor of the city of St. Paul. So 
we have all come a long way since those days. It is great to 
have you here.
    Reflecting on the issue raised by my colleague from 
Maryland, the idea of having a single person in Homeland 
Security, I would also raise at least from my discussion of 
these issues a larger need for coordination among a number of 
agencies. I do not know if the Department of Education has a 
specific role in this, but you would think they would be 
involved in some of these discussions. The Department of 
Commerce, Department of State, they have programs to promote 
higher education. I think they have got to be at the table. My 
sense is that their efforts are not well coordinated.
    The Department of Homeland Security has a clear role in 
this, but I am not sure if their activities, if they are 
involved in this discussion integrated with others. So I 
would--as we focus on a question of perhaps an ombudsman, I am 
certainly willing to explore that idea.
    Could you talk to me about how do we bring together the 
various agencies of government so we are all focusing on the 
same page and on the same tune? I will add just a second part 
to the question. I worry about the outreach. Assuming we make 
changes, I think there is concern in the world today in terms 
of whether folks want to come here. I think our competitors, 
Australia and England, are doing a heck of a job marketing. 
They are selling. Though we have a multitude of opportunity 
here, I am not sure that we are doing the best job of selling 
our products.
    Can you talk to me about coordination and then marketing, 
reflections? Mr. Goodman, Dr. Goodman.
    Dr. Goodman. Thank you, Senator. We have an executive order 
which establishes an International Education Week under the 
guidance of the Secretary of Education and the Secretary of 
State. We do not have as a national policy of international 
education which provides the resources, the policy guidance, 
gets all the players at the table, and does what other 
countries that are competing with us every day do, as Britain 
does, as France does, as Germany, Japan, Australia, countries 
we have talked about this morning.
    So a major step forward would be for this country to have 
not only an International Education Week, but a national policy 
for international education.
    Senator Coleman. Thank you, very helpful.
    Any other comments? Ms. Johnson.
    Ms. Johnson. I think the issue of coordination is 
essential, and the international education policy that Dr. 
Goodman just talked about is part of a proposal and was 
reflected in the Senate Resolution 7 that you co-authored, Mr. 
Chairman.
    I think that the lack of a policy and the lack of 
coordination is one of the most significant impediments to 
moving forward, because there are so many unintended 
consequences of virtually every fix that we come up with. So 
without that policy and without an inter-agency look at this, 
we will just go from one more unintended consequence to 
another, and we are getting ourselves in a deeper hole and we 
must work on this in a more disciplined way.
    Senator Coleman. Thank you, Ms. Johnson.
    Thank you, Mr. Chairman.
    The Chairman. Well, thank you very much, Senator Coleman.
    Let me just comment in summary. The last hearing we had on 
this general subject, we had where you are now sitting 
representatives from the State Department, from Immigration, 
from Homeland Security, in an attempt for each of these 
officials to listen to each other as well to our general pleas 
for progress. I state it that way. It is not incrementalism, 
but we appreciated that they were not going to all change their 
minds and policies during one hearing. We were asking them to 
consider the problem together.
    We had on that occasion people from the tourism industry in 
addition to education. The thing was oriented much more toward 
the trade impact and imbalances in terms of income and so 
forth. Of course, the trade people had a whole raft of things 
about why tourism is down in various parts of our country, and 
they went through all of this.
    Our officials are cognizant of this. They are sensitive to 
this. However, I think the hearing today refines a good number 
of points. It is important that we try to find out what happens 
with regulations and statutes, specifically which agencies are 
players and which need to coordinate or listen to each other or 
can unilaterally make changes.
    In the collective testimony that the witnesses have given, 
including both our first panel and this panel, there are a 
number of pointed suggestions, including the idea of a 
roundtable of sorts. I am trying to envision in my mind's eye 
who all needs to be around the table, but I have some pretty 
good ideas. The Senators who were here today have manifested a 
strong interest for a long time in these issues, as have you, 
the witnesses.
    We will do our best to push ahead and we will try to do so 
in a timely way. Although the Congress will not be in session, 
we suspect, through much of the rest of this year, some of us 
will, in fact, still be working at our day jobs and we will try 
to formulate some plans and maybe even some activities or 
meetings that will be helpful.
    I thank each one of you for your testimony, as well as your 
colleagues who helped you prepare for the hearing, and all 
Senators who have participated.
    So saying, the hearing is adjourned.
    [Whereupon, at 11:36 a.m., the committee was adjourned.]
                              ----------                              


   Additional Statements and Questions and Answers Submitted for the 
                                 Record


             Prepared Statement of Senator Russ D. Feingold

    Thank you to the Committee for holding this hearing today. It is 
imperative that we look closely at how our visa regulations are 
affecting international student and researcher access to the United 
States. In our efforts to enhance our national security, we must 
remember that international exchange programs also contribute to making 
America safer. In an increasingly interconnected world, exchange 
programs equip Americans with the necessary skills to tackle global 
problems, such as dismantling terrorist networks and stemming the 
proliferation of weapons of mass destruction, and to compete in the 
global marketplace. Exchange programs also assist in dispelling 
negative stereotypes of Americans. They foster trust and mutual 
understanding and allow the United States to transcend anti-American 
rhetoric and define itself to others.
    I believe that diplomacy must occur at all levels of society and 
not only through government representatives. For this reason, I 
introduced S. Res. 313, the People-to-People Engagement in World 
Affairs resolution, with Senator Chuck Hagel. This resolution is a call 
to Americans to look beyond our borders to engage with the wider world 
at an individual, human level. It encourages Americans to seize 
opportunities to engage in the global arena--through participating in a 
professional or cultural exchange; studying or volunteering abroad; 
working with an immigrant or refugee group in the United States; 
hosting a foreign student or professional; participating in a sister-
city program; and learning a foreign language. This resolution supports 
the efforts, of so many organizations, some of whom are represented at 
this hearing, to increase international exchange, awareness and 
understanding.
    I am especially proud of my constituents in Wisconsin, who have 
continued to demonstrate a commitment to international education. 
Wisconsinites have opened up their homes to international students and 
professionals from all over the world. They have trained dairy farmers 
in South America and Eastern Europe, participated in sister-city 
exchanges with Russia and Colombia, traveled to refugee camps in 
Thailand, built schools in Tanzania, and hosted Pakistani educators. 
Wisconsin is also one of the biggest contributors of Peace Corps 
volunteers in the United States, and Wisconsin's universities and 
colleges host students from around the world. Through these activities, 
my constituents have fought stereotypes and created openings for 
greater trust and cooperation.
    The 9/11 Commission recommended that we ``defend our ideals abroad 
vigorously'' and ``act aggressively to define'' ourselves in the 
Islamic world through a variety of channels, including rebuilding 
scholarship and exchange programs that reach out to others abroad. 
Congress must commit to assist in creating a predictable, transparent 
and timely visa process that protects our national security, in order 
to facilitate these types of programs. I believe that we can 
simultaneously protect our country and welcome international students 
and researchers.
                                 ______
                                 

     Response by Marlene Johnson to Question From Senator Feingold

    Question. What do you believe are the major contributing factors to 
declining application rates from international students to study in the 
United States, as the statistics seem to demonstrate? Is it a 
perception of an arduous visa process, the actual visa process itself, 
anti-American sentiment, the attractiveness of other countries to 
student, or other factors?
    Answer. Unfortunately, I think each of the factors you've listed 
has contributed to something of a ``perfect storm'' leading to 
declining application rates. The visa process was incredibly arduous 
and unpredictable for quite some time after 9/11. While the Departments 
of State and Homeland Security have made much progress over the last 
few months, which we truly appreciate, problems remain.
    For instance, Visas Mantis security checks are taking much less 
time on average than they were last year, or even earlier this year, 
but far more people are being subjected to them--requests for these 
checks have increased from only 1,000 in FY2001 to nearly 22,000 in 
FY2004. And the same people are often caught up in the process all over 
again when they leave the country for a short period of time, and then 
return--even when they're returning to resume the exact same program.
    Moreover, the perception that it is unnecessarily difficult to 
obtain a visa to study in the United States will be difficult to quell 
without proactively and decisively addressing it. As they say, ``you 
only get one chance to make a first impression.'' For many prospective 
students who were ``introduced'' to us during these tumultuous times, 
we cannot just sit back and hope they will give us a second chance. We 
need to redeem ourselves and roll out the welcome mat.
    Other countries have been challenging our near-monopoly of the 
international student market for years--and they are more than happy to 
step into the void we are currently leaving. We need to reestablish the 
United States as the destination of choice for international students. 
To do this, we will need a national strategy--which my organization has 
outlined in a report entitled ``In America's Interest: Welcoming 
International Students'', which I would be happy to share with the 
Committee.
                                 ______
                                 

 Responses by Ambassador Ted Kattouf to Questions From Senator Feingold

    Question. How has the growing anti-Americanism in the Middle East 
affected your programming?
    Answer. AMIDEAST enjoys a longtime, well-regarded presence in the 
Middle East and North Africa. Our mission is to strengthen 
understanding and cooperation between peoples of the region and the 
United States, which we do through assisting individuals interested in 
pursuing U.S. study, carrying out institutional development projects in 
the region, and teaching English to interested parties. For the most 
part, these programs have not been affected by changing regional 
perspectives vis-a-vis the United States. In recent years, our office 
functions have become more security-conscious to some degree, but not 
in a manner that affects our work. In Lebanon, Jordan, and Northern 
Iraq, for example, AMIDEAST is intentionally subtle in its signage in 
order not to draw attention to an American-based organization and its 
local clients. In certain offices in the region, we employ a security 
guard. Occasionally, our offices may close on recommendations from the 
U.S. Embassy or the local security services, but this happens more 
often in areas of greater tension like the West Bank and Gaza than it 
does for the region as a whole.
    Question. How receptive are people in the Middle East to exchange 
programs with the United States and to learning English?
    Answer. AMIDEAST's three activities which are most indicative of 
public interest include advising services for students interested in 
U.S. higher education, recruitment for U.S.-bound exchange programs, 
and English language education. Overall, our statistics indicate a 
consistently high level of interest in exchange programs and language 
learning, while the practical difficulties many students associate with 
U.S. study compromise advising numbers.
    Statistics on the number of students taking advantage of our free 
advising services have exhibited a decrease since 2001, with the 
numbers beginning to recover in 2003. Several country-specific examples 
follow.
  <bullet> In Egypt, there has been a 30% decline in advising, 
        accompanied by a 10% decline in the number of students studying 
        at U.S. institutions.
  <bullet> Since the introduction of more strictly imposed visa 
        regulations, Kuwait has experienced a 50% decline in 
        applications to the United States.
  <bullet> In Lebanon, attendance at regular advising sessions deceased 
        by 52% in the year following 9/11, and remains 41% lower 
        through CY2003, although the numbers have begun to climb again. 
        Attendance at the free, weekly graduate advising session on 
        September 10, 2001 was 93 attendees; weekly attendance since 
        then averages 10 students per week.
  <bullet> In Syria, educational advisers report increased interest in 
        American-style universities in the region as an alternative to 
        institutions in the U.S., with 50% more applications to the 
        American University in Beirut, 32% more to the American 
        University in Sharjah, and 68% more to the Lebanese American 
        University.
  <bullet> During advising sessions in Morocco, attendees are asking 
        more questions about American universities in Europe with a 
        special emphasis on those located in Spain.
    Yet while the number of students taking advantage of our advising 
services has declined, applications for exchange programs continue to 
increase. In three of the U.S. government-sponsored exchange programs 
for which AMIDEAST conducts recruiting in the region--Youth Exchange 
and Study (YES), Partnerships for Learning Undergraduate Study (PLUS), 
and the Fulbright Foreign Student Scholarship Program--demand far 
outstrips the available slots. For newer programs like YES and PLUS, 
which are just entering their third year of recruitment, application 
numbers continue to increase. It is significant that these programs 
offer opportunities at several levels of education: YES targets for 
high school students, PLUS is for undergraduates, and Fulbright funds 
graduate students. Students and their families at all of these levels 
express keen interest in the opportunities available in a U.S. 
education.
    Third, AMIDEAST's English language course enrollments have 
increased steadily over the past decade, with an appreciable increase 
especially since 2001. For fiscal year 2000, which closed at the end of 
September 2001, regional English language course enrollments were 
12,854. In the next fiscal year, enrollments rose to 15,565, increasing 
again to 20,816 in FY2003 and to 25,569 in FY2004. Put more succinctly, 
AMIDEAST's English language program enrollments have more than doubled 
since 2001, indicating an increasing interest in the opportunities 
provided by learning the language, even as it is increasingly difficult 
for students to take advantage of U.S. study opportunities.
    Question. How often do you confront misperceptions of the United 
States in your daily work?
    Answer. Broadly speaking, people in the Middle East and North 
Africa tend to make a distinction between U.S. foreign policy in their 
region, and the culture, opportunities, and people they may encounter 
in the U.S. For example, a Middle Eastern student may oppose U.S. 
foreign policy, but have a positive view of Americans and be 
enthusiastic about the opportunity to study in the U.S. Accurate and 
inaccurate perceptions may more often stem from an unwelcoming 
experience, either at the Embassy or consulate, or upon encountering 
the airport security apparatus. Word of mouth is a particularly 
meaningful conduit in the region, and one student's bad experience can 
be repeated ad infinitum, in many cases serving to discourage other 
students. This information contributes to the perception that students 
are unwelcome in educational contexts, when the opposite is true. Our 
educational advisers in the region work to correct these misperceptions 
and encourage students to continue applying to programs in the U.S.
                                 ______
                                 

  Prepared Statement of Tim Honey, Executive Director, Sister Cities 
                             International

    On behalf of the 700 U.S. communities partnered with more than 
1,800 international communities in 125 countries, I want to thank the 
committee for addressing the issues surrounding the current visa policy 
as it impacts international educational, cultural and development 
exchanges. Sister Cities International is an international nonprofit, 
citizen diplomacy network that creates and strengthens partnerships 
between U.S and international communities at the local level. Sister 
Cities International works to promote sustainable development, youth 
involvement, cultural understanding, and humanitarian assistance 
through citizen diplomacy. Citizen diplomacy is a peaceful way to 
promote American foreign policy by establishing links between people 
within the international community. Sister Cities International works 
to create citizen-to-citizen connections by promoting peace through 
mutual respect, understanding, and cooperation at the local, county and 
state level. Annually, 7,000 to 13,000 citizen exchanges occur between 
sister city programs.
    In the three years since September 11, 2001, the need to eliminate 
global terror and institute avenues of intercultural understanding has 
grown. Today, citizen diplomacy programs hold the highest incentive for 
governments who are interested in establishing goodwill between states. 
International education and exchange programs are critical elements in 
the conduct of U.S. foreign policy and advance our national security 
interests. The United States must make deliberate efforts to forge 
sustainable, mutually cooperative relationships between the U.S. and 
other countries around the globe, especially in the Middle East, 
Africa, and Commonwealth of Independent States and Russia, in order to 
rebuild global security. Sister Cities International is well positioned 
to play an integral role by supporting long-term community partnerships 
through reciprocal exchange programs.
    Today, the impact of international exchanges is being significantly 
reduced by the current visa policy. Last year alone, many sister city 
programs have been affected by visa decisions that have reduced or 
limited the ability of sister city affiliated groups in East and West 
Africa, Russia, Eastern Europe and the Middle East to come to the 
United States on official exchanges between sister cities. For 
instance, in Russia, participants have been denied visas on a continued 
basis to travel on sister city exchange programs. In many cases, these 
individuals have been involved with their respective sister city 
programs for ten to fifteen years, and all of the sister city visitors 
have returned home to share their ideas and experience from the U.S. 
Despite the long-term relationship and clear ties to their homes and 
jobs, they were denied entry to the United States.
    Of particular concern in Russia is the tendency for individuals 
between the ages of 15-30 to be denied visas to participate on sister 
city exchanges. Youth exchanges are an important component of Sister 
Cities International as they build connections for our youth to work 
and communicate cross-culturally with one another. Without educating 
youth around the world about the opportunities and cultures that exist, 
we deny them the ability to make close friendships and the exposure to 
American cultures, values and beliefs. Sister city partnerships are 
unique because youth are able to explore new experiences and new ideas 
when they are able to participate on international exchanges. As one of 
our sister city communities writes: ``During a visit to Togliatti 
[Russia], I proposed an education program to benefit a young female 
Russian teacher. . . . [the young Russian teacher was denied a visa] . 
. . I asked if she had given a reason for the denial; she replied that 
she had not given a reason, but had been questioned in a manner that 
would suggest she was suspected of being a spy. She added that her 
interview was conducted in a hostile manner, full of accusation and 
innuendo.''
    In Ghana, where we have strong sister city programs, sister city 
participants in Cape Coast, Ghana (sister city with Hanover Park, IL) 
were denied visas on two occasions even though they were participating 
on a federally sanctioned HIV/AIDS prevention and education grant 
program through the U.S. Department of State's Bureau of Educational 
and Cultural Affairs. The delegations included the Mayor of Cape Coast 
and a number of local government officials--all of whom have 
significant ties to their hometowns. In Tamale, sister city to 
Louisville, KY, exchange participants seeking to attend Louisville's 
2004 Sister City Summit were also denied visas. Again, the delegation 
included local government officials and civil servants. The Summit 
involved all six of Louisville's sister cities and celebrated the 25th 
Anniversary of the signing between Louisville and Tamale.
    It is clear from these examples that a more coherent, transparent 
and predictable visa policy is needed to ensure that international 
exchange participants traveling on officially recognized programs are 
able to enter the United States. To that end, Sister Cities 
International recommends that the Department of State and the 
Department of Homeland Security review the current visa policy as it 
pertains to international exchange participants, especially for 
students and international professionals who seek to enter the United 
States on officially-sanctioned exchange programs run by reputable 
organizations such as Sister Cities International. While I agree that 
efforts must be undertaken to secure the United States against further 
terrorist activities, a crucial balance must be struck between our 
nation's security needs and the ability of international students and 
professionals to visit the United States to learn about this great 
nation. International exchange organizations such as Sister Cities 
International, the International Visitors program, the Fulbright 
Program, the American Council for Young Political Leaders, AYUSA 
International, Institute of International Education, and countless 
others play a vital role in supporting the Department of State's 
citizen diplomacy efforts. Without a transparent and predictable visa 
adjudication process, many exchange participants will be denied the 
privilege of coming to the United States, and efforts to bridge the 
divide that exists between many peoples of the world and the United 
States will be hampered.
    Sister Cities International believes that three important things 
can be done to support a more transparent and predictable visa process. 
First, Sister Cities International is willing to provide a letter of 
support certifying each sister city exchange program. This letter would 
be sent to the public affairs and consular affairs officers at the 
respective U.S. Embassy. Recognition by the public affairs or consular 
affairs office in each Embassy of the existence of sister city 
relationships could also be a mechanism to ensure that visa applicants 
are given a fair hearing. Sister Cities International would be open to 
discuss with the Department of State possible ways to share information 
about our programs with the Embassy staff in specific countries, 
especially in countries where we are administering federal exchange 
programs.
    Second, efforts should be undertaken to give visa applicants better 
and more information about how the process works and a concrete 
timeframe for adjudication and decision. Steps have already been 
undertaken by the Department of State to provide this information 
through the new Bureau of Consular Affairs website. However, given that 
many applicants live in less affluent countries and do not always have 
access to the internet, it is important for consular officials to 
provide estimated waiting and processing times through other 
communication mediums as well. Sister Cities International is also in 
the process of creating a webpage for its members that outlines the 
steps necessary to apply for visas for both U.S. and international 
exchange participants participating in sister city programs.
    Third, Sister Cities International would like to see an appeals 
process established that would allow visa applicants the ability to 
reapply for a visa if denied without having to go through the entire 
process from the very beginning. Because sister city programs rely 
heavily on local funding sources, multiple visa application payments 
can cause financial hardships and could discourage applicants from 
participating in sister city exchanges. In addition, a number of our 
programs tend to apply for visas in a group--as the group plans on 
attending a conference or summit hosted by our member communities. 
Recent summits/conferences have been held in Illinois and Louisville, 
KY. In both cases, applying as a group reduced the chance for visas 
being issued. An appeals process in this case would greatly expedite 
reapplication, hopefully allowing some of the participants to attend 
these important summits/conferences.
    Sister city and other international exchange programs are time-
tested and uniquely cost effective. They help ensure a prosperous 
future for the United States and a more democratic world. Individuals 
who participate in citizen diplomacy programs experience a profound 
change in the way they think about the world, leading to greater 
understanding, mutual respect and cooperation around the complex issues 
affecting our global community. This is the vision that drove President 
Dwight D. Eisenhower to establish our organization in 1956 and it 
remains the vision today by which we hope to promote peace--one 
individual, one community at a time.
                                 ______
                                 

Prepared Statement of Dr. Michael Vande Berg, Director of International 
                    Programs, Georgetown University

    Chairman Lugar, Ranking Member Biden and Members of the Committee, 
I appreciate this opportunity to share with you some of my thoughts on 
visa policies as they relate directly to international student and 
scholar exchanges. We at Georgetown are immensely proud of the vibrant 
international dimension of the educational opportunities we offer our 
students. More than 10 percent of our student body and over 500 of our 
faculty and researchers are from abroad. I would note that former 
Spanish President Jose Maria Aznar has just joined our faculty. This 
international presence is central to the University's mission and 
character, and it has an important and enduring impact on the 
educational experiences of all of our students. I would add that more 
than half of Georgetown students study abroad at some time during their 
undergraduate academic studies. When it comes to the international 
character of the Georgetown educational experience, I think you can see 
that it is most definitely a two-way street. And it is a street that we 
most definitely want to keep open in both directions.
    Being located in the Nation's Capital, we are sensitive to the need 
for effective measures to protect against terrorism. We have invested 
heavily in security measures on our campus, including what will amount 
to more than $150,000 by next year to ensure that the new SEVIS system 
is operating effectively. It has not been easy, but we understand the 
importance of protecting our students in this post-9/11 world. We are 
also keenly aware of the very important role that effectively crafted 
international education programs can play in fostering international 
understanding. I would mention that two current international leaders--
both of whom have been key allies of the United States in this 
challenging time--Philippine President Gloria Arroyo Macapagal and 
Jordan's King Abdullah--studied on Georgetown's campus. Their 
understanding of this great country of ours has no doubt influenced 
their views as international leaders. It is very possible that future 
world leaders are studying on our campus today, and I trust that their 
experience here will prove beneficial to the United States in the years 
to come as has been the case throughout Georgetown's history.
    Having said that, I would like to share with the Committee several 
examples of situations that have arisen on our campus in recent months 
that, while anecdotal, do highlight how current regulatory strictures 
have inhibited students and faculty from pursuing legitimate and 
beneficial educational and research objectives:
  <bullet> An English language-training program for Japanese teachers 
        funded by the Japanese Ministry of Education, which had 
        operated at Georgetown for eleven consecutive years, shifted 
        the program to an Australian university after encountering 
        difficulties in securing visas for the teacher participants.
  <bullet> A highly regarded faculty member in the Georgetown 
        University Department of Physics received funding from the 
        Department of State's Civilian Research and Development Fund 
        for collaborative research involving researchers from the 
        Ukraine and from Georgetown. The Ukrainian scientists' initial 
        visit to the United States was delayed a full year because of 
        visa issuance delays. A subsequent trip was delayed, but for a 
        shorter period of time. As a result, it became necessary to 
        secure a six-month extension so that the research funded by the 
        Department of State could be completed.
  <bullet> A Chinese doctoral candidate in the Department of 
        Psychology, scheduled to graduate this year, has been involved 
        in significant research on dopamine receptors and hypertension. 
        The researcher returned to China to explore post-graduation 
        employment opportunities, but unexpected delays in issuing the 
        student a new visa put his research at risk because, while he 
        was awaiting the new visa in China, the mice used in his 
        experiment were aging beyond the stage useful for the 
        experiment. A visa was finally granted just in time for the 
        researcher to present his work to the American Society of 
        Hypertension last May, but the delays precluded any opportunity 
        to update his research prior to the presentation.
  <bullet> A Saudi student, whose family currently resides in England, 
        has traveled without difficulty between the U.S. and England on 
        several occasions since September 11, 2001, without difficulty. 
        However, when he applied for a visa revalidation on July 8, 
        2003, the visa was not issued until December. The student was 
        forced to miss a semester of academic work and, rather than 
        graduating with classmates this past May, will instead be 
        graduating in December.
    These are examples of what, I am confident, Members of the Foreign 
Relations Committee will understand to be very frustrating situations 
which, taken separately, may seem rather insignificant. But when 
circumstances like this arise so frequently--and I can assure you that 
colleagues in the field of international education on campuses across 
the country have been confronting them as well--they have a cumulative 
impact that is very significant.
    While we appreciate the special efforts of the State Department to 
resolve individual cases, I strongly urge that a dispassionate review 
be undertaken of the visa policy changes implemented since September 
11, 2001, with an open mind to making adjustments which will ease 
unnecessary burdens on valuable international educational exchanges 
without lessening needed homeland security protections. I know that the 
Department of Homeland Security is currently evaluating a proposal to 
replace the current requirement for annual security checks for 
international students studying in this country with a security 
clearance that, instead, covers a four-year period. I strongly 
encourage the Department to act quickly and favorably on that proposal. 
In my view, it reflects good common sense.
    Not long ago, Assistant Secretary of State for Consular Affairs 
Maura Harty provided educators a very encouraging update on the visa-
processing situation. We appreciate very much her personal 
understanding of the value of educational exchanges and the attention 
she has given to these issues. Ms. Harty is also undertaking an 
important initiative to demonstrate, through consular offices in India 
and China, collection of the fees mandated to cover the costs of the 
SEVIS system in the same manner that other visa fees are collected. 
This has always seemed to me to be the most logical means of collecting 
the SEVIS fees without creating a parallel and complicated fee 
collection system, and I hope this Committee and others in the Congress 
will encourage her initiative and study its results quite carefully. 
While a fee collection system relying on payments by mail using checks 
or money orders issued by U.S. banks or by credit card over the 
internet was implemented by the Department of Homeland Security 
effective just over a month ago, many of us in the field remain 
concerned that this system will result in a good number of prospective 
students not being able to secure visas. In that I have advocated, 
along with many others, that the fee would most logically be collected 
at consulates as visa applications are submitted, we are hopeful that 
Assistant Secretary Harty's demonstration will prove successful and 
pave the way for this improved fee collection system to be implemented 
across the board in the not too distant future.
    In closing, I would like to thank Senator Coleman, a member of this 
Committee, for his thoughtful legislative proposal, the International 
Student and Scholar Access Act. His approach is an important step in 
the direction of making the policies governing international students 
workable. In introducing his legislation, Senator Coleman made an 
important point that this is ``. . . a world that, at times, I think 
may hate us because they don't know us.'' My experience tells me that 
the Senator has summed up in a few words a profound reality that many 
of us in international education are facing. I trust his words will 
guide the Committee in its deliberations.
    Thank you.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
